No. 19-___
IN THE

Supreme Court of the United States
————
ARIANA M.,
Petitioner,

v.

HUMANA HEALTH PLAN OF TEXAS, INC.,
Respondent.
————
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fifth Circuit
————
PETITION FOR A WRIT OF CERTIORARI
————
AMAR RAVAL
BERG PLUMMER
JOHNSON & RAVAL
3700 Buffalo Speedway
Suite 1150
Houston, TX 77098
(713) 526-0200

ELIZABETH HOPKINS
Counsel of Record
LISA S. KANTOR
KANTOR & KANTOR, LLP
19839 Nordhoff Street
Northridge, CA 91324
(818) 886-2525
ehopkins@kantorlaw.net

Counsel for Petitioner
February 5, 2020
WILSON-EPES PRINTING CO., INC. – (202) 789-0096 – WASHINGTON, D. C. 20002

QUESTION PRESENTED
Section 502(g)(1) of the Employee Retirement Income
Security Act of 1974 (“ERISA”) provides that “[i]n any
action under this subchapter * * * by a participant,
beneficiary or fiduciary, the Court in its discretion may
allow a reasonable attorney’s fee and costs of the action
to either party.” 29 U.S.C. 1132(g)(1). This Court, in
Hardt v. Reliance Standard Life Ins. Co., 560 U.S. 242
(2010), held that to be eligible for an award of attorney’s
fees under this statutory provision, an applicant need
not be a “prevailing party,” id. at 252, but rather need
only achieve “some success on the merits.” Id. at 256.
Petitioner Ariana M. was a beneficiary under an
ERISA-covered healthcare plan insured and administered by Respondent Humana Health Plan of Texas,
Inc. (“Humana”). She sought, to no avail, benefits under
the plan covering mental health treatment that she
underwent in 2013. In 2018, after a district court in
Texas and a panel of the Fifth Circuit upheld Humana’s
denial of her claim under a deferential standard of
review, Petitioner obtained a favorable decision from
the en banc Fifth Circuit reversing its decades-old precedent and remanding her claim to the district court
for de novo consideration of Respondent’s denial. On
remand, the district court again concluded that
Respondent correctly denied Petitioner’s claim for
benefits, and denied Petitioner’s request for attorney’s
fees for the work leading up to the en banc decision.
The Fifth Circuit affirmed.
The question presented is whether a beneficiary
achieves “some success on the merits” for purposes of
a fee award under ERISA Section 502(g)(1) when she
obtains a significant legal victory that increases the
likelihood of a favorable benefits determination and
that benefits other plan participants and beneficiaries,
regardless of whether benefits are ultimately awarded.
(i)

ii
PARTIES TO THE PROCEEDING BELOW
Petitioner is Ariana M., the plaintiff-appellant below.
Respondent is Humana Health Plan of Texas, Inc.,
the defendant-appellee below.

TABLE OF CONTENTS
Page
QUESTION PRESENTED ..................................

i

PARTIES TO THE PROCEEDING BELOW .....

ii

TABLE OF AUTHORITIES ................................

v

OPINIONS BELOW ............................................

1

JURISDICTION ..................................................

1

STATUTORY PROVISION INVOLVED ............

1

STATEMENT ......................................................

2

REASONS FOR GRANTING THE PETITION..

5

I. THE DECISION BELOW CREATED A
CIRCUIT CONFLICT AND EXACERBATED CONFUSION IN THE LOWER
COURTS
CONCERNING
FEE
AWARDS ...................................................

6

II. THE COURT OF APPEALS’ DECISION
IS INCORRECT ........................................

11

III. THE QUESTION PRESENTED IS
EXCEPTIONALLY IMPORTANT AND
WARRANTS REVIEW IN THIS CASE ....

15

CONCLUSION ....................................................

18

APPENDIX
APPENDIX A: OPINION, Court of Appeals
for the Fifth Circuit (Nov. 8, 2019) ................

1a

APPENDIX B: MEMORANDUM AND OPINION, District Court for the Southern District
of Texas (Sept. 14, 2018) ................................

7a

(iii)

iv
TABLE OF CONTENTS—Continued
Page
APPENDIX C: JUDGMENT ON REHEARING EN BANC, Court of Appeals for the
Fifth Circuit (March 1, 2018) .........................

47a

APPENDIX D: OPINION, Court of Appeals
for the Fifth Circuit (Apr. 21, 2017) ..............

96a

v
TABLE OF AUTHORITIES
CASES

Page(s)

Abatie v. Alta Health & Life Ins. Co.,
458 F.3d 955 (9th Cir. 2006) .....................

17

Ariana M. v. Humana Health
Plan of Tex., Inc.,
CV H-14-3206, 2018 WL 4384162 (S.D.
Tex. 2018) ..................................................

1

Ariana M. v. Humana Health
Plan of Texas, Inc.,
No. 18-20700, 2019 WL 5866677 (5th
Cir. Nov. 8, 2019) ......................................

1

Bast v. Prudential Ins. Co. of Am.,
150 F.3d 1003 (9th Cir. 1998) ...................

16

Dardovitch v. Haltzman,
190 F.3d 125 (3d Cir. 1999) ......................

13

Dickens v. Aetna Life Ins. Co.,
No. 2:10-cv-00088, 2011 WL 1258854
(S.D.W. Va. March 28, 2011) ....................

11

Dwinnell v. Fed. Express Long Term
Disability Plan,
No. 3:14-cv-01439, 2017 WL 1371254
(D. Conn. April 14, 2017) ..........................

10

Firestone Tire & Rubber Co. v. Bruch,
489 U.S. 101 (1989) ...................................

4

Flom v. Holly Corp.,
276 F. App’x 615 (9th Cir. 2008) ..............

10

Gross v. Sun Life Assur. Co. of Canada,
763 F.3d 73 (1st Cir. 2014) ......................passim

vi
TABLE OF AUTHORITIES—Continued
Page(s)
Hardt v. Reliance Standard Life Ins. Co.,
560 U.S. 242 (2010) ..................................... passim
Herzberger v. Standard Ins. Co.,
205 F.3d 327 (7th Cir. 2000) .....................

7

Hooper v. Demco, Inc.,
37 F.3d 287 (7th Cir. 1994) .......................

15

Hurley v. Noone,
196 N.E. 2d 905 (Mass. 1964) ...................

13

In re Bittson’s Trust,
244 N.Y.S. 2d 926 (Sup. Ct. 1963) ............

13

Koehler v. Aetna Health Inc.,
915 F. Supp. 2d 789 (N.D. Tex. 2013) ......

10

Lockheed v. Spink,
517 U.S. 882 (1996) ...................................

2

Mass. Mut. Life Ins. Co. v. Russell,
473 U.S. 134 (1985) ............................... 2, 15, 16
McKay v. Reliance Standard Life Ins. Co.,
428 F. App’x 537 (6th Cir. 2011) ..............

10

Nachman Corp. v. Pension Benefit
Guaranty Corp.,
446 U.S. 359 (1980) ...................................

2

Parke v. First Reliance Standard Life Ins.
Co., 368 F.3d 999 (8th Cir. 2004)..............

16

Pierre v. Connecticut General Life Ins. Co./
Life Insurance Co. of North America,
932 F.2d 1552 (5th Cir. 1991) ...................

4

vii
TABLE OF AUTHORITIES—Continued
Page(s)
Ruckelshaus v. Sierra Club,
463 U.S. 680 (1983) ...................................

3

Yates v. Bechtel Jacobs Co., LLC,
No. 3:09-CV-51, 2011 WL 2462840
(E.D. Tenn. May 5, 2011) ..........................

11

STATUTES
28 U.S.C. § 1254(l) ........................................

1

29 U.S.C. § 308(c) (repealed 1974) ...............

13

29 U.S.C. § 1001(b) ....................................... 2, 15
29 U.S.C. § 1132(g) ....................................... 1, 14
29 U.S.C. § 1132(g)(1)..................................passim
29 U.S.C. § 1132(g)(2)...................................

14

Multiemployer Pension Plan Amendments
Act of 1980, Pub. L. No. 96-364, §306, 94
Stat. 1208 ..................................................

14

OTHER AUTHORITIES
Katherine T. Vukadin, Delayed and Denied:
Toward an Effective ERISA Remedy for
Improper Processing of Healthcare Claims,
11 Yale J. Health Pol’y L. & Ethics 331
(2011) ......................................................... 15, 16
Private Pension Plan Reform—Pt. I: Hearings Before the Subcomm. on Private
Pension Plans of the Senate Comm. on
Finance, 93d Cong. 1st Sess. (1973) .........

14

viii
TABLE OF AUTHORITIES—Continued
Page(s)
S. Rep. No. 127, 93d Cong. 1st Sess. 35
(1973) .........................................................

2

Welfare and Pension Plan Legislation—
Pt. I: Hearings on H.R. 2 and H.R. 462
Before the Subcomm. on Labor of the
House Comm. on Education and Labor,
93d Cong., 1st Sess. (1973) .......................

14

Welfare and Pension Plan Legislation—
Pt. II: Hearings on H.R. 2 and H.R. 462
Before the Subcomm. on Labor of the
House Comm. on Education and Labor,
93d Cong., 1st Sess. (1973) .......................

14

PETITION FOR A WRIT OF CERTIORARI
Petitioner Ariana M. respectfully petitions for a writ
of certiorari to review the judgment of the United
States Court of Appeals for the Fifth Circuit.
OPINIONS BELOW
The opinion of the court of appeals (App., infra, 1a6a) is unreported but is available at 2019 WL 5866677.
The opinion of the district court (App., infra, 7a-46a)
is unreported but is available at 2018 WL 4384162.
JURISDICTION
The judgment of the court of appeals was entered on
November 8, 2019. The jurisdiction of this Court is
invoked under 28 U.S.C. 1254(1).
STATUTORY PROVISION INVOLVED
In relevant part, 29 U.S.C. 1132(g) provides:
(g) Attorney’s fees and costs; awards in
actions involving delinquent contributions
(1) In any action under this subchapter (other
than an action described in paragraph (2))
by a participant, beneficiary, or fiduciary,
the court in its discretion may allow a
reasonable attorney’s fee and cost of action
to either party;
(2) In any action under this subchapter by a
fiduciary for or on behalf of a plan to enforce
section 1145 of this title in which a
judgment in favor of a plan is awarded, the
court shall award the plan –
***
(D) reasonable attorney’s fees and costs of
the action, to be paid by the defendant, * * *

2
STATEMENT
ERISA is a remedial statute designed to “protect * * *
the interests of participants in employee benefit plans
and their beneficiaries” by setting forth “standards of
conduct, responsibility and obligation for fiduciaries of
plans.” 29 U.S.C. 1001(b). In enacting ERISA, Congress
sought to “ensure that employees will not be left
empty-handed once employers have guaranteed them
certain benefits.” Lockheed v. Spink, 517 U.S. 882,
887 (1996) (citing Nachman Corp. v. Pension Benefit
Guaranty Corp., 446 U.S. 359, 375 (1980)).
Congress recognized that, in order to serve its remedial purposes to protect plan beneficiaries, ERISA
must provide beneficiaries “ready access” to courts. To
this end, Congress sought, among other reforms, “to
remove jurisdictional and procedural obstacles which
in the past appear to have hampered effective enforcement of fiduciary responsibilities under state law or
recovery of benefits due to participants.” S. Rep. No.
127, 93d Cong. 1st Sess. 35 (1973). Because of the
“possible concern that attorney’s fees might present a
barrier to maintenance of suits for small claims, thereby risking underenforcement of beneficiaries’ statutory rights,” Congress expressly authorized the award
of attorney’s fees under Section 502(g)(1). Mass. Mut.
Life Ins. Co. v. Russell, 473 U.S. 134, 147 (1985).
Section 502(g)(1) allows a court, “in its discretion,”
to award reasonable attorney’s fees and costs “to either
party” in an ERISA case brought by a plan participant,
beneficiary or fiduciary. 29 U.S.C. 1132(g)(1). In Hardt,
this Court held that to be eligible for an award of
attorney’s fees under this statutory provision, an
applicant need not be a “prevailing party,” 560 U.S. at
252, but rather need only achieve “some success on the
merits.” Id. at 256. Noting that neither a “‘trivial suc-

3
cess on the merits’” nor a “’purely procedural victor[y]’”
would suffice, id. at 254 (quoting Ruckelshaus v.
Sierra Club, 463 U.S. 680, 688 (1983)), the Court
concluded that Hardt had achieved far more than that
in obtaining a reversal of the denial of her claim for
disability benefits and a remand to the claims administrator, which ultimately resulted in an award of the
benefits she sought. Hardt, 560 U.S. at 256.
1. In 2013, Petitioner Ariana M. was a 19-year old
beneficiary under an ERISA healthcare plan sponsored
by her father’s employer. The plan, which is insured
by Respondent Humana through a group policy, covers
medically necessary treatment for mental illness,
including partial hospitalization treatment at a psychiatric day treatment facility. See App., infra, 51a.
Petitioner, who had long suffered from a severe
eating disorder and depression, and had a history of
self-harm, underwent partial hospitalization treatment for these conditions starting in April 2013 at a
treatment facility in Utah. App., infra, 9a, 98a.
Humana initially approved coverage of this treatment
as medically necessary, but after seven weeks, Humana
decided that further partial hospitalization treatment
was no longer medically necessary even though one of
Humana’s own consulting doctors had determined
only days earlier that Petitioner was still severely symptomatic. App., infra, 7a, 22a-23a. Petitioner completed another three months of treatment, for which
her family paid out-of-pocket.
2. After Petitioner exhausted the plan process for
challenging the denial of coverage for this treatment,
she filed an ERISA suit in district court in Texas
challenging Humana’s determination that her treatment was not medically necessary. Applying a deferential standard in reviewing the denial of benefits,

4
as was required under the Fifth Circuit’s thencontrolling decision in Pierre v. Connecticut General
Life Ins. Co./ Life Insurance Co. of North America, 932
F.2d 1552 (5th Cir. 1991), the district court granted
summary judgment in favor of Respondent. App.,
infra, 96a-99a.
A panel of the Fifth Circuit upheld the district
court’s decision. App., infra, 96a. The panel reasoned
that, under Pierre, the district court correctly reviewed
Humana’s medical necessity determination under an
abuse of discretion standard of review, despite a Texas
law banning grants of discretion to an insurer. Id. at
98a-101a. Ariana then petitioned for en banc review,
which the Fifth Circuit granted.
The en banc Fifth Circuit issued a ground-breaking
decision overruling Pierre and holding that the default
de novo standard set forth by this Court in Firestone
Tire & Rubber Co. v. Bruch, 489 U.S. 101 (1989),
applies even to factual determinations by a plan
administrator. On this basis, the Fifth Circuit reversed
the district court’s prior decision and remanded for the
district court to decide the case as a de novo matter.
App., infra, 47a-69a.
The district court again granted summary judgment
in favor of Respondent, finding that the denial was
correct when considered as a de novo matter. The district court then denied Petitioner’s request for attorney’s fees and costs with respect to the work of her
attorneys on the previous appeal. App., infra, 33a46a.
Petitioner again appealed to the Fifth Circuit, challenging both the grant of summary judgment and the
denial of fees. The circuit court, in an unpublished per
curiam decision, affirmed the denial of benefits, con-

5
cluding that Petitioner failed to meet one of Respondent’s criteria for partial hospitalization treatment
because the treatment facility did not specify a “time
frame” or “anticipated outcome” for the completion of
her treatment. App., infra, 4a.
The Fifth Circuit also affirmed the denial of fees,
noting that this issue “presents a somewhat more challenging question.” The court reasoned that “[s]ecuring
a change in the standard of judicial review of Humana’s
factual determinations is certainly a procedural success, but it’s not success on the merits of Ariana’s
benefits claim.” In so concluding, the court stated that
it was expressing no opinion on the decision in Gross
v. Sun Life Assur. Co. of Canada, 763 F.3d 73 (1st Cir.
2014), a case in which the First Circuit concluded that
“a plaintiff had achieved ‘some success on the merits’
when a remand order provided her ‘some meaningful
benefit’ by favorably changing the standard of review.”
The Fifth Circuit concluded that Gross was distinguishable because the First Circuit faulted the plan administrator for the process it used to evaluate the plaintiff’s claim whereas the en banc Fifth Circuit did not
do the same with regard to Ariana’s claim. App., infra,
4a-6a.
REASONS FOR GRANTING THE PETITION
The court of appeals’ decision in this case created a
square conflict with the First Circuit. More broadly,
the decision both exemplifies and exacerbates the
confusion in the lower courts concerning what, short of
some award of benefits, is sufficient under this Court’s
decision in Hardt to allow a court to award fees to a
plan participant or beneficiary who sues for plan
benefits.

6
The Fifth Circuit’s conclusion that, despite obtaining an en banc decision overturning long-standing
precedent and mandating a more favorable standard
of review for Petitioner and potentially for all participants and beneficiaries in Texas, Louisiana and
Mississippi, Petitioner did not achieve sufficient
success on the merits to justify some award of attorney’s fees, is wrong. Indeed, it cannot be squared with
the trust law which underpins much of ERISA’s
remedial content and is, in reality, an application of
the “prevailing party” requirement that this Court
rejected in Hardt.
As Congress recognized in passing ERISA, attorney’s fees are essential to the goal of removing barriers
to court for plan participants and beneficiaries, particularly those, like Petitioner, with relatively small benefit claims. Given that plan participants and beneficiaries already have great difficulty finding attorneys
willing to take the risk of challenging benefit denials,
particularly denials of healthcare claims, the Fifth
Circuit’s parsimonious view on what kind of success a
claimant must achieve in order to be eligible for
attorney’s fees threatens to erect an insurmountable
barrier for most plan participants and beneficiaries
within its borders seeking to have their claims heard
in court.
I. THE DECISION BELOW CREATED A
CIRCUIT CONFLICT AND EXACERBATED CONFUSION IN THE LOWER
COURTS CONCERNING FEE AWARDS
1. The decision in this case is directly at odds with
the Gross decision from the First Circuit. And although
the opinion is unpublished, and therefore lacks precedential value, the Fifth Circuit’s denial of fees in this
high-profile case will undoubtedly make it even more

7
difficult for plan beneficiaries to obtain legal representation in the Fifth Circuit, see discussion in Part C,
infra, at 14-16, and the conflict is therefore real in the
sense that it will greatly impact plan participants and
beneficiaries throughout the Fifth Circuit and perhaps
beyond.
In Gross, as in this case, the plaintiff obtained a
favorable decision on appeal overruling prior circuit
precedent with regard to the appropriate standard of
review, and remanding for further development of the
record to allow the district court to consider the claim
as a de novo matter. 763 F.3d at 75-76. The plaintiff
then filed a motion for attorney’s fees and costs in the
appellate court, which the First Circuit granted despite
Sun Life’s objection that the plaintiff was not yet
eligible for a fee award.
The First Circuit rejected Sun Life’s contention
“that an award of some amount of benefits is a necessary component of the success required by Hardt.” Id.
at 78. Instead, the court recognized that “a remand for
a second look at her benefits determination is often the
best outcome a claimant can reasonably hope for from
the courts,” and one that it would be a mistake to classify as a “minimal or ‘purely procedural victory.’” Id.
at 78-79. The court pointed out that it had “made a
substantive ruling on the standard of review that
altered the dynamic between Sun Life and Gross in the
subsequent proceedings,” and “that legal decision had
more than a procedural impact.” Id. at 79. Its decision
“increased the likelihood of a favorable benefits determination” and effectively “strengthened Gross’s claim.”
Ibid. (quoting Herzberger v. Standard Ins. Co., 205
F.3d 327, 331 (7th Cir. 2000) (“The very existence of
‘rights’ under such plans depends on the degree of
discretion lodged in the administrator. The broader

8
that discretion, the less solid an entitlement the
employee has.”)). The First Circuit concluded that
“[a]t a minimum, this outcome constitutes some meaningful benefit for the fee-seeker,” sufficient to constitute “some degree of success on the merits.” 763 F.3d
at 79 (internal quotation marks and citations omitted).
The Gross decision on fees could hardly be more on
point. Petitioner convinced the Fifth Circuit to grant
en banc review and reverse its prior decades-old precedent. As in Gross, she “secured a ruling on the standard of review that improved her likelihood of success
on the merits of her claim and will impact all similar
future claims.” 763 F.3d at 80. As it was for Gross,
this favorable ruling on the applicable standard of
review constitutes a “significant, substantive success”
for Ariana. Ibid. Any subsequent “failure to achieve
an award of benefits” by Petitioner does “not convert
[her] substantial success on that claim into failure or
trivial success.” Id. at 81 (internal quotation marks
and citation omitted).
The court of appeals erroneously concluded that
Gross was distinguishable because the “First Circuit
‘faulted [the plan administrator] for failing to provide
its independent medical consultant with important
background about [plaintiff’s] circumstances on a
critical surveillance day and for disregarding the consultant’s observation’ that the plaintiff should be
reexamined.” App., infra, 5a-6a (quoting Gross, 763
F.3d at 76). However, this quote was taken out of
context. In fact, in the very next paragraph, the First
Circuit noted that “[a]t the same time” that it faulted
the plan administrator, it also faulted Gross, who
“despite her burden to prove disability, had not submitted a statement from her doctor” explaining her
activity on video surveillance. Gross, 763 F.3d at 76.

9
Thus, the court in Gross stated that it “did not nudge
Sun Life toward a decision in Gross’s favor” and
instead “expressly refrained from expressing any view
on the ultimate merits of [the] claim.” Id. at 79.
Instead, the First Circuit’s fee determination turned
on its “substantive ruling on the standard of review
that altered the dynamic between Sun Life and Gross
in the subsequent proceedings” by ensuring that “Sun
Life’s judgment will no longer be insulated from full
judicial review.” Ibid. That is precisely what the en
banc Fifth Circuit did in this case, and the same result
on eligibility for attorney’s fees should follow. Nothing
in ERISA requires the appellate court to offer any view
on the ultimate merit of the claim. Remand, in and of
itself, keeps the claim alive. In this case, it offered
Petitioner full judicial review of her claim for the first
time.
2. The Fifth Circuit’s refusal to allow a fee award
despite Petitioner’s en banc success on the standard of
review issue in this case seems to stem from a deeper
confusion about what, short of a court-mandated award
of benefits, can constitute “some success on the merits”
under Hardt. In Hardt, the Court explained that
what constitutes “some success on the merits” falls in
the indeterminate area between being a “prevailing
party” and merely obtaining “trivial success on the
merits” or a purely procedural victory.” 560 U.S. at
252, 256. In so ruling, the Court expressly declined to
resolve “whether a remand order, without more, constitutes ‘some success on the merits’ sufficient to make
a party eligible for attorney’s fees under § 1132(g)(1).”
Id. at 256.
Many courts considering ERISA fee awards in the
wake of Hardt have addressed this issue that the
Supreme Court left open and most have concluded

10
that an order remanding to a claims administrator for
further consideration constitutes “some success on the
merits” regardless of whether benefits are awarded.
E.g., Gross, 763 F.3d at 77 (citing cases). For instance,
in McKay v. Reliance Standard Life Ins. Co., 428 F.
App’x 537 (6th Cir. 2011), the Sixth Circuit upheld an
award of attorney’s fees to an ERISA claimant following a district court remand to the claims administrator
for further review, finding the award appropriate
“even though the final merits of McKay’s claim had not
yet been resolved.” Id. at 546. The court reasoned that
McKay “was not a ‘loser’ in any sense, even if he ultimately is ineligible for benefits, he has still seen
success on the merits because his case was remanded
for further consideration.” Id. Accord Koehler v. Aetna
Health Inc., 915 F. Supp. 2d 789, 791 (N.D. Tex. 2013)
(remand to administrator is “some success,” even if the
result is not an award of benefits); Dwinnell v. Fed.
Express Long Term Disability Plan, No. 3:14-cv-01439,
2017 WL 1371254, at *2 (D. Conn. April 14, 2017)
(remand to conduct vocational analysis of disability
claimant is sufficient to constitute “some success on
the merits” for purposes of fee award); see also Flom v.
Holly Corp., 276 F. App’x 615, 617 (9th Cir. 2008) (preHardt decision concluding that, in obtaining remand,
claimant “achieved a judicially-sanctioned change in
his relationship with MetLife and received ‘some
relief’ from the court on his claim”).1

1

These rulings are consistent with decisions concerning
remands and attorney’s fees under the Social Security Act. In
that context, courts have awarded attorney’s fees where a claimant obtains a judgment reversing the agency’s denial of Social
Security benefits and remanding to the agency for a new decision,
regardless of the outcome on remand. See Shalala v. Schaefer,
509 U.S. 292, 301 (1993).

11
However, other courts have refused to consider a
request for attorney’s fees based on a remand to the
plan administrator. Thus, in Yates v. Bechtel Jacobs
Co., LLC, No. 3:09-CV-51, 2011 WL 2462840, at *2
(E.D. Tenn. May 5, 2011), the court concluded that
“[t]hough the Plaintiff may be entitled to attorney’s
fees if he prevails on the underlying ERISA claim, * * *
the remand decision in this case, without more, does
not qualify as success on the merits.” Similarly, in
Dickens v. Aetna Life Ins. Co., No. 2:10-cv-00088, 2011
WL 1258854, at *5-*6 (S.D.W. Va. March 28, 2011),
the court held that “the remand in this case represents
a purely procedural victory for plaintiff and attorney’s
fees are not warranted at this time,” where the court
was remanding without expressing an “opinion as to
whether the plaintiff is disabled.”
As in Yates, the district court’s denial of fees in this
case was grounded in the fact that Petitioner “has not
succeeded on her claim that her partial hospitalization
was medically necessary” during the relevant period.
App., infra, 46a. And, as in Dickens, the Fifth Circuit’s
denial of fees seems to have turned, at least in part, on
the fact that, in remanding to the district court, the en
banc Fifth Circuit did not express did not express a
view on the merits of Petitioner’s claim. App., infra, 6a.
Thus, the confusion and tension that the Hardt decision has engendered in the lower courts appears to be
deep and abiding, and the Fifth Circuit’s decision in
this case is both emblematic of, and has added to, this
disarray.
II. THE COURT OF APPEALS’ DECISION IS
INCORRECT
The reasoning of the First Circuit in Gross is persuasive and its conclusion that the plaintiff’s success in
obtaining a favorable appellate decision on the stand-

12
ard of review made her eligible for attorney’s fees is
correct. The Fifth Circuit’s contrary conclusion that
Petitioner was ineligible for fees despite a similarly
significant legal victory on the governing of standard
of review is in error. As in Gross, Petitioner’s victory
before the en banc Fifth Circuit was neither minor nor
was it purely procedural. It cannot be seriously disputed that the change in the standard of review and
the court of appeals’ remand of Petitioner’s claim for
consideration of her claim without deference to the
administrator’s conclusion that her treatment was not
medically necessary “increased the likelihood of a
favorable benefits determination – perhaps from [the
insurer] and certainly from a reviewing court.” Gross,
763 F.3d at 79.
Moreover, as in Gross, Petitioner’s success in securing the favorable en banc decision on the standard of
review “will impact all future claims.” Id. at 80. In
other words, the Fifth Circuit’s en banc decision on the
applicable standard of review was not only a success
for Petitioner but for many other plan participants and
beneficiaries as well because the ruling “potentially
affects the millions of Fifth Circuit residents who rely
on ERISA plans for their medical care and retirement
security.” See App., infra, 118a (Costa, J., specially
concurring). If this is not enough to constitute “some
degree of success on the merits,” it is hard to see “what
outcome, short of a receipt of benefits, constitutes the
requisite success under Hardt.” Gross, 763 F.3d at 80.
The court of appeals’ holding that Petitioner was
ineligible for fees here, despite obtaining an en banc
decision establishing a participant-friendly standard
of review in the Fifth Circuit, is inconsistent with the
trust-law underpinnings of ERISA. Historically, fee
awards have long been allowed in trust cases in the

13
exercise of a court’s equitable discretion, and have
been awarded in some situations even when the plaintiff did not receive the relief sought. See, e.g., Dardovitch
v. Haltzman, 190 F.3d 125, 146 (3d Cir. 1999); Hurley
v. Noone, 196 N.E. 2d 905, 910 (Mass. 1964) (awarding
attorney’s fees to losing plaintiff because he “spent
much time and effort in the location of these heirs” to
the estate); In re Bittson’s Trust, 244 N.Y.S. 2d 926,
931 (Sup. Ct. 1963) (“The court has requisite power,
under [the New York probate statute], to grant an
allowance even ‘to an unsuccessful litigant . . . as the
nature and importance of the subject matter and the
good faith of the participant may warrant.’”) (citation
omitted).
Indeed, the court of appeals concluded that the district court did not abuse its discretion in denying fees
despite the fact that the reason the district court
denied benefits was because Petitioner “has not succeeded on her claim that her partial hospitalization
was medically necessary after June 4[, 2013].” App.,
infra, at 46a. This ruling, and the Fifth Circuit’s
decision affirming it, conflate the “some success on the
merits standard” that was adopted by the Supreme
Court in Hardt with the “prevailing party” standard
that was rejected by Hardt and by Congress in enacting ERISA.
One of ERISA’s predecessors, the Welfare and Pension Plans Disclosure Act, contained a fee provision
which permitted the court, “in its discretion, in addition to any judgment awarded to the plaintiff or plaintiffs, [to] allow a reasonable attorney’s fee to be paid
by the defendant, and costs of the action.” 29 U.S.C.
308(c) (repealed 1974). ERISA Section 502(g)(1) eliminated the requirement that a judgment be awarded in
the plaintiff’s favor after Congress considered, but

14
declined to adopt, various proposals from industry
representatives that would have included a prevailing
party standard. See, e.g., Welfare and Pension Plan
Legislation—Pt. I: Hearings on H.R. 2 and H.R. 462
Before the Subcomm. on Labor of the House Comm. on
Education and Labor, 93d Cong., 1st Sess. 164, 170
(1973) (American Bankers Ass’n); id. at 775-776 (Corporate Fiduciaries Ass’n of Illinois); id. at Pt. II, at
647- 648 (Lauren Upson, Member, California Bankers
Association Committee on Employee Benefit Trusts);
Private Pension Plan Reform—Pt. I: Hearings Before
the Subcomm. on Private Pension Plans of the Senate
Comm. on Finance, 93d Cong. 1st Sess. 281 (1973)
(Frank Seibert, Vice President, Bank of America).
Furthermore, it is readily apparent that Congress
knew how to enact such a prevailing party requirement. Indeed, that Congress consciously chose not to
do so in Section 502(g)(1) is underscored by the fact
that Congress later amended Section 502(g) to add a
second subsection putting in place a prevailing requirement for delinquent contribution lawsuits, but leaving
intact the wording of subsection (1), which contains no
such requirement for other ERISA lawsuits. 29 U.S.C.
1132(g)(2) (trying an award of fees to “judgment in
favor of the plan”); Multiemployer Pension Plan
Amendments Act of 1980, Pub. L. No. 96-364, §306, 94
Stat. 1208. See Hardt, 560 U.S. at 252 (contrasting
the language of Section 502(g)(1) with the prevailing
party language of Section 502(g)(2)).
In essence, the Fifth Circuit’s decision resurrects the
very prevailing party standard that this Court rejected
in Hardt. If the Plaintiff’s significant legal victory
before this en banc Court in changing the standard of
review in her case and in all future ERISA benefits
cases in the Fifth Circuit does not constitute “some

15
success on the merits,” it is difficult to see how a
plaintiff in an ERISA benefits case can ever be eligible
for attorney’s fees without being the prevailing party
and winning an award of benefits. Petitioner’s resounding success on the standard-of-review issue makes her
eligible to obtain attorney’s fees under ERISA Section
502(g)(1), and the Fifth Circuit’s holding to the contrary was in error.
III. THE QUESTION PRESENTED IS EXCEPTIONALLY IMPORTANT AND WARRANTS
REVIEW IN THIS CASE
The fee question presented in this case is of exceptional importance to ERISA plan participants and beneficiaries, whose “ready access” to courts is a primary
goal of the statute. 29 U.S.C. 1001(b). As explained
above, supra, at 2, Congress authorized attorney’s fees
under Section 502(g)(1) because of a “concern that
attorney’s fees might present a barrier to maintenance
of suits for small claims.” Russell, 473 U.S. at 147. See
also Hooper v. Demco, Inc., 37 F.3d 287, 291 (7th Cir.
1994) (noting that Section 502(g)(1) is designed “[t]o
encourage aggrieved parties to seek redress under
ERISA”).
That concern is well founded, particularly with
regard to health care claimants. According to a 2011
article in the Yale Journal of Health Policy, Law and
Ethics, “[m]ost denied claims are never appealed – if a
claim is decided incorrectly or appeal rights are not
conveyed, the incorrect denial simply stays undisturbed.” Katherine T. Vukadin, Delayed and Denied:
Toward an Effective ERISA Remedy for Improper
Processing of Healthcare Claims, 11 Yale J. Health
Pol’y L. & Ethics 331, 334 (2011). Indeed, this article
cites sources stating that between ninety-four and
ninety-six percent of denied health care claims are

16
never appealed, ibid. n.18 (citations omitted), even
though the American Medical Association estimated in
2010 that approximately twenty percent of healthcare
claims are processed incorrectly. Id. at 337-388 & n.
38.
It is not hard to understand the economics behind
this failure to challenge even improperly processed
healthcare denials. ERISA strictly limits available
remedies, see Russell, 473 U.S. at 146-47, and does
not provide punitive damages even for denials based
on egregious misprocessing or flagrantly self-serving
criteria. E.g., Bast v. Prudential Ins. Co. of Am., 150
F.3d 1003, 1009 (9th Cir. 1998). Moreover, most courts
have concluded that plan participants and beneficiaries are not entitled to fees for the work performed by
their attorneys in challenging benefit denials prior to
filing a lawsuit. E.g., Parke v. First Reliance Standard
Life Ins. Co., 368 F.3d 999, 1010 (8th Cir. 2004)
(collecting cases).
Attorneys who litigate ERISA benefit cases on behalf
of plan participants and beneficiaries do so in many
cases on a contingency basis, which makes it difficult
to find an attorney willing to take on a small claim,
and guarantees that, without a fee award, even a
claimant who is awarded one hundred percent of his
or her benefits is not made whole. Of course, some
cases do not lend themselves to contingency fees, such
as cases in which a plan beneficiary is seeking an order
requiring the insurer to cover expensive surgery or
ongoing treatment for which the beneficiary is not able
to pay out-of-pocket. When attorneys take on such
cases, their only hope of being paid is if they can obtain
a fee award from the court.

17
All of this means that attorneys often litigate benefit
claims for years without pay. Add to this the difficulties inherent in litigating benefit claims – an often
extremely deferential review of the denial based
entirely on a claims file largely created by the insurer,
see Abatie v. Alta Health & Life Ins. Co., 458 F.3d 955,
969-70 (9th Cir. 2006) (en banc) – and it is easy to see
why most attorneys would be (and in fact are)
unwilling to take on such cases.
This case is a good example of the risks and difficulties inherent in this kind of case. Although the parties
disagree about the precise amount of plan benefits in
dispute, they agree that it is less than $100,000, not
an insignificant amount for a family to pay, but also
not a large claim. By the time the Fifth Circuit issued
its en banc decision in this case mandating a de novo
consideration of the denial by the district court,
Plaintiff’s attorneys had been litigating the case for
over four years without any compensation. In the end,
the change in the standard of review was not deemed
to make a difference in the outcome of the benefits
claim. But that does not take away from the significant victory for the millions of plan participants and
beneficiaries in the Fifth Circuit, including Petitioner,
that the en banc decision represents.
If allowed to stand, the Fifth Circuit’s erroneous
decision concluding that Petitioner was not entitled to
attorney’s fees despite her success before the en banc
Fifth Circuit, will undoubtedly make attorneys in the
Fifth Circuit even more hesitant to take on individual
ERISA healthcare cases. The fact that the decision
was unpublished does not minimize its chilling effect
given that it was well reported in light of the highprofile nature of this case.

18
CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully submitted,
AMAR RAVAL
BERG PLUMMER
JOHNSON & RAVAL
3700 Buffalo Speedway
Suite 1150
Houston, TX 77098
(713) 526-0200

February 5, 2020

ELIZABETH HOPKINS
Counsel of Record
LISA S. KANTOR
KANTOR & KANTOR, LLP
19839 Nordhoff Street
Northridge, CA 91324
(818) 886-2525
ehopkins@kantorlaw.net

APPENDIX

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed November 8, 2019]
————
No. 18-20700
————
ARIANA M.,
Plaintiff-Appellant,
v.
HUMANA HEALTH PLAN OF TEXAS, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
U.S.D.C. No. 4:14-CV-3206
————
Before CLEMENT, HAYNES, and WILLETT, Circuit
Judges.
PER CURIAM:
Background
This is the second time that this case has reached
the Fifth Circuit. Our previous opinion in Ariana M. v.
Humana Health Plan of Texas, Inc., 884 F.3d 246 (5th
Cir. 2018) (en banc) (“Ariana M. I”), and the district


Pursuant to 5TH CIR. R. 47.5, the court has determined that
this opinion should not be published and is not precedent except
under the limited circumstances set forth in 5TH CIR. R. 47.5.4.

2a
court’s Memorandum and Opinion from which plaintiff Ariana M. now appeals discuss the case’s facts at
length, so we will provide only a brief summary.
Ariana was partially hospitalized to treat an eating
disorder. Her health-plan administrator, Humana
Health Plan of Texas, Inc., approved benefits for 49
days of partial hospitalization, but denied benefits for
additional days after concluding that Ariana’s continued
hospitalization was not “medically necessary.” Despite
Humana’s decision, Ariana remained partially hospitalized for another 106 days.
Ariana then sued Humana under 29 U.S.C.
§ 1132(a)(1)(B), alleging that Humana wrongfully
denied her benefits for the additional 106 days. The
district court concluded that Humana had not abused
its discretion in denying coverage for continued hospitalization and granted Humana summary judgment.
After a panel of this court affirmed the district court’s
judgment, this court agreed to rehear the case en banc.
See Ariana M. v. Humana Health Plan of Tex., Inc.,
869 F.3d 354 (5th Cir. 2017). A majority of the en banc
court concluded that the district court should have
reviewed Humana’s denial of benefits de novo, so the
court vacated the district court’s judgment and
remanded the case for the district court to review it
under the proper standard. See Ariana M. I., 884 F.3d
at 257.
On remand, the district court reviewed the denial of
benefits de novo, concluded that Humana had not
erred, and granted Humana summary judgment. Ariana
nonetheless filed a petition for attorneys’ fees under 29
U.S.C. § 1132(g), arguing that her success in convincing this court to change the standard of review and
remand her case to the district court entitled her to
attorneys’ fees regardless of whether she ultimately

3a
prevailed on her claim for benefits. The district court
denied her fee petition.
Ariana now appeals both the grant of summary judgment and the denial of attorneys’ fees. Concluding that
the district court did not err in either respect, we
AFFIRM its judgment.
Analysis
We review the district court’s de novo review of the
claims administrator’s factual findings de novo.1 Green
v. Life Ins. Co. of N. Am., 754 F.3d 324, 329 (5th Cir.
2014); Ariana M. I, 884 F.3d at 256. We review the
denial of Ariana’s fee petition for abuse of discretion.
N. Cyprus Med. Ctr. Operating Co. v. Aetna Life Ins.
Co., 898 F.3d 461, 485 (5th Cir. 2018).
Under the Humana plan, Ariana was eligible for partial hospitalization so long as it was “medically necessary.” To assess medical necessity, Humana relied on
the “Mihalik criteria,” part of a set of guidelines published by a healthcare consulting firm.2 After two boardcertified psychiatrists reviewed Ariana’s case and
found several required criteria absent during the
claimed treatment period, Humana found that partial
hospitalization was not medically necessary for the
final 106 claimed days.

1

The district court had federal-question jurisdiction because
this ERISA suit arises under 29 U.S.C. § 1132(a)(1)(B). Ariana
appeals from a final judgment, so we have appellate jurisdiction
under 28 U.S.C. § 1291.
2

Ariana objects to Humana’s use of the Mihalik criteria. The
Humana plan requires that Humana assess medical necessity
using nationally recognized standards of medical practice. But
Ariana has not identified any evidence that the Mihalik criteria
are inconsistent with these standards.

4a
After reviewing the record, we find that at least one
of the Mihalik criteria had no factual support—an
“individualized plan” that “specifies” “time frames”
and “anticipated outcomes.”3 As such, Humana did not
err in finding that the final 106 days of Ariana’s
partial hospitalization were medically unnecessary,
and the district court correctly entered judgment for
Humana. Given that this outcome-determinative finding is undisputed, we need not address whether the
other Mihalik criteria were met.
The fee petition presents a somewhat more challenging question. In an ERISA suit like this one, the
district court “in its discretion may allow a reasonable
attorney’s fee and costs of action to either party.” 29
U.S.C. § 1132(g). The Supreme Court has held that,
though a fee claimant need not qualify as a “prevailing
party” to receive a fee award under this statute, the
fee claimant must have “achieved some degree of success on the merits.” Hardt v. Reliance Standard Life
Ins. Co., 560 U.S. 242, 244 (2010) (cleaned up). This
requires more than “trivial success on the merits or a
purely procedural victory,” but does not require “lengthy
inquiry into the question of whether a particular
party’s success was substantial or occurred on a central issue.” Id. at 255 (cleaned up). The Supreme Court
expressly declined to decide whether “a remand order,
without more, constitutes ‘some success on the merits.’” Id. at 256.
We conclude that the district court did not abuse its
discretion in denying Ariana’s fee motion. While an
3

In fact, Ariana’s doctors affirmatively stated that there were
“no specifics on [the] time frame” of her partial hospitalization,
and the record shows that her entire treatment plan suffered
from a general lack of specificity.

5a
error of law does constitute an abuse of discretion,
LifeCare Mgmt. Servs. LLC v. Ins. Mgmt. Adm’rs Inc.,
703 F.3d 835, 846 (5th Cir. 2013), we see no such error
here. The district court described and applied the “some
success on the merits” standard from Hardt. It noted
that, unlike Hardt, the remand order here included no
comment from the remanding court on the strength of
the remanded claim. Securing a change in the standard of judicial review of Humana’s factual determinations is certainly a procedural success, but it’s not
success on the merits of Ariana’s benefits claim. See
Ariana M. I, 884 F.3d at 257 (“A different standard of
review will sometimes lead to a different outcome, but
there will also be many cases in which the result would
be the same with deference or without it. We give no
opinion on which is the case here . . . .”).
In reaching this conclusion, we express no opinion
on the First Circuit’s decision in Gross v. Sun Life
Assurance Co. of Canada, 763 F.3d 73 (1st Cir. 2014).
In Gross, a divided panel held that the plaintiff had
achieved “some success on the merits” when a remand
order provided her “some meaningful benefit” by favorably changing the standard of review. Id. at 79. The
court noted that, though its order “refrained from
expressing any view on the ultimate merits of [Gross’s]
claim,” “the change in the standard of review has
strengthened Gross’s claim” by “increase[ing] the
likelihood of a favorable benefits determination.” Id.
But the court also noted that the administrative record
was “inadequate to permit [the court’s] de novo judgment on [plaintiff’s] entitlement to benefits.” Id. at 75.
The First Circuit “faulted [the plan administrator] for
failing to provide its independent medical consultant
with important background about [plaintiff’s] circumstances on a critical surveillance day and for disre-

6a
garding the consultant’s observation” that the plaintiff
should be reexamined. Id. at 76.
Here, by contrast, the en banc court passed no judgment on the process Humana used to evaluate Ariana’s
claim or whether Humana had failed to provide its
independent reviewers with sufficient evidence. Even
if the First Circuit was correct in finding “some success
on the merits” in Gross, Ariana’s case is distinguishable.
We therefore AFFIRM the judgment of the district
court.

7a
APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF TEXAS
HOUSTON DIVISION
[Filed September 14, 2018]
————
Civil Action No. H-14-3206
————
ARIANA M.,
vs.

Plaintiff,

HUMANA HEALTH PLAN OF TEXAS, INC.,
Defendant.
————
MEMORANDUM AND OPINION
Ariana M. sued Humana Health Plan of Texas, Inc.,
under the Employee Retirement Income Security Act
(“ERISA”), alleging that Humana had wrongfully denied
benefits for 106 days of partial hospitalization to treat
an eating disorder. See 29 U.S.C. § 1132(a)(1)(B).
Humana had paid for 49 days of partial hospitalization
before determining that Ariana M. did not meet the
criteria for continued coverage at that level. Instead,
she was covered for the next level of care, intensive
outpatient. This court granted summary judgment for
Humana, holding that it did not abuse its discretion in
denying the benefits. Ariana M. appealed. On appeal,
the Fifth Circuit acknowledged that its standard of
review for ERISA cases was at odds with that of most
circuits and changed the law. Ariana M. v. Humana
Health Plan of Tex., Inc., 884 F.3d 246 (5th Cir. 2018)

8a
(en banc). The Fifth Circuit held that district courts
are to review de novo a plan administrator’s decision
to deny coverage under an ERISA plan. Id. at 256. The
Fifth Circuit vacated the order granting summary
judgment and remanded for this court to apply the de
novo standard.
On remand, both Ariana M. and Humana moved for
summary judgment. Ariana M. argued that her continued partial hospitalization was medically necessary;
Humana argued that the administrative record showed
that it was not necessary and moved to strike the
materials that Ariana M. attached to her motion because
they were outside the administrative record. The court
heard oral argument on the motions.
Based on the pleadings, the parties’ arguments and
submissions, the administrative record, and the applicable law, the court grants Humana’s motion to strike
and motion for summary judgment and denies Ariana
M.’s cross-motion for summary judgment. A de novo
review of the administrative record reveals that
Ariana M.’s continued partial hospitalization was not
medically necessary after June 4, 2013, after she had
been covered for 49 days. Final judgment is entered by
separate order. The reasons are set out in detail below.
I. Background
A. Facts
1. The Plan Terms
Ariana M. is a minor. In 2013, she lived with her parents and three younger siblings in Woodlands, Texas.
Ariana M.’s father participated in the group health
plan sponsored by Eyesys Vision Plan Inc. and administered by Humana. Throughout 2013, Ariana M. was
a dependent eligible for benefits under the plan.

9a
Ariana M. has a history of an eating disorder characterized by compulsive exercising, purging, and
restricting based on a belief that she was overweight.
She also has a history of cutting herself. She has
received extensive treatment. Since 2007, Ariana M.
had received outpatient treatment, including intensive outpatient treatment, from her primary care provider. (Admin. Recordat 131–32). In 2008, 2011, and
2012, Ariana M. was admitted to treatment centers for
partial hospitalization.1
Ariana M.’s plan authorized a maximum of 90 days
of “partial hospitalization care, treatment in a psychiatric day treatment facility, crisis stabilization unit, or
residential treatment center for children or adolescents.” (Id. at 794 (emphasis omitted)). Her plan defined
“outpatient” to mean that “you are not confined as a
registered bed patient.” (Id. at 880). “Inpatient” meant
that “you are confined as a registered bed patient.” (Id.
at 876). The plan defined an “intensive outpatient
program” to include:

1



Group therapeutic sessions greater than
one hour a day, three days a week;



Behavioral health therapeutic focus;



Group sessions centered on cognitive behavior constructs, social/occupational/educa-

In 2008, Ariana M. was admitted to a partial hospitalization
program at Laureate Psychiatric Hospital, a residential treatment
center. (Admin. Record at 132). In January 2011, she was admitted to Kingwood Pines for in-patient treatment. (Id.). In August
2012, she received treatment at Timberline Knolls, another residential treatment center. (Id.). In November 2012, she was
admitted to a partial hospitalization program at Linden Oaks.
(Id.).

10a
tional skills development and family interaction;


Additional emphasis on recovery strategies, monitoring of participation in 12-step
programs and random drug screenings for
the treatment of chemical dependency;
and



Physician availability for medical and
medication management.

(Id.). “Partial hospitalization” is defined as:
services provided by a hospital, health care
treatment facility, chemical dependency treatment center, crisis stabilization unit, psychiatric day treatment facility or residential
treatment center for children and adolescents
in which patients do not reside for a full 24hour period:


For a comprehensive and intensive
interdisciplinary psychiatric treatment for
minimum of 5 hours a day, 5 days per
week;



That provides for social, psychological and
rehabilitative training programs with a
focus on reintegration back into the community and admits children and adolescents who must have a treatment program
designed to meet the special needs of that
age range; and



That has physicians and appropriately
licensed behavioral health practitioners
readily available for the emergent and
urgent needs of the patients.

11a
(Id. at 880–81 (emphasis omitted)). “Residential treatment” for children and adolescents meant treatment
in an institution that:


Provides residential care and treatment
for emotionally disturbed individuals; and



Is accredited as a residential treatment
center by the Council on Accreditation of
Healthcare Organizations or the American
Association of Psychiatric Services for
Children.

(Id. at 883). The plan covered partial hospitalization
for medically necessary treatment, defining “medically
necessary” to mean:
health care services that a health care practitioner exercising prudent clinical judgment
would provide to his or her patient for the
purpose of preventing, evaluating, diagnosing
or treating a sickness or bodily injury or its
symptoms. Such health care service must be:


In accordance with nationally recognized
standards of medical practice;



Clinically appropriate in terms of type,
frequency, extent, site, and duration, and
considered effective for the patient’s sickness or bodily injury;



Not primarily for the convenience of the
patient, physician or other health care
provider; and



Not more costly than an alternative service or sequence of services at least as
likely to produce equivalent therapeutic or
diagnostic results as to the diagnosis or

12a
treatment of the patient’s sickness or bodily injury.
For the purpose of medically necessary, generally accepted standards of medical practice
means standards that are based on credible
scientific evidence published in peer-reviewed
medical literature generally recognized by
the relevant medical community, Physician
Specialty Society recommendations, the view
of physicians practicing in relevant clinical
areas and any other relevant factors.
(Id. at 877). Humana used a set of clinical criteria—
contained in the Mihalik Group Medical Necessity
Manual for Behavioral Health: Partial Hospitalization
Treatment Mental Health Care—to assess the medical
necessity of partial hospitalization in treating mental
illness. In Ariana M.’s case, eight criteria had to be
present “throughout the episode of care” to make the
services medically necessary. The first criterion incorporated national standards of medical care; the
remaining criteria provided details.
PM.A.g.1. The services must be consistent
with nationally accepted standards of medical
practice.
PM.A.g.2. The services must be individualized, specific, and consistent with the individual’s signs, symptoms, history, and diagnosis.
PM.A.g.3. The services must be reasonably
expected to help restore or maintain the individual’s health, improve or prevent deterioration of the individual’s behavioral disorder or
condition, or delay progression in a clinically
meaningful way of a behavioral health disorder or condition characterized by a progres-

13a
sively deteriorating course when that disorder or condition is the focus of treatment for
this episode of care.
PM.A.g.4. The individual complies with the
essential elements of treatment.
PM.A.g.5. The services are not primarily for
the convenience of the individual, provider, or
another party.
PM.A.g.6. Services are not being sought as a
way to potentially avoid legal proceedings,
incarceration, or other legal consequences.
PM.A.g.7. The services are not predominantly
domiciliary or custodial.
PM.A.g.8. No exclusionary criteria of the
health plan or benefit package are met.
(Id. at 1566). The following set of criteria must be
satisfied to initiate treatment:
PM.A.i.1. Based on a behavioral health history and mental status evaluation completed
by a psychiatrist or by a behavioral health
professional licensed, certified, or registered
to practice independently and reviewed by a
psychiatrist prior to initiation of treatment,
the individual is diagnosed as having, or
there is strong presumptive evidence that the
individual has a diagnosis of, a mental disorder or condition according to the most recent
version of the Diagnostic and Statistical
Manual of Mental Disorders that requires,
and is likely to respond to, professional therapeutic intervention.
PM.A.i.2. A concurrent medical assessment
does not indicate that a non-behavioral medi-

14a
cal condition is primarily responsible for the
symptoms or behaviors necessitating treatment in this setting.
PM.A.i.3. The individual does not have adequate internal resources or an adequate
external support system to maintain functioning without the support of an intensive
multi-modal, multi-disciplinary treatment program that includes medical and/or nursing
care.
PM.A.i.4. With treatment at this level, the
individual is capable of controlling behaviors
and/or seeking professional help when not in
a structured treatment setting.
PM.A.i.5. If the services being proposed have
been attempted previously without significant therapeutic benefit, there is a clinically
credible rationale for why those same services
could be effective now.
PM.A.i.6. The place of service meets the
Service Setting Criteria for Partial Hospital
Treatment: Mental Health . . . .
One of the following Treatment Initiation
Criteria is also required.
PM.A.i.7. As a result of the mental disorder
or condition, the individual is now a clear and
present danger to self, a clear and present
danger to others, or unable to provide for
basic self-care needs resulting in impending,
serious self-harm.
PM.A.i.8. As a result of the mental disorder
or condition:

15a
PM.A.i.8.1. The individual demonstrates
significant impairment in social, occupational, scholastic or role functioning that
represents a deterioration in level of
functioning.
AND
PM.A.i.8.2. The individual has participated in and failed a substantial course
of traditional or intensive outpatient
treatment in the past three months.
OR
PM.A.i.8.3. It is clinically probable that
the individual will require initiation of a
higher level of care if services are not
provided at this level.
(Id. at 1556–67). These criteria must be satisfied to
continue treatment:
PM.A.c.1. The individual continues to meet
the treatment initiation criteria each day that
services are provided at this level.
PM.A.c.2. There is an individualized plan of
active, professionally directed treatment that
specifies the goals, interventions, time frames,
and anticipated outcomes appropriate to:
PM.A.c.2.1. Improve or prevent deterioration
or delay progression in a clinically meaningful way of the symptoms of, or impairment in
functioning resulting from, the mental disorder or condition that necessitated initiation of
treatment.

16a
AND
PM.A.c.2.2. Address a co-morbid substance
use disorder or condition, if one exists.
PM.A.c.3. The treatment goals, interventions,
time frames, anticipated outcomes, discharge
plan, and criteria for discharge are clinically
efficient, reasonable, and achievable in the
length of stay typically associated with treatment at this level.
PM.A.c.4. Treatment is being rendered in a
timely and appropriately progressive manner.
PM.A.c.5. Each day the individual receives
services there are progress notes by appropriate professional and non professional staff,
and periodic notes by the treating psychiatrist, describing the therapeutic interventions
rendered and the individual’s response.
PM.A.c.6. As appropriate, members of the
individuals social support system are involved
in the individual’s treatment or appropriate
efforts are made to enhance or develop the
individual’s support system.
(Id. at 1567–68).
2. The Partial Hospitalization
On April 15, 2013, Ariana M. entered partial hospitalization at Avalon Hills in Logan, Utah, a residential treatment center that specializes in eating disorders. (Id. at 130–31). She boarded there seven days a
week, with visits home to Texas for some extended
weekends. (Id.). On Ariana M.’s admission, the Avalon
Hills staff assessed her condition as follows:

17a
[Ariana M.] restricts by compulsive exercising, purging and [similar] behaviors. Because
[Ariana M.] continues to exercise, not eatingno specifics indicated on time frame. Reports
social anxiety causing her to purg[e] 2x per
day – if she feels depress[ed] she restricts,
purge[s,] and cuts. [Ariana M.] states that
[her] last episode of her cutting was 2 weeks
ago. [Ariana M.] shave[d] a portion of her
head starting from the forehead. [History] of
self-harming [body] cuts from nipple to stomach and 30-40 cuts which were 1-2 inches
long. (The cuts are healed). [Ariana M.] carved
the word fat into her navel area. ([Ariana M.]
has 10 scars around her navel area). New
marks were made 3 days ago. [Ariana M.]
made a mark from her clavicle to breast area2 vertical marks. 1 of the 2 cuts are still pink
(not healed). [Reviewer] reports old cuts on
her outer calf muscle. [History] of cuts on
[right] arm. [Reviewer] reports (20-40) cuts on
her arm. These cuts are healed.
[Weight] 134.6, 60 inches. BMI: 21. Her
healthy body [weight]: 105-115. . . . Reports
dizziness in the [morning], abdominal pain,
nausea. [Ariana M.] states that she is much
larger [and] that she wants to be place[d] on
a 1700 cal[orie] diet. Denies [suicidal ideation
or homicidal ideation] or psychosis.
(Id. at 131). At Avalon Hills, Ariana M. was to be
supervised a minimum of five hours a day, have group
therapy sessions, and engage in guided activities with
other patients. Avalon Hills provided “no specifics on
[the] time frame” of her partial hospitalization, estimating that her treatment would take 30 days. (Id. at

18a
131–33). Humana initially agreed to cover nine days
of Ariana M.’s treatment, from April 14 to April 23,
2013, after finding her partial hospitalization to be
medically necessary under the Mihalik criteria.
On April 23, Ariana M. asked for an extension. The
same day, Dr. Rasik Lal, a child and adolescent psychiatrist, reviewed whether continued partial hospitalization was medically necessary. Dr. Lal called Dr.
Tom Roskos, one of Ariana M.’s treating physicians at
Avalon Hills, and talked to him about her condition.
Dr. Roskos reported that Ariana M. perceived herself
as overweight, tended to overexercise, and had urges
to harm herself. (Id. at 132). He stated that Ariana M.
“is above her healthy weight range” and was working
with the Avalon Hills staff to “get down to her weight
range.” (Id.). Dr. Roskos “hop[ed] to have con[tinued
partial hospitalization] with her for a while longer to
break through some of her defenses . . . so she can get
ahead of a lot of this behavior and mindset.” (Id.).
After talking to Dr. Roskos and examining Ariana
M.’s records, Dr. Lal determined that it was not
medically necessary for Ariana M. to remain in partial
hospitalization under the Mihalikcriteria because she
“was not reported as being in imminent danger to
[her]self or others.” (Id. at 134). His notes read:
The last time that she seems to have demonstrated any self injurious [or] eating disorder
behaviors [is] approximately 2 weeks which is
before she started the [partial hospitalization] level of care. She has not demonstrated
these behaviors during the [partial hospitalization] treatment. She does not have any
physiological instabilities at this time. She’s
compliant with the medications and tolerating them without side effects. No vegetative

19a
signs and symptoms are reported. The member participates minimally in the treatment
programming [and does] not socialize with
other members in the program and isolates.
She is described as having low motivation in
general and also not enjoying life. . . . No
issues are identified that would require
several hours of daily monitor treatment or
frequent nursing and medical interventions.
The member appears to have progressed to
the point of being able to safely [meet]
treatment needs [on] an outpatient level of
care.
(Id. at 133–34). Following Dr. Lal’s recommendation,
Humana denied Ariana M.’s claim for continued
partial hospitalization coverage because Ariana M. did
not pose “a danger to [her]self or others.” (Id. at 99).
Humana informed Ariana M. that the Mihalik criteria
were used to reach this decision. (Id.).
Avalon Hills appealed on Ariana M.’s behalf.
Humana’s appeal process required an independent
review of the claim. See 29 C.F.R. § 2560.503–
1(h)(3)(ii). Humana sent the claim to AllMed Healthcare Management, Inc. On May 8, 2013, Dr. Maria
Antoinette D. Acenas, a board-certified psychiatrist,
reviewed Ariana M.’s claim for AllMed. She spoke with
Dr. Roskos, who informed her that Ariana M. had
attempted to harm another patient the night before.
(Admin. Record at 184). Dr. Roskos also stated that
Ariana M.’s medication had been changed. (Id.). Based
on this information, Dr. Acenas concluded that an
extension to Ariana M.’s stay at Avalon Hills was medically necessary. She stated:
It is clear that [Ariana M.] is undergoing . . .
medication changes, is severely depressed[,]

20a
and is at risk of self-harm or of harming
others. . . . [Ariana M.] has already failed
intensive outpatient care, and in about approximately 10 days, the medication adjustments
and further intensive therapy should permit
discharge to a lower level of care safely.
(Id. at 184). The next day, Humana approved Ariana
M.’s claim for continued treatment at Avalon Hills,
authorizing 10 additional days of coverage.2 (Id. at
186).
Humana reviewed Ariana M.’s continued partial
hospitalization on May 23. Dr. Carol Kiriakos, a boardcertified psychiatrist, talked to Dr. Roskos about
Ariana M., who informed her that Ariana M. weighed
127.8 pounds and that her “[e]ating disorder behaviors
at the table are improved.” (Id. at 1713–15). But Dr.
Roskos noted that Ariana M. tried to overexercise and
took laxative3 when she left Avalon Hills to stay with
her father for a few days. (Id.). He said that she “has
low motivation to recover[] and insists on doing things
in treatment that only she wants to do.” (Id. at 1715).
Ariana M. told her therapist that “if she wasn’t [in
Avalon Hills] she’d be [harming herself].” (Id.). In Dr.
Roskos’s opinion, Ariana M. needed two “additional
weeks of [partial hospitalization]” because “she is starting to engage but decompensated on pass with her
father.” (Id. at 1716).

2

Humana sent Ariana M. a notice on May 10 that said her
claim had been denied. (Id. at 189–90). This was an error that
Humana corrected.
3

Dr. Roskos stated that Ariana M. “took 6 capsules of Miralax
on 5/17 and 8 capsules on 5/18 while on pass in order to speed up
weight loss.” (Id. at 1715).

21a
After reviewing Ariana M.’s record and speaking
with Dr. Roskos, Dr. Kiriakos found that Ariana M.
had made progress in “distress tolerance skills,” “mindfulness and relaxation strategies,” “distraction skills,”
“improvement with engaging with her peers,”and “has
been successful in not engaging in [eating disorder
symptoms] while in this care.” (Id. at 1716–17). As to
Ariana M.’s physical health, Dr. Kiriakos reported
that “[h]er dizziness and orthostasis has markedly
improved – hydration status improved since she no
longer purge[s].” (Id. at 1717). Dr. Kiriakos concluded:
[Ariana M.] is making slow and steady progress. Needs some more time to solidify coping
skills and relapse prevention training. She
would likely relapse if had to abruptly terminate care. The extra [four] days of care recommended will serve as good time to help with
[the] transition to lower level of care and give
time over [the] weekend for another experimental outing with family supervision as well
to see how she does outside of the structure of
programming, while giving her a chance to
process this experience with others in the
structured setting upon her return to [the]
program.
(Id.). Humana granted an additional four days of
coverage, until May 28.
Ariana M. sought to extend her coverage again on
May 29. Dr. Peter Williams, a board-certified psychiatrist, reviewed the claim for Humana. He called Dr.
Roskos, who reported that Ariana M. weighed about
130 pounds, had been given more freedom in her meal
plan, and had not attempted to harm herself. (Id. at
220). Her parents, he stated, had become firmer with
her during group-therapy sessions. (Id.). Dr. Roskos

22a
also informed Dr. Williams that Ariana M. refused to
cooperate at times with the Avalon Hills staff, wanted
to overexercise, and focused on her weight. In Dr.
Roskos’s opinion, Ariana M. continued to “need[] this
level of care to keep the structure around her and to
keep her safe,” and that “she got pretty quickly back
into her behaviors” when she returned home for a visit.
(Id.).
Dr. Williams disagreed with Dr. Roskos because
“[Ariana M.] has no acute eating disorder issues, and
[no] persistent mood problems [or] self-mutilation
issues . . . . She is not acutely suicidal or psychotic or
threatening others at this time, and after 42 days of
[partial hospitalization] is ready for maintenance in
[an intensive outpatient program].” (Id. at 221). Applying the Mihalik criteria, Dr. Williams concluded that
continued care at the partial-hospitalization level was
not medically necessary, because Ariana M. “was not
aggressive or threatening” and “[t]here was no report
of medical instability.” (Id.). On May 29, Humana
informed Ariana M. that extended partial hospitalization would not be covered, stating that it used the
Mihalik criteria to reach this decision. (Id. at 225).
Avalon Hills appealed for Ariana M. (Id. at 264).
Humana sent the claim to Physicians’ Review Network,
Inc. for external review. On May 30, Dr. Ashraf Ali, a
board-certified psychiatrist reviewed Ariana M.’s file
for Physicians’ Review Network and called Dr. Roskos.
Dr. Ali learned that
[Ariana M.] was not trying to self harm. She
had a lot of sadness and a kind of reactivity.
She used the phrase “because I’m fat” for
excuses for everything . . . . She focused back
on her appearance and her weight very readily
all the time. . . . [T]he patient is diagnosed

23a
with Major Depressive Disorder and Eating
Disorder and she continues to be severely
symptomatic.
(Id. at 315–16). Based on the Mihalik criteria, Dr. Ali
determined that Ariana M. met medical necessity
because she remained “severely symptomatic.” (Id. at
316). He found that she “is still depressed and has
urges to self harm” and that “[s]he is still preoccupied
with her body image and continues to restrict and over
exercise.” (Id.). He concluded that Ariana M. “require[d]
more time in the [partial hospitalization] in order to
get stabilized.” (Id.). On May 31, Humana authorized
continued partial hospitalization until June 4. (Id. at
324).
On June 4, Avalon Hills asked Humana to cover
continued partial hospitalization. Dr. Manjeshwar
Prabhu, a board-certified adult psychiatrist, reviewed
the claim for Humana. He called Avalon Hills and
spoke to Dr. Jeremy Hilton, another one of Ariana M.’s
treating physicians, because Dr. Roskos was out of
town. Dr. Hilton stated that while Ariana M. “is really
struggling to make any changes and she is using all
kinds of distractions to avoid facing some of her
behaviors,” the “whole team says she really has
cont[inued] to exhibit multiple changes in moving
towards recovery.” (Id. at 326). Dr. Hilton was specific
about the improvements. Ariana M. denied having suicidal thoughts, was permitted the highest level of
physical activity, her medication level was stable and
had not changed, and her parents were “holding the
line more in family therapy.” (Id.). Dr. Hilton cautioned that Ariana M. remained “at a high risk of
relapse and self-harm and . . . going in a downward
spiral if she weren’t in this structure.” (Id.).

24a
After considering the record and Dr. Hilton’s report,
Dr. Prabhu determined that partial hospitalization
was no longer medically necessary. He stated:
After certifying 49 days of [partial hospitalization] care, [Ariana M.] is not progressing
in treatment and she appears to be at her
baseline behaviors. She is not suicidal, homicidal, or psychotic and she has no complications with her eating disorder. She is 5 feet
tall and her current weight is 134.5 lbs which
puts her at 134.5% of her ideal body weight of
100 lbs. Her parents are supportive and
involved in her treatment. [Intensive outpatient care] is available for stepdown at
[Avalon Hills]. Mental health [intensive outpatient care] is available near [Ariana M.’s]
home. [Outpatient] providers specializing in
eating disorder treatment are also available
near [Ariana M.’s] home.
(Id. at 327). He concluded that Ariana M. did not meet
the Mihalik criteria because she was “not reported to
be in danger of needing a higher level of care,” there
were “[n]o functional impairments reported,” and she
“d[id] not appear to be an imminent danger to [her]self
or others.” (Id.). Humana denied Ariana M.’s claim
because her risk of relapse behaviors could be treated
at the next level of care, an intensive outpatient
program. (Id. at 331).
Avalon Hills appealed this denial on Ariana M.’s
behalf. On June 10, Humana sent the claim to Advanced
Medical Reviews. Dr. Neil Hartman, a board-certified
psychiatrist, examined Ariana M.’s record and called
Dr. Roskos. (Id. at 359). Dr. Hartman’s notes from his
conversation with Dr. Roskos read:

25a
History of self harm, attempts and cutting.
Family is participating by phone weekly with
passes to achieve lower level of care (May 17
to May 19)[.] While on pass had urges to self
restrict, harm self, reinforced by father which
exacerbate depressive symptoms. No self harm
in the structure of partial hospital. Currently
has a lot of ambivalence since Avalon is not
changing the program to suit her whims. The
motivation seems to come from [Ariana M.] in
“getting in the way.”
(Id. at 367). Ariana M.’s “clinical information” stated
that she “continues to exercise and is not eating,” she
denies “suicidal ideation/homicidal ideation (SI/HI) or
psychosis,” and “her current weight is 134.5 pounds
which is 134% of ideal body weight.” (Id.).
Dr. Hartman applied the Mihalik criteria and concluded that continued partial hospitalization was not
medically necessary. He walked through each Mihalik
criterion:
Based on the attached Mihalik Groups Medical Necessity Manual, the date of service
6/5/13 and forward does not meet medical
necessity for partial hospital treatment based
on PM.A.c1 level of care, partial hospitalization. [Ariana M.] is not a danger to self or
others. She is not hearing voices to harm self,
is medically stable and not aggressive[.]


Services must be consistent with nationally accepted standards. This criterion is
met.



Services must be individualized, specific,
and consistent with the individual’s signs,
symptoms, history and diagnosis. This

26a
criterion is not met. (Treatment plan not
appropriate to individual’s condition)[.]


Services must be expected to help restore
or maintain the individual’s health to prevent deterioration of individual’s behavioral disorder or condition, or delay progression in a clinically meaningful way.
The individual complies with elements of
treatment. This criterion is not met.



The services are not primarily for the
convenience of the individual, provider, or
another party. This criterion is not met.



Services are not being sought to potentially avoid legal proceedings not applicable. This criterion is met.

Based on a behavioral health history and
mental status evaluation, completed by a psychiatrist, the individual is diagnosed with a
mental disorder or condition according to the
Diagnostic and Statistical Manual of mental
disorders.
PM.A.c1[.] The individual continues to meet
the treatment initiation criteria each day that
services are provided at this level. This criterion is not met. (She is 5 feet tall and her current weight is 134.5 pounds. -134% of ideal
body weight)[.]
PM.A.c2.1[.] There is an individualized plan
of active, professionally directed treatment.
This criterion is not met as there is no plan to
meet with parents again for two to three
weeks.

27a
PM.Ac.2.2[.] Improve or prevent deterioration
or delay progression in a clinically meaningful way. This criterion is not met.
As not all of the criteria are met, the
requested service is not met for the dates of
service 6/05/13 and forward.
(Id. at 367–68). In his report, Dr. Hartman listed the
following resources under “References”:
Milliman Behavioral Health Care Guidelines
16th Edition for Anorexia nervosa American
Psychiatric Association: Diagnostic and Statistical Manual of Mental Disorders (DSM-5)
Proposed Revision; May 2013 American Psychiatric Association. Gelder, M; Lpez-Ibor J;
Andreasen N, New Oxford textbook of psychiatry. Yazgan I, MD, Greenwald B, MD,
Kremen N MD, Starch J, RN, and KramerGinsberg E Ph.D.
(Id. at 368). Dr. Hartman certified, under penalty of
perjury, that “the information in this report and its
attachments, if any, is true and correct to the best of
my knowledge and belief.” (Id.).
Humana denied Ariana M.’s appeal on June 12.
Humana paid for 49 days of Ariana M.’s stay at Avalon
Hills. Despite Humana’s refusal to pay for partial
hospitalization after June 4, Ariana M. remained at
Avalon Hills for treatment until September 18, an
additional 106 days.
B. Procedural History
In November 2014, Ariana M. sued Humana for the
cost of her treatment between June 4 and September
18, alleging that Humana wrongfully denied her medical benefits, failed to give reasonable explanations of

28a
its denials, failed to consult with health-care professionals with the appropriate training and experience,
and failed to provide her with the Mihalik criteria.
(Docket Entry No. 1). Humana denied these allegations. (Docket Entry No. 11).
Humana moved for summary judgment in December
2015, attaching the administrative record, and argued
that Ariana M.’s claims received full and fair review
and that its denial of benefits was reasonable and
based on substantial evidence. (Docket Entry No. 39).
In support, Humana stated that Dr. Prabhu and Dr.
Hartman, both board-certified psychiatrists, had determined that continued partial hospitalization was not
medically necessary for Ariana M. after June 4.
Humana recited Dr. Prabhu and Hartman’s medicalrecord reviews and their findings that Ariana M. failed
to meet the Mihalik criteria for continued partial
hospitalization because she did not pose an imminent
danger to herself or others, she did not report psychosis or mania, she was medically stable, and she was
refusing to cooperate with the Avalon Hills treatment.
Ariana M. opposed Humana’s motion and crossmoved for summary judgment. (Docket Entry No. 44).
She contended that she met the Mihalik criteria
because her attending physicians opined that she
remained at risk to harm herself, restrict eating, or
overexercise if she left partial hospitalization. (Id.).4
Ariana M. also argued that Humana had a conflict of
interest because it both evaluated and paid claims,
4

She also argued that Humana’s reviewers should have consulted the American Psychiatric Association Practice Guideline
for the Treatment of Patients with Eating Disorders and that
Humana should not have relied on the Mihalik criteria because
they were not incorporated in Ariana M.’s insurance plan and did
not reflect national standards of care. (Docket Entry No. 44).

29a
and that it took inadequate measures to reduce bias
and to promote accuracy. (Id.).
Attached to Ariana M.’s motion for summary judgment were her medical records from Avalon Hills
between April and September, a deposition of Dr.
Hartman from unrelated litigation, and her father’s
notes from a conversation with the Mihalik Group.
(Docket Entry Nos. 44-1–9). Humana moved to strike
these documents because they were not in the administrative record on which Humana based its decisions.
(Docket Entry No. 47). Ariana M. responded that these
documents were admissible to help the court understand medical terminology and Humana’s previous
interpretations of medical necessity. (Docket Entry
No. 50). She did not dispute that these documents
were outside the administrative record and were not
available to Humana when it reviewed and denied the
claim.
This court granted Humana’s motion for summary
judgment, dismissed the motion to strike as moot, and
entered judgment against Ariana M. (Document Entry
No. 52). This court first determined that Humana’s
review process was not procedurally unreasonable
because it carefully reviewed the claim and hired
third-party reviewers if it was denied. (Id.). This court
then reviewed Humana’s medical necessity determination for abuse of discretion, as Fifth Circuit law
required, finding that Ariana M. failed to establish
that the Mihalik criteria did not reflect national standards of care and failed to identify sufficient evidence
in the administrative record to show that Humana
abused its discretion. (Id.).
Ariana M. appealed and a panel of the Fifth Circuit
affirmed. Ariana M. v. Humana Health Plan of Tex.,
Inc., 854 F.3d 753 (5th Cir. 2017). Sitting en banc, the

30a
Fifth Circuit overturned the panel decision and
changed the standard of review of a plan administrator’s factual determinations from abuse of discretion
to de novo. Ariana M., 884 F.3d at 256. It vacated the
order granting summary judgment and remanded for
de novo review. Id.
On remand, Ariana M. moved for summary judgment, arguing that her partial hospitalization at
Avalon Hills remained medically necessary after June
4. Ariana M.’s primary evidence is Dr. Roskos’s
opinion that she was “at high risk of relapse and selfharm” if she left partial hospitalization. (Docket Entry
No. 70 at 12). She also contends that the Mihalik criteria are inadequate and that Humana failed to provide
them to her during the administrative process. In the
alternative, Ariana M. argues that she met the Mihalik
criteria between June 4 and September 18. Ariana M.
does not contend that Humana had a conflict of interest.
Humana responded and moved for summary judgment. (Docket Entry No. 75). Humana argues that
Ariana M.’s claim for continued partial hospitalization
received full and fair review because both Dr. Prabhu
and an independent reviewer, Dr. Hartman, examined
her records and personally talked to her attending
physicians in determining medical necessity. (Id. at
15–17). Humana contends that the Mihalik criteria
incorporate national standards of medical practice, as
required under Ariana M.’s plan, and noted that this
court and the Fifth Circuit have so ruled.5 In
5

See Ariana M., 854 F.3d at 761 (“[Ariana M.] is incorrect that
the Mihalik criteria do not represent nationally recognized standards of medical practice. Instead, the record indicates that the
Mihalik criteria are intended to represent nationally recognized
standards of medical practice, were created in consultation with

31a
Humana’s judgment, the undisputed evidence in the
record shows that, as a matter of law, Ariana M. did
not meet medical necessity for continued partial
hospitalization after 49 days. Ariana M. was not a
danger to herself or others; was medically stable;
was on stable medication; was maintaining a healthy
weight; was confronting her problems; and was not
cutting herself or engaged in eating disorder behaviors
that changed her weight, including on trips home,
away from Avalon Hills. In addition, Ariana M. was
refusing to cooperate in elements of her treatment.
Humana concluded that Ariana M. could be treated in
intensive outpatient care near her home.
II. The Motion to Strike
Ariana M. attached to her summary judgment motion
the Avalon Hills medical records and reports from
April to September, a deposition of Dr. Hartman from
unrelated litigation, and her father’s notes from a
conversation he had with the Mihalik Group. Humana
moved to strike this evidence because it was outside
the administrative record. (Docket Entry No. 74).
Ariana M. responded that the court “may consider all
facts known to Humana at the time it denied [Ariana
M.’s] claim,” even if Ariana M. had not submitted the
documents to Humana for consideration. (Docket Entry
No. 83 at 1). She also contends that the documents
come in under either the exception for evidence that
helps the court understand medical terminology or
a group of doctors and health professionals from across the country, and were based on extensive medical literature.”); Ariana M.
v. Humana Health Plan of Tex., Inc., 163 F. Supp. 3d 432, 442
(S.D. Tex. 2016) (“[Ariana M.’s] evidence does not show that the
Mihalik criteria fail to represent nationally recognized medical
standards or are otherwise inaccurate. And Ariana M. cites no
case law to support this argument.”).

32a
that shows how Humana interpreted the plan in the
past. (Id.).
Once an administrative record is finalized, “a district court must remain within its bounds in conducting a review of the administrator’s findings, even in
the face of disputed facts.” Ariana M., 884 F.3d at 256
(citing Vega v. Nat’l Life Ins. Servs., Inc., 188 F.3d 287,
299 (5th Cir. 1999) (en banc), overruled on other
grounds by Metro Life Ins. Co. v. Glenn, 554 U.S. 105,
128 S. Ct. 2343 (2008)). The administrative record
“consists of relevant information made available to the
administrator prior to the complainant’s filing of a
lawsuit in a manner that gives the administrator a fair
opportunity to consider it.” Vega, 188 F.3d at 300. The
plan administrator must “identify evidence in the record” and provide “claimants a chance to contest whether
that record is complete.” Ariana M., 884 F.3d at 256.
A claimant introduces evidence into the administrative record “by submitting it to the administrator in a
manner that gives the administrator a fair opportunity to consider it.” Vega, 188 F.3d at 300.
A district court may admit documents outside the
administrative record only to help “evaluate the administrative record.” Ariana M, 885 F.3d at 256. The court
may admit documents showing how the administrator
interpreted the plan terms in the past or what unclear
medical terminology means. Vega, 188 F.3d at 299.
The district court cannot consider documents or information outside the administrative record if they bear
on “disputed material facts—i.e., a fact the administrator relied on to resolve the merits of the claim
itself.” Id.
The court grants Humana’s motion to strike because
Ariana M.’s proffered documents are outside the administrative record and do not qualify for an exception.

33a
Ariana M. asserts that the court can admit the documents because at least some of them contain information available to Humana when it denied her claim.
But Ariana M. does not explain which documents were
available, or how or when she submitted the documents to the plan administrator during the administrative process. Id. at 300. The documents are not part
of the administrative record. Id. at 299–300; see
Dix. v. Blue Cross & Blue Shield Ass’n Long Term
Disability Program, 613 F. App’x 293, 295, 296–97 (5th
Cir. 2015) (a court refused to consider medical records
outside the administrative record).
Ariana M. also argues that the documents could
help the court understand the record. Id. at 300. That
argument fails as well. Ariana M. uses the documents
to argue that Humana’s review process was inadequate and that her partial hospitalization was medically necessary. Those questions go to the merits. The
documents attached to her summary judgment motion,
which she failed to enter into the administrative
record, cannot be used for that purpose, and they do
not illustrate how Humana had interpreted the plan
terms in the past . The motion to strike is granted.
III. The Motions for Summary Judgment
“Summary judgment is appropriate only if there is
no genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
Vann v. City of Southaven, Miss., 884 F.3d 307, 309
(5th Cir. 2018) (quotation omitted); see also FED. R.
CIV. P. 56(a). “A genuine dispute of material fact exists
when the ‘evidence is such that a reasonable jury could
return a verdict for the nonmoving party.’” Burrell
v. Prudential Ins. Co. of Am., 820 F.3d 132, 136 (5th
Cir. 2016) (quoting Anderson v. Liberty Lobby, 477
U.S. 242, 248, 106 S. Ct. 2505, 2510 (1986)). “[A] party

34a
seeking summary judgment always bears the initial
responsibility of informing the district court of the
basis for its motion, and identifying those portions of
[the record] . . . which it believes demonstrate the
absence of a genuine issue of material fact.” Celotex
Corp. v. Catrett, 477 U.S. 317, 323, 106 S. Ct. 2548,
2553 (1986).
The court reviews the administrative record de novo
to determine whether Humana wrongfully denied
Ariana M. benefits for her partial hospitalization
starting from June 5 to September 18, after paying
benefits from April 15 to June 4. Ariana M., 884 F.3d
at 256. De novo review requires that the court apply
the same standard as the plan administrator in deciding whether the benefits were owed under the plan’s
terms. Cf. Hightower v. Tex. Hosp. Ass’n, 65 F.3d 443,
447 (5th Cir. 1995).
Humana and its independent reviewers used the
Mihalik criteria, including its first criterion incorporating the national standards of care, to assess medical necessity.6 The first question is whether the
Mihalik criteria are consistent with Ariana M.’s plan
and reflect national standards of care for mental
health treatment. If so, the second question is whether
Ariana M.’s continued partial hospitalization was
medically necessary under the national standards.

6

In its order granting summary judgment for Humana, the
court ruled that Humana’s independent review process cured any
conflict of interest. See Ariana M., 163 F. Supp. 3d at 440–42.
Ariana M. did not challenge that determination on appeal,
Ariana M., 854 F.3d at 758 n.3, and she did not raise it in her
renewed motion for summary judgment. She has waived that
argument.

35a
The Mihalik criteria are consistent with Ariana M.’s
plan. The Mihalik criteria track the plan’s definition
of “medical necessity,” providing Humana’s reviewers
with guidance to implement the language. See Ariana
M., 854 F.3d at 758 (“[T]he Mihalik criteria simply
provide [Humana]’s claims adjusters guidance in carrying out the terms of the Plan. . . . [N]othing in the
Mihalik criteria’s definition of medical necessity is
inconsistent with the Plan’s terms.”).7
The administrative record indicates that the Mihalik
criteria include national standards of care. The Mihalik
manual states that the criteria are “designed to focus
on nationally accepted criteria” and were reviewed by
“a National Advisory Panel comprised of behavioral
health specialists from a variety of backgrounds and
experiences.” (Admin. Record at 1507, 1513). The manual provides 10 pages of references and authorities,
including articles in peer-reviewed journals, guidelines issued by the American Psychiatric Association,
and psychiatry textbooks from major publishers. (Id.
at 1696–1707). Ariana M. has not identified evidence

7

Ariana M. claims that Humana did not provide free access to
the Mihalik criteria, citing 29 C.F.R. § 2560.503–1(h)(2)(iii). That
regulation reads: “a claimant shall be provided, upon request and
free of charge, reasonable access to, and copies of, all documents,
records, and other information relevant to the claimant’s claim
for benefits.” Id. Humana need not provide “free access” to the
Mihalik criteria, as Ariana M. argues. (Docket Entry No. 70 at
19). Humana’s denial of benefits stated: “At your request, we’ll
send you—at no cost—a copy of any guideline, criteria, or clinical
rationale we relied on.” (Admin. Record at 376). The record does
not contain a request for the Mihalik criteria, and Humana
therefore had no obligation to produce them. In addition, the
record shows that Humana supplied the relevant Mihalik criteria
in its letter denying benefits. (Id. at 1404–05).

36a
showing that the Mihalik criteria fall below, fail to
reflect, or conflict with national standards of care.
Ariana M. contends that the Mihalik criteria do not
track national standards of care because a “for-profit
consulting company” created them. (Docket Entry No.
70 at 19). The fact that a company created the Mihalik
criteria does not mean that they fall below, fail to
reflect, or conflict with national standards of care.
Ariana M. contends that Humana should have used
the American Psychiatric Association’s guidelines,
and not the Mihalik criteria. But the American Psychiatric Association is itself a private organization;
Ariana M. does not explain why its guidelines are
more reliable, or how they conflict with the Mihalik
criteria. Humana did not err in using the Mihalik
criteria to assess medical necessity.
A de novo review of the administrative record reveals
that Humana made no error in denying benefits for
Ariana M.’s partial hospitalization after June 4, 2013.
As a threshold matter, Humana provided Ariana M. a
full review. Humana sent each of Ariana M.’s claims
for extended review to a board-certified psychiatrist.
The psychiatrists contacted Ariana M.’s treating physicians and reviewed her medical records.8 They wrote
findings and conclusions. When Ariana M. appealed a
denial, Humana sent her claim to independent, board-

8

Ariana M. argues that the medical reviewer’s failure to
examine Ariana M. themselves calls their evaluation into question. The Fifth Circuit has rejected this argument. See Anderson
v. Cytec Indus., Inc., 619 F.3d 505, 515 (5th Cir. 2010) (“That the
independent experts reviewed Anderson’s records but did not
examine him personally also does not invalidate or call into question their conclusions.”).

37a
certified psychiatrists for review.9 They spoke with
Ariana M.’s treating physicians, reviewed her medical
records, and made detailed written findings and conclusions. Humana followed the independent reviewers’
recommendations, including when they concluded that
continued partial hospitalization was medically necessary for Ariana M.10 Each of her claims and appeals
was reviewed within a few days. Humana’s administrative process was prompt and designed to eliminate
bias by using third-party reviewers and current information from her treating physicians.
Ariana M.’s continued partial hospitalization was
not medically necessary under the plan terms. The
administrative record shows that Ariana M. was
stable on June 4. She denied any suicidal ideation,
homicidal ideation, or psychosis. She had not attempted
to harm herself during her time at Avalon Hills,
including during visits home.11 Ariana M.’s weight was
9

Ariana M. argues that Humana erred by providing Dr.
Prabhu’s medical review to Dr. Hartman. She contends that this
biased his decision-making. Humana gave Ariana M.’s record to
Dr. Hartman, including the opinions of her attending physicians
and Dr. Prabhu, which he required to investigate the claim. It did
not instruct him to defer to Dr. Prabhu. Ariana M. has not identified evidence supporting that Dr. Hartman relied on Dr. Prabhu’s
opinion, other than that he reached the same conclusion as Dr.
Prabhu. That is not enough.
10

Ariana M. challenges the qualifications of Dr. Hartman. Her
evidence on Dr. Hartman comes from a deposition in a previous
case that is outside the administrative record. The court cannot
consider that evidence. The administrative record discloses that
Dr. Hartman is a board-certified psychiatrist. (Admin. Record at
368). He is qualified to review Ariana M.’s claim.
11

Dr. Roskos reported that Ariana M. had attempted to harm
another patient on May 7, which factored into the reviewer’s conclusion that her continued partial hospitalization remained
medically necessary for “approximately 10 days.” (Admin. Record

38a
steady. She had not had major weight changes, including during trips home. She had no acute medical
complications from her disorder. Her medication level
was stable. Her parents had begun to cooperate more
with the therapy, suggesting that they better understood the problem and could support her. While she
reported urges to harm herself, purge, and overexercise, she had largely resisted those urges, except for
self-reporting that she had exercised on one trip home
more than she had agreed on with the Avalon Hills
staff. In recommending that Humana deny Ariana
M.’s claim, Dr. Hartman walked through each relevant Mihalik criteria. This court does the same,
applying de novo review. Ariana M. had to meet eight
“General Criteria” throughout “the episode of care.”
(Id. at 127). Ariana M. failed to satisfy two of them.


“The services must be individualized,
specific, and consistent with the individual’s signs, symptoms, history, and diagnosis.” (Id. at 1566).

While Ariana M. continued to exhibit “anxiety and
depression,” she had not harmed herself or purged since
her admission to Avalon Hills, including on visits
home. (Id. at 326). She did report some exercise at
home that exceeded the limit set by the Avalon Hills
staff. (Id.). Whatever the extent of Ariana M.’s overexercising, it did not change her weight. Nor did any
attempts to restrict food intake, which are not described
in the record, change her weight. While weight is only
one factor among many in determining medical necessity for Ariana M.’s continued partial hospitalization,
at 184). Humana accepted the recommendation, authorizing an
additional 10 days of partial hospitalization. By June 4, there
were no other attempts to harm others.

39a
it is a factor. She denied suicidal, homicidal, or psychotic thoughts, and she was physically healthy and
medically stable. (Id.). The “whole team sa[id] she
really has cont[inued] to exhibit multiple changes in
moving towards recovery.” (Id.).
Dr. Hilton worried that Ariana M. still had “urges”
and that leaving the structure of partial hospitalization would send her “in a downward spiral.” (Id.). The
presence of “urges” and the risk of succumbing to them
after improvement and stability is ever present for
most who suffer from addictions or mental illness,
including eating disorders. After 49 days in partial
hospitalization, Ariana M. had stabilized and improved
enough to transition to a lower level of care. Humana
would cover intensive outpatient care, which required
Ariana M. to attend “[g]roup therapeutic sessions
greater than one hour a day, three days a week,”
focused on behavioral health, recovery strategies,
skills development, and family interaction, with access
to a physician “for medical and medication management.” (Id. at 876). Partial hospitalization was no
longer required by the plan terms, given her symptoms, history, and diagnosis.


“The individual complies with the essential elements of treatment.” (Id. at 1566).

Drs. Roskos and Hartman reported that Ariana M.
was refusing to cooperate in her treatment at Avalon
Hills. In his discussion with Dr. Prabhu, Dr. Hilton
stated: “[Ariana M.] is pretty reactive to intervention
and is showing little willingness to work on her issues
right now but she kind of goes in and out of that a bit.
She is pretty resistant and . . . is pushing back.” (Id. at
326). Dr. Hilton told Dr. Hartman that “[Ariana M.]
has a lot of ambivalence since Avalon is not changing
program to suit her whims.” (Id. at 367). Dr. Roskos

40a
told Dr. Kiriakos that Ariana M. had low motivation
torecover and participated only in treatment that “she
wants to do.” (Id. at 1715). Because Ariana M. did not
cooperate in her treatment, she failed this criterion.
The record, reviewed de novo, supports that finding.
Ariana M. also needed to meet six “Treatment
Criteria” for “each day that services [were] provided.”
(Id. at 1566–67). Ariana M. failed to meet at least one
of them.


“The individual does not have adequate
internal resources or an adequate external
support system to maintain functioning
without the support of an intensive multimodal, multi-disciplinary treatment program that includes medical and/or nursing
care.” (Id. at 1566).

During most of her 49 days at Avalon Hills, Ariana
M. had proven able to resist urges to harm herself,
purge, and overexercise. (Id. at 326, 367). Because of
this, Avalon Hills permitted her a higher level of physical activity and flexibility in meals. (Id. at 220, 326).
Ariana M. had demonstrated the internal resources
necessary to largely control her behaviors, with none
of the more self-destructive acts, and to resist those
urges over the 49 days she spent at Avalon Hills. Her
Avalon Hills doctors also reported that her parents
had learned to “hold[] the line more” during family
therapy sessions, strengthening her external support
system. (Id. at 326). De novo review shows ample
evidence supporting the conclusion that she did not
meet this criterion as of June 4.
For “each day that services [were] provided,” Ariana
M. also had to meet one of the “Treatment Initiation
Criteria”:





41a
As a result of the mental disorder or condition, the individual is now a clear and present danger to self, a clear and present
danger to others, or unable to provide for
basic self-care needs resulting in impending, serious self-harm. . . .
As a result of the mental disorder or
condition: . . .
The individual demonstrates significant
impairment in social, occupational, scholastic or role functioning that represents a
deterioration in level of functioning.
AND
. . . The individual has participated in and
failed a substantial course of traditional or
intensive outpatient treatment in the past
three months.
OR
. . . It is clinically probable that the individual will require initiation of a higher
level of care if services are not provided at
this level.

(Id. at 1567). Ariana M. failed to satisfy these Treatment Initiation Criteria. By June 4, Ariana M. did not
pose a clear and present danger to herself or others.
She was physically healthy. She had not attempted to
harm herself. She did not have suicidal, homicidal, or
psychotic thoughts. The record discloses that Ariana
M. had attempted to harm another patient on May 7,
but had made no similar attempts since then. Her
weight had not meaningfully changed during her time
at Avalon Hills.

42a
Ariana M.’s health and improvement support the
reviewers’ finding that she did not require the higher
level of care of partial hospitalization and could move
to intensive outpatient care. To whatever extent
Ariana M. attempted to restrict her food intake, or
overexercise on trips home, she had maintained her
weight and her medication was stable. Even if Ariana
M. might in the future need to return to partial
hospitalization, nothing in the record suggests that in
intensive outpatient care, Ariana M. would quickly
deteriorate to the point that partial or full hospitalization would be necessary.
The record discloses that Ariana M. had failed intensive outpatient treatment before being admitted to
Avalon Hills. It does not say whether this treatment
was within three months of her admission there and
does not undermine the conclusion as to medical necessity on June 4. Ariana M. does not carry the burden of
proof on this point.
Lastly, Ariana M. had to satisfy six “Treatment
Continuation Treatment” during “the episode of care.”
(Id. at 128). Ariana M. failed to meet at least one of
them.


“The treatment goals, interventions, time
frames, anticipated outcomes, discharge
plan, and criteria for discharge are clinically efficient, reasonable, and achievable
in the length of stay typically associated
with treatment at this level.” (Id. at 1568).

The record does not contain a structured plan by
Avalon Hills to transition Ariana M. out of partial
hospitalization. As Dr. Hartman noted on June 11,
“there is no plan to meet with [Ariana M.’s] parents
again for two to three weeks.” (Id. at 368). On April 23,

43a
Avalon Hills estimated Ariana M.’s length of stay to be
30 days. (Id. at 133). Forty-two days later, on June 4,
Avalon Hills requested more time in partial hospitalization, without any indication as to how much time
Ariana M. likely needed or any explanation as to why
there was no transition plan in place. This criterion is
not met.
Ariana M. failed to meet several of the Mihalik criteria based on the facts in the administrative record.
While remaining at Avalon Hills might have been
beneficial for her, it was not medically necessary after
June 4. By that date, Ariana M. had spent 49 days in
partial hospitalization, where she had maintained a
healthy weight and resisted urges to purge, harm
herself, or overexercise even unsupervised (except by
some unknown amount beyond what she had agreed
on with Avalon Hills). Her eating and exercising
behaviors did not prohibitively harm her health or
change her weight and she was allowed a flexible meal
plan and an increase in exercise. Humana did not err
in determining that Ariana M.’s hospitalization was
medically unnecessary after June 4. The undisputed
facts in the administrative record, reviewed de novo,
showed that Humana did not deny plan benefits owed
to Ariana M.
Ariana M. contends that her treating physicians’
opinions are owed greater deference than those of
Humana’s reviewers. Precedent forecloses this argument. See Black & Decker Disability Plan v. Nord, 538
U.S. 822, 834, 123 S. Ct. 1965, 1972 (2003) (“[C]ourts
have no warrant to require administrators automatically to accord special weight to the opinions of a claimant’s physician.”); Vercher v. Alexander & Alexander
Inc., 379 F.3d 222, 233 (5th Cir. 2004) (“In Black &
Decker . . . , the Supreme Court held that ERISA does

44a
not require plan administrators to accord special
deference to the opinions of treating physicians.”).
Alternatively, Ariana M. argues that the court should
defer to her treating physicians’ opinions because
mental illness presents subjective symptoms that
require observation to detect. (Docket No. 70 at 24–
25). Humana hired board-certified psychiatrists to
review Ariana M.’s claims for this reason. Humana’s
reviewers spoke with Ariana M.’s attending physicians to hear their observations and opinions. After
personally talking to attending physicians and examining Ariana M.’s medical records, Humana’s reviewers made an independent determination. The reviewers credited the opinions of Ariana M.’s treating
physicians, but on June 4, found that their observations about Ariana M. supported denying extended
benefits for partial hospitalization in favor of intensive
outpatient care.
Humana’s independent review process placed a
third party between its plan administrator and Ariana
M.’s partial hospitalization providers. Both had a
conflict of interest. See Metro. Life Ins. Co. v. Glenn,
554 U.S. 105, 119, 128 S. Ct. 2343, 2352 (2008)
(Roberts, C.J., concurring) (“[A] third-party insurer’s
dual role as a claims administrator and plan funder
gives rise to a conflict of interest that is pertinent in
reviewing claims decisions.”); Salley v. E.I. DuPont de
Nemours & Co., 966 F.2d 1011, 1016 (5th Cir. 1992) (a
treating physician has a conflict of interest where “the
treating physician would stand to profit greatly if the
court were to find benefits should not be terminated”).
In this case, the psychiatrists agreed on the facts but
differed in their conclusions.
In denying her benefits for partial hospitalization,
Humana did not cut Ariana M. off from treatment. It

45a
stated, “This patient can be treated at the following
level of care: Intensive Outpatient Program.” (Id. at
331). If her condition worsened in outpatient care, and
partial hospitalization became medically necessary,
Ariana M. could seek benefits from Humana once
more. Ariana M. chose against transitioning into outpatient care, and instead stayed at Avalon Hills for
106 more days.
IV. The Motion for Attorney’s Fees
Ariana M. seeks the fee her attorneys incurred on
the appeal to the Fifth Circuit. Humana responded.
(Docket Entry No. 79). Ariana M. replied. (Docket
Entry No. 80).
The court may award attorney’s fees to the fee
claimant, “as long as the fee claimant has achieved
‘some degree of success on the merits.’” Hardt v.
Reliance Standard Life Ins. Co., 560 U.S. 242, 244–45,
130 S. Ct. 2149, 2152 (2010) (quoting Ruckelshaus v.
Sierra Club, 463 U.S. 680, 694, 103 S. Ct. 3274, 3282
(1983)). Ariana M. has not succeeded on her claim that
her partial hospitalization was medically necessary
after June 4. The Fifth Circuit vacated and remanded
this court’s order granting summary judgment for
Humana so that the court could apply a de novo
standard. The appellate court did not indicate that
Ariana M.’s claim had, or lacked, merit.12 This court
12

See Ariana M., 884 F.3d at 257 (“A different standard of
review will sometimes lead to a different outcome, but there will
also be many cases in which the result would be the same with
deference or without it. We give no opinion on which is the case
here . . . .”); id. at 268 (Elrod, J., dissenting) (“This is a waste of
judicial resources because there is no genuine issue of material
fact and the record establishes that the plan administrator did
not err in declining to cover Ariana’s additional partial hospitalization.”).

46a
found that under either an abuse of discretion or de
novo standard of review, Ariana M. did not succeed in
showing that Humana denied her benefits owed under
her plan. Ariana M.’s motion for attorney’s fees is
denied. Each side will bear its own fees.
V. Conclusion
Humana did not owe Ariana M. benefits for partial
hospitalization at Avalon Hills between June 4 and
September 18. Humana had covered 49 days of continued partial hospitalization, including board, for seven
days a week. Continued partial hospitalization was
not medically necessary after June 4.13
Humana’s motion for summary judgment is granted, (Docket Entry No. 75), its motion to strike is granted, (Docket Entry No. 74), Ariana M.’s cross-motion for
summary judgment is denied, (Docket Entry No. 70),
and Ariana M.’s motion for attorney’s fees is denied,
(Docket Entry No. 77). Final judgment is separately
entered.
SIGNED on September 14, 2018, at Houston, Texas.
/s/ Lee H Rosenthal ______________
Lee H. Rosenthal
Chief United States District Judge

13

Humana also argued that ERISA preempts the Texas law
that bans the delegation of discretion to plan administrators.
(Docket Entry No. 75 at 27–28). The court need not address that
argument.

47a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed March 1, 2018]
————
No. 16-20174
D.C. Docket No. 4:14-CV-3206
————
ARIANA M.,
Plaintiff-Appellant,
v.
HUMANA HEALTH PLAN OF TEXAS, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court for the
Southern District of Texas
————
JUDGMENT ON REHEARING EN BANC
Before STEWART, Chief Judge, and JOLLY, JONES,
SMITH, DENNIS, CLEMENT, PRADO, OWEN,
ELROD,
SOUTHWICK,
HAYNES,
GRAVES,
HIGGINSON, and COSTA, Circuit Judges.
This cause was considered on the record on appeal
and was argued by counsel.
It is ordered and adjudged that the judgment of the
District Court is vacated, and the cause is remanded


Judge Jolly, now a Senior Judge of this court, participated in
the consideration of this en banc case. Judges Willett and Ho
were not on the court when this case was heard en banc.

48a
to the District Court for further proceedings in accordance with the opinion of this Court.
IT IS FURTHER ORDERED that each party bear
its own costs on appeal.
E. GRADY JOLLY, Circuit Judge, dissenting, joined
by JONES, SMITH, CLEMENT, and ELROD, Circuit
Judges. OWEN, Circuit Judge, joins only Part I.
PRISCILLA R. OWEN, Circuit Judge, dissenting.
JENNIFER WALKER ELROD, Circuit Judge, joined
by JOLLY and CLEMENT, Circuit Judges, dissenting.

49a
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed March 1, 2018]
————
No. 16-20174
————
ARIANA M.,
Plaintiff-Appellant,
v.
HUMANA HEALTH PLAN OF TEXAS, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
————
Before STEWART, Chief Judge, and JOLLY, JONES,
SMITH, DENNIS, CLEMENT, PRADO, OWEN,
ELROD,
SOUTHWICK,
HAYNES,
GRAVES,
*
HIGGINSON, and COSTA, Circuit Judges.
GREGG COSTA, Circuit Judge, joined by STEWART,
Chief Judge, DENNIS, PRADO, SOUTHWICK,
HAYNES, GRAVES, and HIGGINSON, Circuit
Judges:
When an ERISA plan lawfully delegates discretionary authority to the plan administrator, a court reviewing the denial of a claim is limited to assessing
*

Judge Jolly, now a Senior Judge of this court, participated in
the consideration of this en banc case. Judges Willett and Ho
were not on the court when this case was heard en banc.

50a
whether the administrator abused that discretion.
Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101,
115 (1989). For plans that do not have valid delegation
clauses, the Supreme Court has held that “a denial of
benefits challenged under § 1132(a)(1)(B) is to be
reviewed under a de novo standard.” Id. For a quarter
century, we have interpreted that holding to apply
only to a denial of benefits based on an interpretation
of plan language. The result is a bifurcated standard
of review for challenges in our circuit to the denial of
ERISA benefits. Courts reviewing challenges to the
legal interpretation of a plan do not, as Firestone says,
give any deference to the administrator’s view of plan
language. But challenges to an administrator’s factual
determination that a beneficiary is not eligible are
reviewed under the same abuse-of-discretion standard
that applies when plans have delegated discretion.
Pierre v. Conn. Gen. Life Ins. Co., 932 F.2d 1552, 1562
(5th Cir. 1991). When Pierre was decided, it created a
circuit split with one other court of appeals that had
read Firestone to set a default de novo standard for
both legal and factual determinations. Reinking v.
Phila. Am. Life Ins. Co., 910 F.2d 1210, 1213–14 (4th
Cir. 1990), overruled on other grounds by Quesinberry
v. Life Ins. Co. of N. Am., 987 F.2d 1017 (4th Cir. 1993).
In the time since, seven other courts of appeals have
chimed in. Every one has taken the view that the
standard of review does not depend on whether the
denial is deemed to be based on legal or factual
grounds.
We thus have long stood alone in limiting Firestone’s
de novo review to denials based on interpretations of
plan terms. Our outlier view did not affect a great
number of ERISA cases, however, because delegation
clauses that remove a case from the default standard
of Firestone are so prevalent. But the importance of

51a
this issue may be growing. As part of a trend in a
number of states,1 Texas recently enacted a law
banning insurers’ use of delegation clauses. TEX. INS.
CODE § 1701.062(a). Assuming that the antidelegation
statute is not preempted by federal law—something
we do not decide today as that defense has not been
asserted—a lot more ERISA cases will be subject to
Firestone’s default standard of review. So we granted
en banc review of this case to reconsider Pierre and
determine the default standard of review that applies
when a beneficiary challenges a plan denial based on
a factual determination of ineligibility.
I.
Ariana M. is a dependent covered by an Eyesys
Vision Inc. group health plan. Humana Health Plan of
Texas, Inc. insures and makes benefits determinations
for that plan. So when Ariana was admitted to Avalon
Hills, a facility that treats eating disorders, Humana
determined whether and for how long to cover her
partial hospitalization. According to the plan’s terms,
partial hospitalization includes comprehensive treatment for a minimum of five hours per day, five days a
week. This treatment is more intensive than any form
of outpatient care.
When she was admitted, Ariana had over 100 selfinflicted cuts on her body, while her escalating eating
disorder interfered with her ability to lead a normal
life. This was no isolated occurrence. By that time,
1

Twenty-six states, including Texas, have moved to prohibit
discretionary clauses either through statute or regulatory action.
Nat’l Ass’n of Ins. Comm’rs, Prohibition on the Use of Discretionary Clauses Model Act ST-42-3-6 (2014), http://www.naic.org
/store/free/MDL-42.pdf. Louisiana and Mississippi have not taken
any such action. Id. ST-42-4.

52a
Ariana had a six-year history of eating disorders,
though she claimed that her body-image dissatisfaction dated back to early childhood.
A beneficiary is only eligible for partial hospitalization for mental health services if the treatment is
“medically necessary.” Medically necessary services
are those “that a health care practitioner exercising
prudent clinical judgment would provide to his or her
patient for the purpose of preventing, evaluating, diagnosing or treating an illness or bodily injury, or its
symptoms.”
Ariana’s treatment lasted from April to September
2013. Though Humana, at various points, denied certification for continued treatment—reversing course
only on appeal by Avalon Hills—it did eventually
authorize forty-nine days of partial hospitalization.
But Humana declined to allow partial hospitalization
beyond June 5th, claiming it was no longer medically
necessary.
In reaching this conclusion, Humana had two doctors evaluate Ariana’s records. Dr. Manjeshwar
Prabhu—a contract physician with Humana’s
behavioral-health vendor—conducted the initial
review, finding that Ariana no longer qualified for
treatment under the Mihalik criteria. Mihalik provides a set of privately licensed guidelines used to
evaluate the need for certain medical services. In
Prabhu’s view, Ariana posed no imminent danger to
herself or others and showed no medical instability or
functional impairments, so a lower level of care, such
as an intensive outpatient treatment, was appropriate.
Though Avalon Hills—whose physicians participated
in a peer-to-peer review of Ariana’s case with Prabhu—
acknowledged she was neither suicidal nor psychotic,
it informed Prabhu that Ariana was not progressing in

53a
her treatment. In the view of a therapist at the facility,
Ariana appeared to be at her “baseline behaviors.”
Avalon Hills appealed the denial. That prompted
Humana to seek an additional review from Dr. Neil
Hartman, a psychiatrist with Advanced Medical
Reviews. He evaluated Ariana’s medical records—
including Prabhu’s determination—and consulted her
treating physicians. Hartman concluded that Ariana’s
partial hospitalization was no longer necessary
because she was “medically stable,” “not aggressive,”
and “not a danger to [herself or others].”
Ariana then filed this lawsuit. The plan has a clause
granting to Humana “full and exclusive discretionary
authority to: [i]nterpret plan provisions; [m]ake decisions regarding eligibility for coverage and benefits;
and [r]esolve factual questions relating to coverage
and benefits.” Early in the lawsuit, Ariana argued that
the clause was unenforceable because Texas prohibits
discretionary clauses. TEX. INS. CODE § 1701.062(a). In
response, Humana agreed to not rely on the delegation
clause (and thus did not raise a preemption defense to
the Texas statute) and said it would defend its denial
under the default “de novo” standard. Despite using the
“de novo” label, Humana made clear that it was
invoking the “abuse of discretion” standard Pierre
applies to factual determinations even when a plan
does not grant the administrator discretion. Ariana
argued that the Texas law did not just invalidate
delegation clauses but also overrode Pierre’s deferential standard of review.
The district court disagreed that Texas law could
dictate the ERISA standard of review. The court thus
applied Pierre and assessed whether Humana’s decision fell “somewhere on a continuum of reasonableness—even if on the low end.” Ariana M. v. Humana

54a
Health Plan of Tex., Inc., 163 F. Supp. 3d 432, 439
(S.D. Tex. 2016) (quoting Holland v. Int’l Paper Co.
Ret. Plan, 576 F.3d 240, 247 (5th Cir. 2009)). It held
that Humana did not abuse its discretion in finding
Ariana’s continued partial hospitalization medically
unnecessary—Prabhu and Hartman both conducted
peer-to-peer reviews with her treating physicians,
reviewed her medical files, provided reports citing the
Mihalik criteria, and explained why she did not qualify
for continued partial hospitalization under the plan. Id.
at 442. As a result, the district court granted Humana’s
motion for summary judgment and denied Ariana’s.
Id. at 443.
A panel of this court affirmed. Ariana M. v. Humana
Health Plan of Tex., Inc., 854 F.3d 753, 762 (5th Cir.
2017). The panel rejected Ariana’s contention that the
Texas statute mandated a specific standard of review,
finding instead that the “plain text of the statute provides only that a discretionary clause cannot be written into an insurance policy.” Id. at 757. Therefore,
Texas’s antidelegation law did not alter “normal Pierre
deference.” Id. The panel also recognized that Pierre
deference, under this court’s long-held view, dictated
abuse of discretion as the appropriate standard to
review an administrator’s factual determinations, irrespective of whether the ERISA plan contains a discretionary clause. Id. at 756–57 (citing Pierre, 932 F.2d at
1562 and Dutka ex rel. Estate of T.M. v. AIG Life Ins.
Co., 573 F.3d 210, 212 (5th Cir. 2009)).
But the entire panel joined a concurring opinion
questioning Pierre’s continuing vitality given that
every other circuit to consider the standard of review
issue has decided otherwise. Id. at 762 (Costa, J.,
specially concurring). A number of amici, including the
Department of Labor and the Texas Department of

55a
Insurance, supported Ariana’s request for full court
reconsideration of Pierre. We granted the petition.
II.
We first consider Ariana’s argument that the Texas
statute dictates the standard of review for ERISA
cases. That is not our reading of the antidelegation
law. It provides that an “insurer may not use a document described by Section 1701.002”—which includes
health insurance policies—“in this state if the document contains a discretionary clause.” TEX. INS. CODE
§ 1701.062(a). In turn, the law defines discretionary
clauses to encompass any provision that “purports or
acts to bind the claimant to, or grant deference in
subsequent proceedings to, adverse eligibility or claim
decisions or policy interpretations by the insurer” or
“specifies . . . a standard of review in any appeal
process that gives deference to the original claim
decision or provides standards of interpretation or
review that are inconsistent with the laws of this
state, including the common law.” TEX. INS. CODE
§ 1701.062(b)(1), (2)(D).
The Texas insurance code provision thus only renders discretionary clauses unenforceable; it does not
attempt to prescribe the standard of review for federal
courts deciding ERISA cases. As to whether federal
law preempts this state action making discretionary
clauses unenforceable, we do not consider that defense
because Humana did not assert it.2

2

Each court to decide this issue has concluded that ERISA
does not preempt state antidelegation statutes. See Fontaine v.
Metro. Life Ins. Co., 800 F.3d 883, 891 (7th Cir. 2015); Standard
Ins. Co. v. Morrison, 584 F.3d 837, 842–45 (9th Cir. 2009); Am.
Council of Life Insurers v. Ross, 558 F.3d 600, 604–09 (6th Cir.
2009); see also Hancock v. Metropolitan Life Ins. Co., 590 F.3d

56a
III.
With the delegation clause out of the picture and
federal ERISA law providing the standard of review,
this case presents us with an opportunity to reconsider
Pierre. It held that “for factual determinations under
ERISA plans, the abuse of discretion standard of
review is the appropriate standard; that is, federal
courts owe due deference to an administrator’s factual
conclusions that reflect a reasonable and impartial
judgment.” 932 F.2d at 1562. No other circuit agrees
that Firestone’s default de novo standard is limited to
the construing of plan terms. See Shaw v. Conn. Gen.
Life Ins. Co., 353 F.3d 1276, 1285 (11th Cir. 2003);
Riedl v. Gen. Am. Life Ins. Co., 248 F.3d 753, 756 (8th
Cir. 2001); Kinstler v. First Reliance Standard Life Ins.
Co., 181 F.3d 243, 250– 51 (2d Cir. 1999); Walker v.
Am. Home Shield Long Term Disability Plan, 180 F.3d
1065, 1070 (9th Cir. 1999); Rowan v. Unum Life Ins.
Co. of Am., 119 F.3d 433, 435–36 (6th Cir. 1997);
Ramsey v. Hercules Inc., 77 F.3d 199, 203–05 (7th Cir.
1996); Luby v. Teamsters Health, Welfare, & Pension
Trust Funds, 944 F.2d 1176, 1183-84 (3d Cir. 1991);
Reinking, 910 F.2d at 1213–14 (all applying de novo
review when the plan does not grant discretion).3
All but one of those courts of appeals had the opportunity to consider Pierre, and all that did so rejected
its reasoning. They cited a number of reasons for not
1141, 1149 (10th Cir. 2009) (stating that a full ban on discretionary clauses would not likely be preempted, even though ERISA
preempted a state statute regulating them).
3

Gross v. Sun Life Assurance Company of Canada suggests
that the First Circuit takes the same view. 734 F.3d 1, 17 (1st Cir.
2013) (noting the court’s task of independently weighing the facts
and opinions in the administrative record and “giv[ing] no deference to the administrator’s opinions or conclusions”).

57a
following our view. At the most basic level, they disagreed with Pierre’s reading of Firestone. That Supreme
Court decision addressed a dispute about plan interpretation rather than one involving a factual determination that a beneficiary was not entitled to benefits.
But every other circuit has read its holding as applying
to both situations. That is because Firestone holds that
“a denial of benefits challenged under § 1132(a)(1)(B)
is to be reviewed under a de novo standard unless the
benefit plan gives the administrator or fiduciary discretionary authority to determine eligibility for benefits
or to construe the terms of the plan.” 489 U.S. at 115.
The first part of this pronouncement—“a denial of
benefits”—does not distinguish denials that rest on
contractual interpretation from those based on a
factual assessment of eligibility; any denial is “to be
reviewed under a de novo standard.” Id. The end of the
sentence does make that distinction in excepting from
de novo review denials when plans delegate “discretionary authority to determine eligibility for benefits.”4 Id. Why would a discretionary clause be needed
4

Judge Jolly’s dissenting opinion contends that “eligibility for
benefits” refers only to whether a person or type of claim is covered under the plan as a legal matter, not to the factual question
at issue here regarding whether the plaintiff’s claim should be
paid. Dissenting Op. at 3 n.1. For starters, this ignores that
Firestone says “a denial of benefits,” without qualification, is
reviewed de novo, and that the “eligibility for benefits” language
appears in the clause saying a grant of discretionary authority
can change that standard. 489 U.S. at 115. So the more limited
meaning of “eligibility” the dissent urges would only narrow the
effect of discretionary clauses in being able to change the default
de novo standard for “a denial of benefits.”
More fundamentally, the dissent’s understanding of “eligibility” is at odds with ERISA’s text. What the dissent describes as
the initial coverage determination is a question of whether a
claimant is a “participant” or “beneficiary” (Ariana is the latter

58a
for that type of decision to escape de novo review if
eligibility determinations were not subject to that
standard of review as a default matter? See Petrilli v.
Drechsel, 910 F.2d 1441, 1446 (7th Cir. 1990). And
while eligibility determinations may of course turn on
as a dependent of a participant). The statute defines a “participant” as “any employee or former employee of an employer . . .
who is or may become eligible to receive a benefit of any type from
an employee benefit plan.” 29 U.S.C. § 1002(7) (emphasis added).
So someone is covered under the plan even if they are not yet
eligible to receive a benefit, such as someone still working who
does not yet receive pension payments or someone covered under
a medical policy who has not yet been to a doctor. That someone
can be covered under the policy who is not yet “eligible” to receive
benefits shows that an “eligibility determination” is not the same
question as whether the person is covered. Our cases have long
reflected this understanding in using “eligibility determination”
to describe claims like this one that turn on factual entitlement
to benefits. See, e.g., Atkins v. Bert Bell/Pete Rozelle NFL Player
Ret. Plan, 694 F.3d 557, 569– 70 (5th Cir. 2012) (evaluating
whether plaintiff was “eligible” for disability benefits based on
multiple doctors’ reports); Ellis v. Liberty Life Assurance Co. of
Boston, 394 F.3d 262, 274 (5th Cir. 2004) (finding that plan
fiduciaries are not required to obtain proof of substantial change
in a plan recipient’s medical condition after the “initial determination of eligibility” if they receive additional medical information suggesting “a covered employee” is no longer “eligible for
benefits”); Meditrust Fin. Servs. Corp. v. Sterling Chems., Inc.,
168 F.3d 211, 213–14 (5th Cir. 1999) (labelling a factual dispute
about “medical necessity” as a question of “eligibility determination”). Finally, both the majority and dissenting opinions in the
Supreme Court’s Rush Prudential decision—a case discussed
more below—treated a factual medical necessity issue as an eligibility determination. Rush Prudential HMO, Inc. v. Moran, 536
U.S. 355, 386–87 (2002) (stating that an Illinois law requiring an
“independent reviewer’s de novo examination” of medical necessity “mirrors the general or default rule we have ourselves recognized” in Firestone); id. at 398 (Thomas, J., dissenting) (calling
the issue “purely an eligibility decision with respect to reimbursement”).

59a
plan interpretations, in differentiating between the
two types of denials Firestone seemed to view eligibility determinations as encompassing more than just
“constru[ing] the terms of the plan.” 489 U.S. at 115;
see Luby, 944 F.2d at 1183 (explaining that Firestone
“strongly suggests that the Court intended de novo
review to be mandatory where administrators were
not granted discretion, regardless of whether the
denials under review were based on plan interpretations” because otherwise “the Court could simply have
omitted the words ‘to determine eligibility for benefits’” (quoting Petrilli, 910 F.2d at 1446)); see also
Rowan, 119 F.3d at 436 (noting that benefits eligibility
determinations require administrators to “determine
both the facts underlying claims and whether those
facts entitle claimants to benefits under the terms of
the plan”).
As support for cabining de novo review only to plan
interpretation, our court cited a reference early in
Firestone to “actions challenging denials of benefits
based on plan [term] interpretations.” Pierre, 932 F.3d
at 1556 (quoting Firestone, 489 U.S. at 108). Immediately following this language, however, the Court said
it “express[ed] no view as to the appropriate standard
of review for actions under other remedial provisions
of ERISA.” Firestone, 489 U.S. at 108. This suggests
Firestone was articulating a general default standard
of review for Section 1132(a)(1)(B) actions—the provision that allows judicial review of benefit denials—
rather than making the fine distinction Pierre saw
between the review of factual determinations and
legal interpretations. See Luby, 944 F.2d at 1183.
In addition to parsing the language used in Firestone,
courts rejecting Pierre have noted the Supreme Court’s
observation that reading ERISA to provide a default

60a
standard of deference would undermine congressional
intent as it “would afford less protection to employees
and their beneficiaries than they enjoyed before
ERISA was enacted.” Firestone, 489 U.S. at 113–14.
That concern, especially as it is imbued with concerns
about the conflicts that administrators sometimes
have, would not seem to be greater for legal interpretation than for factual ones. Rowan, 119 F.3d at 436;
Ramsey, 77 F.3d at 204.
Other courts have also questioned the support
Pierre found in trust law for its factual/legal dichotomy. Pierre reasoned that an administrator’s factual
determinations are inherently discretionary, in contrast
to legal interpretations. It thus concluded that the
Restatement (Second) of Trusts supports giving deference to an ERISA plan administrator’s resolution of
factual disputes even when the plan does not grant
discretion. See Pierre, 932 F.2d at 1558 (citing Restatement (Second) of Trusts §§ 186(b), 187).5 In a thorough
examination of trust law, the Seventh Circuit disagreed
with Pierre’s assessment. It recognized that Firestone
likely flipped the presumption of trust law, which traditionally assumes deference unless the trust says otherwise.6 Ramsey, 77 F.3d at 203–05. But it found no
5

Section 186(b) provides that “the trustee can properly exercise such powers and only such powers as . . . are necessary or
appropriate to carry out the purposes of the trust and are not
forbidden by the terms of the trust.” Restatement (Second) of
Trusts § 186(b). Section 187, meanwhile, states that “[w]here discretion is conferred upon the trustee with respect to the exercise
of a power, its exercise is not subject to control by the court, except
to prevent an abuse by the trustee of his discretion.” Id. § 187.
6

A leading trust scholar left no doubt of what he thought
about Firestone’s reading of trust law. See John H. Langbein, The
Supreme Court Flunks Trusts, 1990 SUP. CT. REV. 207. Professor
Langbein explained that the Supreme Court reversed the

61a
trust law principles that distinguish between factual
and legal determinations, as Pierre does. Id. It concluded that the critical trust law distinction for the
scope of judicial review is between powers a trust document makes discretionary and those it makes mandatory. Id. at 203; see also Rush Prudential HMO, Inc. v.
Moran, 536 U.S. 355, 386 (2002) (noting that nothing
in ERISA “requires that these kinds of decisions be so
‘discretionary’ in the first place” and “whether they are
is simply a matter of plan design or the drafting of an
HMO contract”). To illustrate why factual determinations do not always fall on the discretionary side of
that divide, Ramsey points out that equity courts have
long applied nondeferential review to a “host of factually specific decisions including reviews of accounts
and investment decisions.” 77 F.3d at 203; see also
Rowan, 119 F.3d at 436 (noting that the Restatement
Pierre cited does not distinguish between factual and
legal determinations nor have “courts reviewing the
actions of trustees”).
Pierre’s analogy to the deference that reviewing
courts afford agency decisions and a district court’s
factfinding has also been criticized. One reason courts
have found the comparison inapt is that agencies and
trial judges are required to apply a developed set of
traditional trust-law presumption that assumed “[t]he trustee
ha[d] discretion unless the instrument or some particular
doctrine of trust law denies discretion.” Id. at 219. Despite his
sharp critique of the Supreme Court’s reading of trust law,
Professor Langbein believes the Court correctly adopted de novo
review in light of “the regulatory purposes of ERISA.” John H.
Langbein, Trust Law as Regulatory Law: The UNUM/Provident
Scandal and Judicial Review of Benefit Denials Under ERISA,
101 NW. U. L. REV. 1315, 1323 n.47 (2007). Of course, regardless
of whether Firestone was right or wrong in setting a default de
novo standard, we are bound to apply it.

62a
constitutional and statutory procedural protections.
Ramsey, 77 F.3d at 205. They are also impartial
whereas a plan administrator often has an incentive
to reach decisions “advantageous to its own interests.”
Rowan, 119 F.3d at 436 (quoting Perez v. Aetna Life
Ins. Co., 96 F.3d 813, 824 (6th Cir. 1996)); see also
Ramsey, 77 F.3d at 205 (noting that for both factual
and legal determinations made by agencies, the Administrative Procedure Act requires de novo review when
procedural safeguards are lacking); cf. Langbein,
Trust Law as Regulatory Law, at 1326 (explaining that
ERISA law differs from trust law in the “crucial
respect” that “[t]rust law presupposes that the trustee
who administers a trust will be disinterested, in the
sense of having no personal stake in the trust assets”).
Indeed, an entire body of case law has arisen to address
this concern about conflicts in ERISA law, as a conflict
can influence the degree of deference afforded a plan
even when it is granted discretionary authority. See
Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 117 (2008)
(requiring that district courts “take account” of conflicts in evaluating benefits denials, giving them more
weight when “circumstances suggest a higher likelihood that [the conflict] affected the benefits decision”).
The passage of time has cast doubt on another reason Pierre cited for giving deference: its prediction that
de novo review of factual determinations would result
in a vast number of trials that would burden courts
and reduce the funds available to pay legitimate
claims. 932 F.2d at 1559. But we no longer have to
guess about the impact of de novo review as eight
circuits have surpassed, or are nearing, two decades of
experience under that regime. There is no indication
that ERISA trials have depleted plan funds or overrun
courts in those circuits, which are still able to grant
summary judgment when the record warrants it. See,

63a
e.g., Wilkins v. Baptist Healthcare Sys., Inc., 150 F.3d
609, 616 (6th Cir. 1998) (affirming the district court’s
grant of summary judgment after the district court
conducted full de novo review of the administrator’s
disability benefits denial).
And the interest in efficiency is not exclusively on
the side of Pierre’s bifurcated system of review. Abuseof-discretion cases frequently result in litigation about
the existence and extent of a conflict of interest,7 which
is one of the rare areas in which a plaintiff can often
expand the administrative record with discovery. See
Crosby v. La. Health Serv. & Indem. Co., 647 F.3d 258,
263 (5th Cir. 2011) (explaining that our restrictive
position on adding to the administrative record in
ERISA cases does not prohibit a discovery request for
information regarding the existence and extent of a
conflict). Conditioning deference on whether a decision
is characterized as legal or factual makes ERISA
another victim of the “delusive simplicity of the distinction between questions of law and questions of fact
[that] has been found a will-of-the-wisp by travelers
approaching it from several directions.” Nathan
Isaacs, The Law and the Facts, 22 COLUM. L. REV. 1, 1
(1922); see also Walker, 180 F.3d at 1070 (recognizing
that “[a]s a practical matter, factual findings and plan
interpretations are often intertwined” and predicting
that if review were bifurcated at the district court,
there would be an “unnecessary cascade of litigation
over whether an administrator’s action was a plan
interpretation or a factual determination”).
There is thus no evidence that joining the eight
other circuits that have long applied de novo review to
factual determinations will create an overwhelming
7

See Glenn, 554 U.S. at 112–18.

64a
burden on district courts even if that concern can override the “ready access to the Federal courts” that ERISA
provides. 29 U.S.C. § 1001(b); see Firestone, 489 U.S.
at 115 (concluding that “the threat of increased litigation is not sufficient to outweigh the reasons for a de
novo standard that we have already explained”). Moreover, as will be discussed, we maintain our precedent
that largely limits judicial review to the record before
the administrator, which mitigates concerns about the
time and expense of litigation under a de novo standard.
In the years since all these circuits have disagreed
with Pierre, the Supreme Court has decided more
ERISA cases. Although none has directly confronted
our issue (and thus they have not served as a basis to
reconsider Pierre absent en banc review), two indicate
that there is no fact/law distinction for applying the
default de novo standard. Glenn addresses how to
assess conflicts of interest for plans that give administrators discretion. See 554 U.S. at 111–18. Humana
and the dissent emphasize its comment about not wanting to “overturn Firestone by adopting a rule that in
practice could bring about near universal review by
judges de novo—i.e., without deference—of the lion’s
share of ERISA plan claims denials.” Id. at 116. But
that statement discussed the prospect of de novo
review for plans that validly confer discretion on administrators. Id. at 115. That is not at issue here. Relevant
to our question about the default standard of review is
Glenn’s list of background ERISA principles in the
beginning of the opinion. Number “2” reaffirms
Firestone’s reading of trust law and the default standard of review: “Principles of trust law require courts to
review a denial of plan benefits ‘under a de novo
standard’ unless the plan provides to the contrary.” Id.
at 111 (quoting Firestone, 489 U.S. at 115). As in

65a
Firestone, the language broadly speaks of “a denial of
plan benefits” without differentiating based on the
nature of the denial. Id.
The preemption decision in Rush Prudential HMO,
Inc. v. Moran also supports the broader interpretation
of Firestone’s de novo review. 536 U.S. 355 (2002).
Rush held that an Illinois law requiring independent
medical review of certain benefit denials was not
preempted. Id. at 384–87. That state law required
independent evaluations for, among other things, the
medical necessity determinations also made in this
case. Id. at 383. The court rejected a preemption
defense because ERISA does not provide a statutory
standard of review. It then explained—in the context
of assessing a statute that applies to factbound medical necessity determinations—that when Firestone
filled in that statutory gap it “held that a general or
default rule of de novo review could be replaced by
deferential review if the ERISA plan itself provided
that the plan’s benefit determinations were matters of
high or unfettered discretion.” Id. at 385–86 (citing
Firestone, 489 U.S. at 115). Again, the reference is to
“benefit determinations” with no distinction for legal
or factual rulings. And the Court went on to say that
nothing in ERISA “requires that these kinds of
decisions be so ‘discretionary’ in the first place” and
“whether they are is simply a matter of plan design or
the drafting of an HMO contract.” Id. at 386. Rush
thus recognizes and analyzes the Firestone dichotomy
only on discretionary/nondiscretionary grounds, not
factual/legal ones. It also is yet another Supreme
Court rejection of the notion that ERISA administrators are inherently entitled to discretion (even if that
is what trust law provides).

66a
Considering these cases and without having to
endorse all the critiques other circuits have made of
Pierre, on balance we conclude that they warrant changing course and adopting the majority approach—an
approach the federal and Texas governments also support. We are also influenced by ERISA’s strong interest in uniformity. See Gobeille v. Liberty Mut. Ins. Co.,
136 S. Ct. 936, 943–44 (2016). Being on the lonely side
of the lopsided split means that ERISA denials involving nondiscretionary plans are reviewed with more
deference in Texas, Louisiana, and Mississippi than
they are in the rest of the country. It even means that
employees working for the same company with the
same health or retirement plan may suffer different
fates in court depending on the circuit where they
reside.8 Although sometimes there is virtue in being a
lonely voice in the wilderness, in this instance we conclude that one really is the loneliest number. See Three
Dog Night, One, on THREE DOG NIGHT (Dunhill
1969). We overrule Pierre and now hold that Firestone’s
default de novo standard applies when the denial is
based on a factual determination.
IV.
Changing the standard of review does not require us
to alter our precedent concerning the scope of the record
in ERISA cases. Although other circuits are unani8

The dissent argues that application of ERISA will not be uniform if state statutes can nullify discretionary clauses. Deference
would not be available in states with such laws; it would be
available in other states. But that would be a difference rooted in
the policy choices of the states—differences that are expected and
honored in our federal system—and not based on inconsistent
court interpretations of the same federal law. The dissent’s argument might be relevant to a conflict preemption analysis, but as
we have mentioned, we take no position on that question.

67a
mous on what the default standard of review is, they
take a variety of positions on whether de novo review
allows a party to expand the record beyond what was
before the plan administrator. Some do not limit
reviewing courts to that record. See Abatie v. Alta
Health & Life Ins. Co., 458 F.3d 955, 970 (9th Cir.
2006) (holding that limiting the judicial record to that
before the plan administrator is not appropriate in de
novo cases); Luby, 944 F.2d at 1184 (finding that limiting a district court to the record before a plan administrator “makes little sense” because it is contrary to the
ordinary concept of de novo review). Others take a
more restrictive view. See Donatelli v. Home Ins. Co.,
992 F.2d 763, 765 (8th Cir. 1993) (admonishing district
courts to avoid admitting additional evidence “absent
good cause to do so”); Quesinberry, 987 F.2d at 1025–
27 (permitting district courts to admit additional evidence only in “necessary” and “[e]xceptional circumstances”).
Our leading case in this area is Vega v. National Life
Insurance Services, Inc., 188 F.3d 287 (5th Cir. 1999)
(en banc), overruled on other grounds by Metro. Life
Ins. Co. v. Glenn, 554 U.S. 105 (2008). Under Vega, a
plan administrator must identify evidence in the
administrative record, giving claimants a chance to
contest whether that record is complete. Id. at 299.
Once the record is finalized, a district court must
remain within its bounds in conducting a review of the
administrator’s findings, even in the face of disputed
facts. Id. Vega permits departure from this rule only
in very limited circumstances. One exception allows a
district court to admit evidence to explain how the
administrator has interpreted the plan’s terms in previous instances. Id. (citing Wildbur v. ARCO Chem.
Co., 974 F.2d 631, 639 n.15 (5th Cir. 1992)). Another
allows a district court to admit evidence, including

68a
expert opinions, to assist in the understanding of medical terminology related to a benefits claim. Id. Those
situations are not actually expanding the evidence on
which the merits are evaluated but providing context
to help the court evaluate the administrative record.
Although some of Vega’s reasoning for limiting the
district court record to what was before the administrator depended on the abuse-of-discretion context,
other interests it recognized support the same rule for
de novo review. Among those is the interest in encouraging parties to resolve their dispute at the administrative stage. Id. at 300. A different standard of review
also does not undermine Vega’s observation that there
is not a “particularly high bar to a party’s seeking to
introduce evidence into the administrative record.” Id.
And generally limiting the evidence to what was in
front of the plan administrator when a dispute ends
up in court allows for speedier resolution. Id.
In short, overruling Pierre while adhering to Vega in
the context of de novo review serves the twin ERISA
goals of allowing for efficient yet meaningful judicial
review. See 29 U.S.C. § 1001(b) (stating that ERISA is
intended to provide “ready access to the Federal
courts”); Firestone, 489 U.S. at 113–14 (explaining
that a deferential default standard “would afford less
protection to employees and their beneficiaries than
they enjoyed before ERISA was enacted”). Vega will
continue to provide the guiding principles on the scope
of the record for future cases that apply de novo review
to fact-based benefit denials.
V.
This brings us back to Ariana’s claim. Following
Pierre, the district court concluded only that “Humana
did not abuse its discretion in finding that Ariana M.’s

69a
continued treatment at Avalon Hills was not medically
necessary after June 4, 2013.” Ariana M., 163 F. Supp.
3d at 442. That determination is now subject to de
novo review. A different standard of review will sometimes lead to a different outcome, but there will also
be many cases in which the result would be the same
with deference or without it. We give no opinion on
which is the case here, but leave application of the de
novo standard to the able district court in the first
instance.9
* * *
The judgment of the district court is VACATED and
REMANDED for further proceedings consistent with
this opinion.

9

In light of this decision overruling our longstanding
precedent and remanding for application of a de novo standard,
the district court may consider whether there is good cause to
allow Humana to amend its answer and assert a preemption
defense if it so desires.

70a
E. GRADY JOLLY, Circuit Judge, dissenting, joined
by JONES, SMITH, CLEMENT, and ELROD, Circuit
Judges. OWEN, Circuit Judge, joins only Part I.
The material question in this en banc appeal is
whether Firestone Tire & Rubber Co. v. Bruch, 489
U.S. 101 (1989), requires de novo review of an
administrator’s entitlement determinations; that is to
say, whether an administrator’s findings of fact underlying the merit of a participant’s claim are entitled to
any deference by the federal courts. Read holistically—that is, by considering the context in which
Firestone came before the Supreme Court; the Court’s
opinion as a whole, instead of snippet by snippet; and
the Supreme Court’s concerns that it expressed during
Firestone’s oral argument—Firestone speaks to de
novo review in relation to eligibility determinations
and the construction of plan terms—both inherently
legal questions—not to the daily grind of winnowing
the merit of individual factual claims.
Moreover, the majority opinion reflects an impractical view of the administrative process. It is inconsistent with the law of trusts and misreads subsequent
cases decided by the United States Supreme Court. I
respectfully dissent.
I.
A.
A holistic reading of Firestone makes clear that its
de novo standard of review applies only to legal questions.
The first step of understanding Firestone requires
examining the facts and law that were asserted in the
courts below; that is, determining what sort of case
was actually before the Supreme Court. Firestone

71a
involved the construction of plan terms under three
different ERISA benefits plans maintained by
Firestone. 489 U.S. at 105. Firestone was the administrator and the defendant. Id. Firestone had construed the terms of its ERISA plans to deny severance
benefits to “former employees” who worked at Firestone plants that had been sold to another company.
Id. at 105–07. The former Firestone employees sued,
disputing Firestone’s interpretation of the plan as to
whether they were eligible for benefits under the
terms of the plan. Id. at 106. The district court granted
Firestone summary judgment, holding that Firestone’s decision to deny benefits was not arbitrary and
capricious. Id. at 106–07. The court of appeals
reversed on grounds that Firestone, as administrator
of the plan, had a conflict of interest; as such, de
novo—not “arbitrary and capricious”—was the proper
standard of review for Firestone’s interpretation of the
plan. Id. at 107. Thus, when the case reached the
Supreme Court, the appeal was twofold: First,
whether Firestone’s interpretation of the plan was
subject to an arbitrary-and-capricious standard of
review or to a de novo review and, second, whether a
proper interpretation of the plan’s terms covered these
“former employees.” The Supreme Court did not
address whether the courts should defer to administrators’ factual decisions because the court of appeals
had reserved comment on that question. See Bruch v.
Firestone Tire & Rubber Co., 828 F.2d 134, 144 n.9 (3d
Cir. 1987) (“It should be noted that we also do not deal
here with a determination of fact by a plan administrator. We leave for another day the definition of the
context, if any, in which courts should defer to such a
determination.”), cited in Pierre v. Conn. Gen. Life Ins.
Co./Life Ins. Co. of N. Am., 932 F.2d 1552, 1561–62
(5th Cir. 1991). Thus, it should be clear that the

72a
“denial of benefits” before the Supreme Court was the
denial of benefits to a class of participants based on
Firestone’s interpretation of the plan as to that class,
not a denial of the underlying merit of a participant’s
claim.
The second step of understanding the Firestone
opinion requires the opinion be read as a whole and in
context. The Supreme Court sets the tone of its analysis when it limits its holding to disputes based on
interpretation of the plan; indeed, as noted above,
these legal questions were the only issues before the
Court. The Firestone Court said, “The discussion
which follows is limited to the appropriate standard of
review in § 1132(a)(1)(B) actions challenging denials of
benefits based on plan interpretations. We express no
view as to the appropriate standard of review for
actions under other remedial provisions of ERISA.”
489 U.S. at 108 (emphasis added). The Court then
said, “ERISA does not set out the appropriate standard of review for actions under § 1132(a)(1)(B) challenging benefit eligibility determinations,” id. at 109
(emphasis added), signaling again that it was addressing an inherently legal question. The Court then rejected the arbitrary-and-capricious standard of review
(applied by the district court), saying “the wholesale
importation of the arbitrary and capricious standard
into ERISA [was] unwarranted.” Id. In doing so, the
Court plainly did not suggest that a uniform standard
of review applied to all decisions of the administrator.
Further into its opinion, the Supreme Court clarified
what it meant by “plan interpretations,” saying,
As this case aptly demonstrates, the validity
of a claim to benefits under an ERISA plan is
likely to turn on the interpretation of terms in
the plan at issue. Consistent with established

73a
principles of trust law, we hold that a denial
of benefits challenged under § 1132(a)(1)(B) is
to be reviewed under a de novo standard
unless the benefit plan gives the administrator or fiduciary discretionary authority to
determine eligibility for benefits or to construe
the terms of the plan.
Id. at 115 (emphasis added).1 Plan-term construction
and eligibility determinations are both legal concepts
1

The majority mistakenly relies on this portion of the opinion
to say that Firestone applies de novo review to both factual and
legal assessments by plan administrators. See Maj. Op. at 8, 14.
But the majority makes a mistake by conflating eligibility, i.e.,
coverage determinations, with entitlement determinations, i.e.,
claim merits, as do our sister circuits. See Maj. Op. at 8 (“Why
would a discretionary clause be needed . . . to escape de novo
review if eligibility determinations were not subject to that
standard of review as a default matter?” (emphasis added));
Kinstler v. First Reliance Standard Life Ins. Co., 181 F.3d 243,
250 (2d Cir. 1999) (stating that the court of appeals must rely on
the Supreme Court’s use of “eligibility for benefits,” which is a
distinct issue from construing the plan’s terms); Luby v.
Teamsters Health, Welfare, & Pension Tr. Funds, 944 F.2d 1176,
1183 (3d Cir. 1991) (stating that “the explicit reference to
‘eligibility’” means that the Firestone Court meant to cover
entitlement decisions). This view is misguided. As evidenced by
its analogy of ERISA to contract law and by its statement that
ERISA was meant “to protect contractually defined benefits,”
Firestone, 489 U.S. at 113 (quoting Mass. Mut. Life Ins. Co. v.
Russell, 473 U.S. 134, 148 (1985)), the Supreme Court’s discussion of eligibility concerns whether the plan covered the person
or claim at issue, not whether the covered person’s factual context
entitled her to benefits under the plan or whether the covered
claim had merit.
We may illustrate this distinction by considering the case at
hand. Here, it is clear that Ariana M is an eligible participant and
that her claim is eligible under the terms of the group health plan
covering mental illness. If the administrator argued otherwise,
de novo review would be used, like in any other contract dispute,

74a
that are part of “plan interpretation.” Neither concept
addresses whether, under the undisputed provisions
of the plan, a specific person’s individual claim has
merit.
The third step of understanding the holding of the
Firestone Court involves the transcript of the oral
argument before the Supreme Court. The oral argument confirms that the subject before the Court was
plan interpretation. There, several Justices stated the
issue in terms of whether the Court must give deference to ERISA plan administrators for their construction of plan terms. See Oral Argument at 3:05, Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101 (1989)
(No. 87-1054), https://www.oyez.org/cases/1988/87-1054
(Justice White saying to Firestone’s lawyer that “it’s a
contractual construction problem. Or it’s a construction of a written instrument”); id. at 4:35 (Justice
Scalia saying to Firestone’s lawyer that “it’s not my
impression of common law trust law that if the trustee
makes a questionable interpretation of the trust agreement, I wouldn’t be able as one of the beneficiaries to
go into court and say that interpretation is wrong. And
the court would look at the trust agreement and say
it’s up to us to interpret this trust agreement”). Further, a Justice expressed that the case might be differto determine whether Ariana’s claim is contractually barred. But
that is not the appeal here. Instead, Ariana asks us to reevaluate
the facts upon which the administrator denied the merits of her
claim—that is to say, the factual claim of whether her treatment
was medically necessary; such a question requires, not legal
analysis, but credibility determinations, particularly among the
parties’ respective experts. The majority would grant the federal
courts the authority to relitigate in federal court that credibility
determination, robbing the administrator of all deference to its
decision. Such federal court authority does not have its source
anywhere in Firestone.

75a
ent if resolving a question involving a factual judgment, by saying:
My, my recollection of trust law . . . and it
obviously isn’t, isn’t a terribly recent one . . .
is that if you’re talking about the . . . the many
things that the trustee is given discretion to
do in a trust instrument, decide on the medical needs or educational needs of various beneficiaries and allocate discretionary funds
among them, the courts give great deference
to a trustee.
But is . . . in deciding who is a beneficiary, I,
I was not aware that trust law says the trustee has great discretion there.
Id. at 5:23. And the plaintiffs’ lawyer emphasized that
this case involved only “a pure question of plan interpretation” and involved a different “category of
question” from a fact question. Id. at 32:49, 36:33.2
Nothing in the argument signals that the Court considered that its ruling, i.e., applying de novo review to
who is a beneficiary under the plan, would also apply
to fact questions.
Therefore, based on the procedural history, the
proper context, the oral argument, and the specific
language of the opinion, it should be clear to all but
the obstinate that the Firestone Court did not intend

2

The plaintiffs also conceded in their brief that they were “not
challenging the exercise of any authority which is inherently
discretionary in nature.” Brief for the Respondents, Firestone
Tire & Rubber Co. v. Bruch, 489 U.S. 101 (1989) (No. 87-1054), at
24. And they agreed with Firestone that courts should defer to
those who have some amount of decision-making authority. Id.

76a
that de novo review would apply to factual questions
that went before plan administrators.
B.
The majority’s argument that Firestone mandates
de novo review for factual issues is further undermined by Firestone’s clarity that principles of trust law
apply to administrator actions. See Firestone, 489 U.S.
at 111 (“In determining the appropriate standard of
review for actions under § 1132(a)(1)(B), we are guided
by principles of trust law.”). The majority seems to
disregard this directive. But, inasmuch as Firestone
clearly does not mandate a de novo standard of review
for factual disputes, trust law controls, as instructed
by Firestone.
Under trust law, trustees have measured discretion
in determinations that fulfill the underlying purposes
of the trust; yet, the majority, with its de novo review,
grants trustees no deference in administering the
quotidian claims arising under the trust document.
The Second Restatement provides that trust administrators have two types of powers: (1) those conferred
upon the administrator “in specific words by the terms
of the trust” and (2) those “necessary or appropriate to
carry out the purposes of the trust and are not forbidden by the terms of the trust.” Restatement (Second)
of Trusts § 186 (Am. Law Inst. 1959). The Third
Restatement explains further, “When a trustee has
discretion with respect to the exercise of a power, its
exercise is subject to supervision by a court only to
prevent abuse of discretion.” Restatement (Third) of
Trusts § 87 (Am. Law Inst. 2007). The general rule is
that trustees have discretion with respect to the exercise of trusteeship powers, except when directed differently by the terms of the trust or when compelled by
the trustee’s fiduciary duties. Id. cmt. a.

77a
And turning to Scott and Ascher on Trusts, we find,
“A trustee’s powers ordinarily are discretionary, unless
the terms of the trust or applicable law makes them
mandatory.” 3 A. Scott & M. Ascher, Scott and Ascher
on Trusts § 18.2, p. 1338 (5th ed. 2007). Trustees have
“considerable discretion in determining what is necessary for any given beneficiary’s support,” and courts
ensure only that trustees do not exceed the limits of
their discretion. Id. § 18.2.6, at 1362. Indeed, “[t]he
court will not substitute its own judgment for that of
the trustee” because “[t]he mere fact that the court
would have exercised the power differently is not a
sufficient reason for the court to interfere.” Id. § 18.2,
at 1340. Instead, the court may check the trustee’s
powers by examining whether the trustee (1) abused
its discretion, (2) acted dishonestly or in bad faith, and
(3) exercised its reasonable judgment when exercising
its powers. Id. § 18.2.2–18.2.6, at 1350–67.
As we have earlier noted, the Firestone Court
expressly said that its decision was guided by principles of trust law. Here, whether a covered beneficiary
has presented facts to support the benefits she individually claims is a core discretionary power that is
“necessary or appropriate” to the routine administration of plans. As we said in Pierre, “[i]t is indisputable
that an ERISA trustee, by its very nature, is granted
some inherent discretion, i.e., ‘authority to control and
manage the operation and administration of the plan.’”
932 F.2d at 1558 (quoting 29 U.S.C. § 1102(a)(1)).3 The
3

The majority sees it otherwise, adopting the Seventh Circuit’s view that Firestone “reversed the presumption” for all planadministrator decisions unless a plan term gives the administrator discretion. See Maj. Op. at 10; Ramsey v. Hercules Inc., 77 F.3d
199, 204 (7th Cir. 1996). Under that view, Firestone essentially
eliminated all discretionary administrable powers—defined as
those “necessary or appropriate to carry out the purposes of the

78a
majority would not allow a smidgeon of deference to
the administrator, a position that is contrary to the
guiding advice of Firestone.
II.
We leave Firestone proper for a moment and turn
our attention to recent Supreme Court cases also dealing with the administration of ERISA plans. In particular, two recent Supreme Court opinions strongly support that the Supreme Court would conclude that
Pierre correctly states the law: Metropolitan Life Insurance Company v. Glenn, 554 U.S. 105 (2008), and
Conkright v. Frommert, 559 U.S. 506 (2010).4 Conkright—not cited by the majority—reaffirmed that in
§ 1132(a)(1)(B) cases, we should look to the principles
of trust law. See 559 U.S. at 512 (“In determining the
proper standard of review when a plan administrator
operates under a conflict of interest [in Glenn], we
again looked to trust law, the terms of the plan at
issue, and the principles of ERISA—plus, of course,
our precedent in Firestone.”).
The Supreme Court’s opinion in Glenn supports
Pierre’s understanding of Firestone. In Glenn, the
Court said,

trust and are not forbidden by the terms of the trust,” Restatement (Second) of Trusts § 186(b)—and permitted trustees discretionary powers only when conferred. See id. § 186(a). But this
view is mistaken and departs from Firestone’s command to use
traditional trust law principles when examining § 1132(a)(1)(B).
See Firestone, 489 U.S. at 110.
4

And when faced with this precise question—whether Firestone
mandates de novo review for factual entitlement decisions—the
Supreme Court has denied certiorari twice in the past decade. See
Truitt v. UNUM Life Ins. Co. of Am., 134 S. Ct. 1761 (2014);
Dutka v. AIG Life Ins. Co., 559 U.S. 970 (2010).

79a
We do not believe that Firestone’s statement
implies a change in the standard of review,
say, from deferential to de novo review. Trust
law continues to apply a deferential standard
of review to the discretionary decision making
of a conflicted trustee, while at the same time
requiring the reviewing judge to take account
of the conflict when determining whether the
trustee, substantively or procedurally, has
abused his discretion. We see no reason to
forsake Firestone’s reliance upon trust law in
this respect.
554 U.S. at 115–16 (internal citations omitted) (citing
Firestone, 489 U.S. at 111–15; Restatement § 187,
cmts. d–j; Scott and Ascher on Trusts § 18.2, at 1342–
44). The Court then emphasized that it would not
“overturn Firestone by adopting a rule that in practice
could bring about near universal review by judges de
novo—i.e., without deference—of the lion’s share of
ERISA plan claims denials,” because it believed that
Congress would have said more about such a standard
of review if it wanted the courts to have wholesale
review. Id. at 116. The Glenn Court quoted Justice
Scalia’s pithy and colorful admonition that “Congress
does not ‘hide elephants in mouseholes,’” id. (quoting
Whitman v. Am. Trucking Ass’ns., 531 U.S. 457, 468
(2001)), i.e., if Congress had intended a radical departure from traditional principles of trust law, it most certainly would have not hidden it in statutory interstices.
Thus, the majority’s view brushes aside the admonition of Glenn that Firestone cannot be read to endorse
“near universal review” of all plan denials brought to
our district courts. Other circuits may have interpreted Firestone in their own way fifteen to twenty

80a
years ago, but, today, it should be understood that, in
the light of more recent Supreme Court cases, Firestone
did not change ERISA’s application of trust law.
These Supreme Court cases (each decided after the
decisions of the other circuit courts to the contrary)
further undermine the rationale offered by the majority to strip the administrator of discretionary respect.
Other circuits, and now the majority, have acknowledged that federal courts are required generally to pay
deference to administrative decisions. But, the majority argument goes, plan administrators do not have
the expertise of administrative agencies, and ERISA
administrators are not unbiased factfinders. See Maj.
Op. at 11; Walker v. Am. Home Shield Long Term
Disability Plan, 180 F.3d 1065, 1070 (9th Cir. 1999);
Ramsey, 77 F.3d at 205; Luby, 944 F.2d at 1183–84 &
n.7. It follows, says the majority, that the usual deference to administrators is not warranted for ERISA
administration. See Maj. Op. at 11.
Never mind that this concern, too, was addressed by
Glenn. The Supreme Court favorably compared ERISA’s
review of benefits decisions to review of administrative
agencies’ decisions by observing,
This kind of review is no stranger to the judicial system. Not only trust law, but also administrative law, can ask judges to determine lawfulness by taking account of several different,
often case-specific, factors, reaching a result
by weighing all together.
Glenn, 554 U.S. at 117. For this statement, the Court
cited two administrative law decisions—Citizens to
Preserve Overton Park, Inc. v. Volpe, 401 U.S. 402
(1971) and Universal Camera Corp. v. NLRB, 340 U.S.
474 (1951)—in which the Supreme Court reviewed a

81a
governmental decision and an agency’s factfindings for
abuse of discretion.5 And Glenn itself dealt with the
biggest concern arising from plan administrators—
conflicts of interest—by instructing that whenever a
district court reviews a plan administrator for abuse
of discretion, that court must consider the extent of
any conflict. Glenn, 554 U.S. at 112, 117.6 Conkright,
although discussing a plan with a clause that provided
the administrator with discretionary review, similarly
endorsed providing deference to ERISA plan administrators because the practice “promotes efficiency by
encouraging resolution of benefits disputes through
internal administrative proceedings rather than costly
litigation.” 559 U.S. at 517.
III.
The majority’s moving force for overruling Pierre is
that we should join the other circuits because ERISA
must be uniformly applied among the federal circuit
5

Our precedent, too, has said that review of ERISA benefits
determinations is like review of administrative agency decisions.
See Crosby v. La. Health Serv. & Indem. Co., 647 F.3d 258, 264
(5th Cir. 2011) (“[O]ur review of an ERISA benefits determination
is essentially analogous to a review of an administrative agency
decision . . . .”). And with good reason: “‘[F]ull review of the motivations behind every plan administrator’s discretionary decisions’ would ‘move toward a costly system in which Article III
courts conduct wholesale reevaluations of ERISA claims’ and
would seriously undermine ERISA’s goal of resolving claims
efficiently and inexpensively.” Id. (quoting Semien v. Life Ins. Co.
of N. Am., 436 F.3d 805, 814–15 (7th Cir. 2006)).
6

The majority seems to lean heavily on conflicts of interest to
justify de novo review for all decisions of administrators. See Maj.
Op. at 9, 11. But conflicts of interest already must be considered
as a factor in every § 1132(a)(1)(B) case, whether the standard of
review is de novo or abuse of discretion, because of the requirements set out in Glenn. See 554 U.S. at 117.

82a
and district courts. Indeed, the Supreme Court in
Conkright allowed: “ERISA ‘induc[es] employers to
offer benefits by assuring a predictable set of liabilities, under uniform standards of primary conduct and
a uniform regime of ultimate remedial orders and
awards when a violation has occurred.’” Id. (alteration
in original) (quoting Rush Prudential HMO, Inc. v.
Moran, 536 U.S. 355, 379 (2002)).
But the other circuits, which declined to follow
Pierre, and which the majority would have us reverse
our course and follow, are outdated by Glenn and
Conkright.7 And still further, the uniformity that
might result from reversing Pierre is illusory. First,
different circuits have different standards for reviewing evidence. Some circuits pay little or no attention to
the administrative record and virtually allow trial de
novo by opening discovery in district court. See
Mongeluzo v. Baxter Travenol Long Term Disability
Ben. Plan, 46 F.3d 938, 943 (9th Cir. 1995) (“We agree
with the Third, Fourth, Seventh, Eighth, and Eleventh
Circuits that new evidence may be considered under
certain circumstances to enable the full exercise of
informed and independent judgment.”). Other circuits,
like ours, are limited to the record that the administrator considered. See Maj. Op. at 17 (limiting district
court proceedings to the administrative record);8 Perry
7

The last circuit squarely to decide this issue did so 15 years
ago in 2003. See Shaw v. Conn. Gen. Life Ins. Co., 353 F.3d 1276,
1285–86 (11th Cir. 2003); Riedl v. Gen. Am. Life Ins. Co., 248 F.3d
753, 756 (8th Cir. 2001); Kinstler, 181 F.3d at 251; Walker, 180
F.3d at 1069; Rowan v. Unum Life Ins. Co. of Am., 119 F.3d 433,
435 (6th Cir. 1997); Ramsey, 77 F.3d at 204; Luby, 944 F.2d at
1183–84.
8

I fully agree with the majority’s decision to limit judicial
review to the administrative record as we decided in Vega v.
National Life Insurance Services, Inc., 188 F.3d 287 (5th Cir.

83a
v. Simplicity Eng., a Div. of Lukens Gen. Indus., Inc.,
900 F.2d 963, 966 (6th Cir. 1990) (preventing district
courts from considering evidence outside the record).
Second, some states have anti-discretionary-clause
statutes—like Texas Insurance Code § 1701.062(a)
that the defendants decided not to challenge here—
that do not allow plans to grant discretionary authority
to plan administrators, even though the Supreme
Court has relied upon discretionary clauses and
approved of them multiple times. See Conkright, 559
U.S. at 517 (stating that deference to plan administrators promotes efficiency, predictability, and uniformity);
Heimeshoff v. Hartford Life & Acc. Ins. Co., 134 S. Ct.
604, 614 (2013) (approving the use of discretionary
clauses because “participants are not likely to value
judicial review of plan determinations over internal
review”). Thus, a claimant—in a case involving an
ERISA plan with a discretionary clause—will have a
different standard of review depending on whether she
brings an action in a state in which she resides or a
state in which a breach occurred. See 29 U.S.C.
§ 1132(e)(2) (allowing ERISA suits to proceed in any
federal district court “where the plan is administered,
where the breach took place, or where a defendant
resides or may be found”). For example, an ERISA
plan enforced in Louisiana, which does not have a
state statute prohibiting discretionary clauses, will
have a different standard of review than if it were
enforced in Texas, which prohibits discretionary
clauses.

1999) (en banc), overruled on other grounds by Metro. Life Ins. Co.
v. Glenn, 554 U.S. 105 (2008).

84a
If uniformity were the Holy Grail to be pursued
among federal courts and if the instant opinion accomplished uniformity, the majority opinion would be
more persuasive. But, although I agree that ERISA
uniformity is a worthy consideration, the majority’s
opinion hardly establishes greater procedural (or substantive) uniformity than if we continued to apply
Pierre. Instead, we are left with a strained argument
for uniformity and the illusion that reversing Pierre
somehow accomplishes uniformity throughout the
federal courts of the country.
IV.
To sum up: the misguided majority upsets twentysix years of precedent in overruling Pierre, and for no
compelling reason. In doing so, it ignores the practicality of administrative and trust law, misreads Firestone,
and is swept up by outdated cases of other circuits.
Respectfully, I dissent.9
9

The majority, in reference to the dissent, argues that the
dissent is mistaken in its understanding of what Firestone
referred to as “eligibility for benefits.” See Maj. Op. at 8–9 n.4.
The majority is, of course, quite correct that our precedent has
been inconsistent by using “eligibility” in some circumstances,
while using “entitlement” in other circumstances, to mean determinations of factual questions. Compare Ellis v. Liberty Life
Assurance Co. of Boston, 394 F.3d 262, 266 (5th Cir. 2004)
(describing that power as discretion to determine “eligibility”),
with Perdue v. Burger King Corp., 7 F.3d 1251, 1254 (5th Cir.
1993) (stating that the employee’s claim failed because he did not
“allege entitlement to benefits within the eligibility provision”);
Graham v. Metro. Life Ins. Co., 349 F. App’x 957, 961 & n.5 (5th
Cir. 2009) (stating that an employee failed to prove her entitlement when examining a plan where the employer had “discretionary authority . . . to determine eligibility for and entitlement to
Plan benefits”). The relevant question, however, is not the confused use of “eligibility,” but instead what the Firestone Court

85a

meant by eligibility determinations. Given the context in which
the case was decided and the language of the opinion, eligibility
means qualification to claim entitlement to benefits under the
plan. One may be eligible for an entitlement while not being factually entitled to the benefit. In short, eligibility precedes entitlement. One may be eligible to assert a statutory right, but only
entitled to the benefits of the right upon a factual showing.
Moreover, ERISA’s text gainsays the majority’s argument that
“eligibility” and “entitlement” are fungible terms in the context of
ERISA. Specifically, § 1002(7) provides that a “participant” is one
“who is or may become eligible to receive a benefit.” But § 1002(7)
addresses matters of coverage; that is, eligibility. On the other
hand, 29 U.S.C. § 1002(8), under which Ariana M qualifies as a
beneficiary, speaks in terms of entitlement to benefits. Specifically, § 1002(8) speaks of a “beneficiary” as one “who is or may
become entitled to a benefit thereunder.” Indeed, these juxtaposed provisions demonstrate that eligibility and entitlement are
distinct terms: § 1002(7) defines a “participant” as one “who is or
may become eligible” while § 1002(8) defines a “beneficiary” as
one “who is or may become entitled.”
Finally, the majority criticizes the dissent for not addressing
Rush Prudential HMO, Inc. v. Moran. But Rush Prudential is an
inapt case for deciding the specific issue of this case. First, it
predates Glenn and Conkright, both of which reinforce the dissent’s understanding of Firestone. Second, Rush Prudential is a
preemption case that decided whether a state can “prohibit[]
designing an insurance contract so as to accord unfettered discretion to the insurer to interpret the contract’s terms.” 536 U.S. at
386. It held that this type of statute was allowed because, like an
insurance contract, the focus was on a legal question—whether a
state statute could modify a plan’s form of legal analysis and not
whether the specific person was entitled to money for medical
treatment. Third, Rush Prudential, as a preemption decision, had
nothing to do with enforcement of § 1132(a)(1)(B), the statute at
issue here. Consequently, nothing in Rush Prudential’s holding
depended on the language cited by the majority to support its
position today. To the point, the case serves neither the majority
nor the dissent.

86a
PRISCILLA R. OWEN, Circuit Judge, dissenting:
The Supreme Court has not decided whether a de
novo or an abuse of discretion standard of review
applies when an ERISA plan administrator considers
conflicting expert opinions and denies coverage for the
continued hospitalization of an ERISA welfare-plan
beneficiary. However, if the principles of trust law are
applied, as the Supreme Court has repeatedly said
that they should be, then an abuse of discretion standard is applicable in the present case. I would therefore
affirm the judgment of the district court.
Ariana M. brought the present action under 29
U.S.C. § 1132(a)(1)(B).1 The Supreme Court explained
in Firestone Tire and Rubber Co. v. Bruch2 that “[i]n
determining the appropriate standard of review for
actions under § 1132(a)(1)(B), we are guided by principles of trust law.”3 The only issue before the Supreme
Court in Firestone was the standard of review that
should apply to a plan administrator’s interpretation
of the plan.4 The Court held that a de novo standard of
1

29 U.S.C. § 1132(a)(1)(B) provides:

(a) Persons empowered to bring a civil action
A civil action may be brought-(1) by a participant or beneficiary–
....
(B) to recover benefits due to him under the terms of his
plan, to enforce his rights under the terms of the plan, or to clarify his rights to future benefits under the terms of the plan . . . .
2

489 U.S. 101 (1989).

3

Id. at 111 (citing Cent. States, Se. and Sw. Areas Pension
Fund v. Cent. Transp., Inc., 472 U.S. 559, 570 (1985)).
4

Id. at 108 (“The discussion which follows is limited to the
appropriate standard of review in § 1132(a)(1)(B) actions challenging denials of benefits based on plan interpretations. We

87a
review applied, explaining, in part, that “[t]he trust
law de novo standard of review is consistent with the
judicial interpretation of employee benefit plans prior
to the enactment of ERISA.”5 The Court reasoned that
“[a]ctions challenging an employer’s denial of benefits
before the enactment of ERISA were governed by
principles of contract law,” and that “[i]f the plan did
not give the employer or administrator discretionary
or final authority to construe uncertain terms, the
court reviewed the employee’s claim as it would have
any other contract claim—by looking to the terms of
the plan and other manifestations of the parties’
intent.”6 But the Court looked primarily to the law
governing trusts in reaching its decision.
In Firestone, the Court considered the Restatement
(Second) of Trusts (1959) (hereinafter “the Restatement”), which was the current version of the Restatement of Trusts at the time of ERISA’s enactment.7 The
actual holding in Firestone was entirely consistent
with Section 201, comment b, of the Restatement,
which provides that “[t]he extent [of a trustee’s] duties
and powers is determined by the trust instrument and
the rules of law which are applicable, and not by his
own interpretation of the instrument or his own belief

express no view as to the appropriate standard of review for
actions under other remedial provisions of ERISA.”).
5

Id. at 112.

6

Id. at 112-113 (citing cases).

7

Id. at 111, 112, 113; see also Metro. Life Ins. Co. v. Glenn, 554
U.S. 105, 128 (2008) (SCALIA, J., dissenting) (noting that the
Firestone decision “[c]it[ed] the Restatement of Trusts current at
the time of ERISA’s enactment”); Employment Retirement
Income Security Act of 1974, Pub. L. 93-406, Title I, § 502, 88
Stat. 829 (codified as amended at 29 U.S.C. §§ 1001-1461).

88a
as to the rules of law.” Accordingly, under the Restatement, unless a trust instrument provides to the contrary, a trustee’s interpretation of the terms of the
trust would be subject to de novo review by a court.
The Supreme Court’s holding in Firestone that an
abuse of discretion standard should be applied to an
ERISA administrator’s interpretation of the plan only
when the plan grants discretion to the administrator
to interpret the plan is in line with Section 201,
comment b.9
8

However, the Restatement makes clear in Section
187, comment a, that “except to the extent to which its
exercise is required by the terms of the trust or by the
principles of law applicable to the duties of trustees,”
a trustee’s “exercise of power is discretionary.”10 Other
8

Restatement (Second) of Trusts § 201 cmt. b (1959), which
provides:
b. Mistake of law as to existence of duties and powers. A
trustee commits a breach of trust not only where he violates a
duty in bad faith, or intentionally although in good faith, or negligently, but also where he violates a duty because of a mistake as
to the extent of his duties and powers. This is true not only where
his mistake is in regard to a rule of law, whether a statutory or
common-law rule, but also where he interprets the trust instrument as authorizing him to do acts which the court determines
he is not authorized by the instrument to do. In such a case, he is
not protected from liability merely because he acts in good faith,
nor is he protected merely because he relies upon the advice of
counsel. Compare § 297, Comment j. If he is in doubt as to the
interpretation of the instrument, he can protect himself by obtaining instructions from the court. The extent of his duties and
powers is determined by the trust instrument and the rules of law
which are applicable, and not by his own interpretation of the
instrument or his own belief as to the rules of law.
9
10

See Metro. Life Ins. Co., 554 U.S. at 111.
Restatement (Second) of Trusts § 187 cmt. c (1959).

89a
comments in Section 187 of the Restatement support
the conclusion that a trustee’s decision as to whether
a beneficiary’s condition entitles her to benefits from
the trust is within the trustee’s discretion. Comment c
provides that a trustee has discretion “to determine
the amount necessary for a beneficiary’s support.”11
The Restatement makes clear that when a power is
committed to the discretion of a trustee, his actions or
inactions are to be judged by an abuse of discretion
standard. Comment d sets forth the “[f]actors in
determining whether there is an abuse of discretion.”12
Comment e explains when there is “[n]o abuse of
discretion.”13
11

Id. at cmt. c, which provides in its entirety that:

c. Kinds of discretionary powers. The rule stated in this Section is applicable both to the powers of managing the trust estate
conferred upon the trustee either in specific words or otherwise,
and also to such powers as may be conferred upon him to determine the disposition of the beneficial interest. Thus, it is applicable not only to powers to lease, sell or mortgage the trust property
or to invest trust funds, but also to powers to allocate the beneficial interest among various beneficiaries, to determine the amount
necessary for a beneficiary's support, or to terminate the trust.
12

Id. at cmt. d:

d. Factors in determining whether there is an abuse of discretion. In determining the question whether the trustee is guilty
of an abuse of discretion in exercising or failing to exercise a
power, the following circumstances may be relevant: (1) the
extent of the discretion conferred upon the trustee by the terms
of the trust; (2) the purposes of the trust; (3) the nature of the
power; (4) the existence or non-existence, the definiteness or indefiniteness, of an external standard by which the reasonableness of
the trustee's conduct can be judged; (5) the motives of the trustee
in exercising or refraining from exercising the power; (6) the
existence or nonexistence of an interest in the trustee conflicting
with that of the beneficiaries.
13

Id. at cmt. e:

90a
Ariana M.’s claim that she was entitled to payment
for continued hospitalization as a beneficiary under an
ERISA welfare benefits plan necessarily involves the
exercise of judgment by the ERISA plan administrator
in analyzing conflicting expert opinions. This is the
type of decision that would be committed to the discretion of a trustee under trust law, as expressed in the
Restatement.
Though the Supreme Court has spoken in broad
terms when it has said that a de novo standard of
review applies to a court’s review of the “denial of
[ERISA] plan benefits”14 unless the plan grants the
plan administrator “discretionary authority to detere. No abuse of discretion. If discretion is conferred upon the
trustee in the exercise of a power, the court will not interfere
unless the trustee in exercising or failing to exercise the power
acts dishonestly, or with an improper even though not a dishonest
motive, or fails to use his judgment, or acts beyond the bounds of
a reasonable judgment. The mere fact that if the discretion had
been conferred upon the court, the court would have exercised the
power differently, is not a sufficient reason for interfering with
the exercise of the power by the trustee. Thus, if the trustee is
empowered to apply so much of the trust property as he may
deem necessary for the support of the beneficiary, the court will
not interfere with the discretion of the trustee on the ground that
he has applied too small an amount, if in the exercise of his
judgment honestly and with proper motives he applies at least
the minimum amount which could reasonably be considered necessary, even though if the matter were left to the court determine
in its discretion it might have applied a larger amount. So also,
the court will not interfere on the ground that the trustee has
applied too large an amount, if in the exercise of his judgment
honestly and with proper motives he applies an amount not greater
than a reasonable person might deem necessary for the beneficiary's support, although the amount is greater than the court
would itself have awarded.
14

Metro. Life Ins. Co. v. Glenn, 554 U.S. 105, 111 (2008).

91a
mine eligibility for [ERISA] benefits,”15 the Court’s
decisions have involved either a plan administrator’s
interpretation of the plan (not an administrator’s
decision as to whether, as a factual matter, the beneficiary’s condition required a specific course of treatment),16 or a plan that expressly granted the plan
administrator “discretionary authority to determine
whether an employee’s claim for benefits is valid.”17 If
we are to accept the Supreme Court’s repeated statements that principles of trust law apply when a court
reviews the denial of ERISA benefits, then the determination at issue in the present case was committed
to the discretion of the plan administrator, and an
abuse of discretion standard should apply.
* * *
Because I would affirm the district court’s judgment,
I respectfully dissent.

15

Id. (emphasis omitted).

16

See Firestone, 489 U.S. at 570.

17

Metropolitan Life Ins. Co., 554 U.S. at 109.

92a
JENNIFER WALKER ELROD, Circuit Judge, joined
by JOLLY and CLEMENT, Circuit Judges, dissenting:
I write separately to address the decision to remand
this case to the district court. This is a waste of judicial
resources because there is no genuine issue of material
fact and the record establishes that the plan administrator did not err in declining to cover Ariana’s additional partial hospitalization. I would affirm the
district court’s judgment in favor of Humana, regardless of whether we apply the de novo standard adopted
by the majority opinion today or the standard we previously adopted in Pierre v. Connecticut General Life
Insurance Co./Life Insurance Co. of North America,
932 F.2d 1552 (5th Cir. 1991).
In ERISA cases, “[w]e review a ‘district court’s grant
of summary judgment de novo, applying the same
standards as the district court.’” Green v. Life Ins. Co.
of N. Am., 754 F.3d 324, 329 (5th Cir. 2014) (quoting
Cooper v. Hewlett-Packard Co., 592 F.3d 645, 651 (5th
Cir. 2009)). Summary judgment is appropriate when
“there is no genuine dispute as to any material fact
and the movant is entitled to judgment as a matter of
law.” Fed. R. Civ. P. 56(a).
There is no genuine issue of material fact on this
record that precludes summary judgment. At oral argument, Ariana’s counsel could point to only one possible
area of disputed fact. Ariana’s counsel seemed to
suggest that there is a genuine dispute as to whether
Dr. Hartman was qualified to make a decision about
the necessity of Ariana’s continued partial hospitalization.1 See Oral Argument at 7:25, Ariana M. v. Humana
1

Later during the argument, however, Ariana’s counsel
seemed to concede that there is no genuine dispute of material
fact, stating that “this court could decide whether these services

93a
Health Plan of Tex., Inc., No. 16-20174 (5th Cir.
argued Sept. 19, 2017) (en banc). When asked what
evidence supported her position that Dr. Hartman was
not qualified, Ariana’s counsel referenced a deposition
of Dr. Hartman. Id. But the district court did not
consider this deposition testimony “because depositions taken in earlier actions may only be used ‘in a
later action involving the same subject matter between
the same parties.’” Ariana M. v. Humana Health Plan
of Tex., Inc., 163 F. Supp. 3d 432, 439 n.1 (S.D. Tex.
2016) (quoting Fed. R. Civ. P. 32(a)(8)). And Ariana did
not appeal the district court’s decision on this evidentiary issue. See Davis v. Maggio, 706 F.2d 568, 571
(5th Cir. 1983) (“Claims not pressed on appeal are
deemed abandoned.”).
Furthermore, in accordance with Vega v. National
Life Insurance Services, Inc., 188 F.3d 287 (5th Cir.
1999) (en banc), overruled on other grounds by Metro.
Life Ins. Co. v. Glenn, 554 U.S. 105 (2008), left intact
by the majority opinion, “the district court is constrained to the evidence before the plan administrator,” even in the face of disputed facts. 188 F.3d at 299.
Dr. Hartman’s deposition testimony was not part of
the administrative record. See Ariana M., 163 F. Supp.
3d at 443 n.2. Thus, Ariana points to no evidence in
the record in support of such a dispute.
In her initial brief to the panel, Ariana seemed to
suggest that the fact that her doctors disagreed with
the assessments of Humana’s reviewing doctors regarding the proper level of care for Ariana created a fact
were primarily for the convenience of Ariana M. or were for her
treatment, if this court wants to decide that . . . .” Oral Argument
at 58:43, Ariana M., No. 16-20174 (5th Cir. argued Sept. 19, 2017)
(en banc).

94a
issue. However, the Supreme Court has held, in an
opinion issued after Firestone Tire & Rubber Co. v.
Bruch, 489 U.S. 101 (1989), that nothing in ERISA
“suggests that plan administrators must accord special deference to the opinions of treating physicians.
Nor does the Act impose a heightened burden of explanation on administrators when they reject a treating
physician’s opinion.” Black & Decker Disability Plan v.
Nord, 538 U.S. 822, 831 (2003). Thus, this court need
not defer to the opinions of Ariana’s doctors, and the
fact that they conflict with those of Humana’s doctors
does not create a fact issue.
For the reasons discussed in detail in the district
court’s opinion, see Ariana M., 163 F. Supp. 3d at 442–
43, the plan administrator did not err in deciding that
Ariana M.’s continued partial hospitalization was not
medically necessary. As the district court explained,
“Dr. Prabhu and Dr. Hartman—board-certified psychiatrists—both did peer-to-peer reviews with Ariana
M.’s health-care professionals and reviewed her medical files to apply the plan’s terms. They set out their
decisions in written reports that cited the Mihalik
criteria and explained why Ariana M. failed to meet
several prerequisites for continued treatment under
the plan.” Ariana M., 163 F. Supp. 3d at 442.
The district court’s grant of summary judgment
should be affirmed.

95a
UNITED STATES COURT OF APPEALS
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
TEL. 504-310-7700
CLERK
600 S. MAESTRI PLACE
NEW ORLEANS, LA 70130
March 23, 2018
Mr. David J. Bradley
Southern District of Texas, Houston
United States District Court
515 Rusk Street
Room 5300
Houston, TX 77002
No. 16-20174 Ariana M. v. Eyesys Vision Inc. Plan
USDC No. 4:14-CV-3206
Dear Mr. Bradley,
Enclosed is a copy of the judgment issued as the
mandate and a copy of the court’s opinion.
Sincerely,

cc:

LYLE W. CAYCE, Clerk
By: /s/ Sabrina B. Short
Sabrina B. Short, Deputy Clerk
504-310-7817
Mr. Jeffrey Hahn
Ms. Lisa S. Kantor
Mr. Joseph Ross Matetich
Ms. Cynthia Morales
Ms. Rachael Kelly Padgett
Mrs. Alicia M. Paulino-Grisham
Mr. Amar B. Raval
Mr. Peter S. Sessions
Ms. Mary Ellen E. Signorille
Mr. Carlos Ramon Soltero
Mr. Thomas Tso

96a
APPENDIX D
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
[Filed April 21, 2017]
————
No. 16-20174
————
ARIANA M.,
Plaintiff-Appellant,
v.
HUMANA HEALTH PLAN OF TEXAS, INCORPORATED,
Defendant-Appellee.
————
Appeal from the United States District Court
for the Southern District of Texas
————
Before PRADO, HIGGINSON, and COSTA, Circuit
Judges.
STEPHEN A. HIGGINSON, Circuit Judge:
Plaintiff-Appellant Ariana M. challenges DefendantAppellee Humana Health Plan of Texas’s denial of coverage for continued partial hospitalization. After reviewing the administrative record, the district court
granted Defendant’s motion for summary judgment.
We AFFIRM.
I.
Plaintiff is a dependent eligible for benefits under
the Eyesys Vision Inc. group health plan (the “Plan”),
which is insured and administrated by Humana. The
Plan’s benefits include coverage for partial hospitali-

97a
zation for mental health treatment. However, benefits
are payable only for treatments that are “medically
necessary.” “Medically necessary” is defined as
health care services that a health care practitioner exercising prudent clinical judgment
would provide to his or her patient for the
purpose of preventing, evaluating, diagnosing
or treating an illness or bodily injury, or its
symptoms. Such health care service must be:

 In accordance with nationally recognized
standards of medical practice;

 Clinically appropriate in terms of type,
frequency, extent, site and duration, and
considered effective for the patient’s illness or bodily injury;

 Not primarily for the convenience of the
patient, physician or other health care
provider; and

 Not more costly than an alternative service or sequence of services at least as
likely to produce equivalent therapeutic or
diagnostic results as to the diagnosis or
treatment of the patient’s sickness or bodily injury.
For the purpose of medically necessary, generally accepted standards of medical practice
means standards that are based on credible
scientific evidence published in peer-reviewed
medical literature generally recognized by the
relevant medical community, Physician Specialty Society recommendations, the views of
physicians practicing in relevant clinical areas and any other relevant factors.

98a
Plaintiff has a long history of mental illness, eating
disorders, and engaging in self-harm. On April 15,
2013, Plaintiff was admitted to Avalon Hills’s intensive partial hospitalization program. Partial hospitalization refers to a level of care in which a patient attends medical programming for approximately eight
hours per day. This form of care is more intensive than
either intensive outpatient or outpatient care.
Defendant initially found the treatment medically
necessary and approved partial hospitalization through
April 19, 2013, ultimately extending authorization
through June 4, 2013, for a total of 49 days. On June
5, 2013, Defendant denied continued partial hospitalization treatment, finding that it was no longer medically necessary. In making its determination, Defendant asked two doctors to review Plaintiff’s medical
treatment, using the Mihalik criteria, a privately licensed review criteria created by the Mihalik Group.
Plaintiff filed her Complaint on November 7, 2014.
On February 12, 2015, Plaintiff filed a motion to determine the standard of review, arguing that Defendant’s denial of benefits should be reviewed de novo. Defendant responded, conceding that de novo review applies to plan term interpretations; however, Defendant
also noted that under Fifth Circuit law, even when de
novo review applies, factual determinations are reviewed for abuse of discretion. Noting the parties’
agreement, the district court granted Plaintiff’s motion. Defendant next filed a motion for summary judgment along with the administrative record. Plaintiff
responded. The district court granted the motion for
summary judgment. Plaintiff appealed.
II.
Plaintiff argues that the district court erred by applying an abuse of discretion, instead of a de novo,

99a
standard to assess Defendant’s factual determinations. We disagree.
The Employee Retirement Income Security Act of
1974’s (“ERISA”) text “does not directly resolve” the
question of the appropriate standard of review of an
ERISA plan administrator’s decision to deny plan benefits. Conkright v. Frommert, 559 U.S. 506, 512 (2010).
In Firestone Tire & Rubber Co. v. Bruch, 489 U.S. 101
(1989), the Supreme Court held that “[c]onsistent with
established principles of trust law, . . . a denial of benefits challenged under [ERISA] is to be reviewed under
a de novo standard unless the benefit plan gives the
administrator . . . discretionary authority to determine
eligibility for benefits or to construe the terms of the
plan.” Id. at 115. Accordingly, where an ERISA plan
delegates discretionary authority to the plan administrator (a “discretionary clause”) courts review the plan
administrator’s decisions for abuse of discretion. See,
e.g., Barhan v. Ry-Ron Inc., 121 F.3d 198, 201 (5th Cir.
1997).
In Pierre v. Connecticut General Life Insurance
Co./Life Insurance Co. of North America, 932 F.2d
1552 (5th Cir. 1991), we interpreted Firestone to “not
require de novo review for factual determinations” and
instead found that “an abuse of discretion standard of
review is appropriate” for reviewing a plan administrator’s factual determinations. Id. at 1553. Accordingly, in this Circuit, “with or without a discretion[ary]
clause, a district court rejects an administrator’s factual determinations in the course of a benefits review
only upon the showing of an abuse of discretion.”
Dutka ex rel. Estate of T.M. v. AIG Life Ins. Co., 573
F.3d 210, 212 (5th Cir. 2009); see also Green v. Life Ins.
Co. of N. Am., 754 F.3d 324, 329 (5th Cir. 2014) (quoting Dutka and noting that the standard of review for

100a
factual determinations is abuse of discretion regardless
of the presence of a discretionary clause).
Plaintiff argues that Pierre deference does not apply
here because Texas’s anti-discretionary clause law mandates de novo review. Texas Insurance Code Section
1701.062(a) provides that “[a]n insurer may not use a
document described by Section 1701.002 [among other
things, policies for health and medical insurance] in
this state if the document contains a discretionary
clause.” Tex. Ins. Code § 1701.062(a). Under the statute, discretionary clauses include any provision that
“purports or acts to bind the claimant to, or grant deference in subsequent proceedings to, adverse eligibility or claim decisions or policy interpretations by the
insurer” or “specifies . . . a standard of review in any
appeal process that gives deference to the original
claim decision or provides standards of interpretation
or review that are inconsistent with the laws of this
state, including the common law.” Tex. Ins. Code
§ 1701.062(b)(1), (2)(D).1
Plaintiff argues that these provisions, taken together,
required the district court to review Humana’s factual
findings de novo. We disagree. The plain text of the
statute provides only that a discretionary clause cannot be written into an insurance policy; it does not
mandate a standard of review. As always, statutory
interpretation begins “with the plain language and
structure of the statute.” Coserv Ltd. Liab. Corp. v. Sw.
Bell Tel. Co., 350 F.3d 482, 486 (5th Cir. 2003). Texas’s
anti-discretionary clause law, by its terms, does not
mandate a standard of review. Instead, it provides
1

Texas has also adopted administrative rules that are substantively identical to the Insurance Code. See 28 Tex. Admin.
Code §§ 3.1201-3.1203.

101a
only that an insurer “may not use a document . . . if the
document contains a discretionary clause.” Tex. Ins.
Code § 1701.062(a). That is, Texas’s anti-discretionary
clause law concerns what language can and cannot be
put into an insurance contract in Texas. It does not
mandate a specific standard of review for insurance
claims. See Am. Council of Life Insurers v. Ross, 558
F.3d 600, 609 (6th Cir. 2009) (“[It is not] necessarily
the case . . . that, if Michigan can remove discretionary
clauses, it will be allowed to dictate the standard of
review for all ERISA benefits claims. All that today’s
case does is allow a State to remove a potential conflict
of interest.”); Curtis v. Metro. Life Ins. Co., No. 15-CV2328, 2016 WL 2346739, at *10 (N.D. Tex. May 4,
2016) (applying Texas’s anti-discretionary clause law,
but finding that factual findings should be reviewed
for abuse of discretion); Garza v. United Healthcare
Ins. Co., No. 16-CV-0853, ECF No. 30 (S.D. Tex. Jan
31, 2017) (same); Unum Life Ins. Co. of Am., v.
Mohedano, No. 13-CV-446, 2017 WL 713791, at *5 n.7
(S.D. Tex. Feb. 23, 2017) (“District courts continue to
follow [Pierre’s] mandate regarding factual determinations even where the discretionary clause is void.”).
Accordingly, we find that Texas’s anti-discretionary
clause law does not change this court’s normal Pierre
deference.2
2

Plaintiff argues that the court should reexamine Pierre.
Nonetheless, Plaintiff concedes that “one panel of this Court cannot overrule another, and that the ultimate resolution of the issue
in this Court would likely require en banc consideration.” Plaintiff is not alone in her criticism of Pierre; indeed, Pierre has been
rejected by most other Circuit Courts. Moreover, Pierre is likely
to become more important as more states adopt anti-discretionary
clause statutes. Under Firestone, courts defer to discretionary
clauses in plan documents. Until states began banning discretionary clauses, Pierre’s impact was limited because this court

102a
III.
Plaintiff next argues that the district court erred in
granting Defendant summary judgment even if an
abuse of discretion standard applies. Plaintiff raises
two issues. First, she argues that Defendant erred by
using the Mihalik criteria, instead of the raw Plan terms
or the American Psychiatric Association’s Practice
Guidelines, to assess medical necessity. Second, she
argues that under any criterion, her continued partial
hospitalization was medically necessary. We disagree.
“Standard summary judgment rules control in ERISA
cases.” Cooper v. Hewlett-Packard Co., 592 F.3d 645,
651 (5th Cir. 2009) (quoting Vercher v. Alexander &
Alexander Inc., 379 F.3d 222, 225 (5th Cir. 2004)). “We
review a ‘district court’s grant of summary judgment
de novo, applying the same standards as the district
court.’” Green, 754 F.3d at 329 (quoting Cooper, 592
F.3d at 651). “Summary judgment is appropriate when
‘there is no genuine dispute as to any material fact and
the movant is entitled to judgment as a matter of law.’”
Id. (quoting Fed. R. Civ. P. 56(a)). “This court reviews
de novo the district court’s conclusion that an ERISA
plan administrator did not abuse its discretion in denying benefits . . . .” Anderson v. Cytec Indus., Inc., 619
F.3d 505, 511 (5th Cir. 2010). “A plan administrator
abuses its discretion if it acts ‘arbitrarily or capriciously.’” Truitt v. Unum Life Ins. Co. of Am., 729 F.3d
497, 508 (5th Cir. 2013) (quoting Meditrust Fin. Servs.
Corp. v. Sterling Chems., Inc., 168 F.3d 211, 214 (5th
Cir. 1999)). “A decision is arbitrary and capricious only
if it is ‘made without a rational connection between the
known facts and the decision or between the found
was likely to defer to a plan administrator’s factual determination under the terms of the plan—not under Pierre.

103a
facts and the decision.’” Id. (quoting Meditrust, 168
F.3d at 215).3 “In addition to not being arbitrary and
capricious, the plan administrator’s decision to deny
benefits must be supported by substantial evidence.”
Anderson, 619 F.3d at 512. “Substantial evidence is
more than a scintilla, less than a preponderance, and
is such relevant evidence as a reasonable mind might
accept as adequate to support a conclusion.” Corry v.
Liberty Life Assurance Co. of Bos., 499 F.3d 389, 398
(5th Cir. 2007) (quoting Ellis v. Liberty Life Assurance
Co. of Bos., 394 F.3d 262, 273 (5th Cir. 2004)).
A.
Plaintiff contends that the plan administrator
should not have used the Mihalik criteria to determine
medical necessity because the criteria were not mentioned in the Plan’s definition of medical necessity.
Plaintiff further contends that the Mihalik criteria are
inconsistent with the Plan’s terms because they are
not consistent with “nationally recognized standards
of medical practice.” We disagree.
First, the fact that the Plan does not expressly incorporate the Mihalik criteria does not indicate that
their use in the claims adjudication procedure was improper. Instead, the Mihalik criteria simply provide
Defendant’s claims adjudicators guidance in carrying
out the terms of the Plan. Importantly, nothing in the
Mihalik criteria’s definition of medical necessity is inconsistent with the Plan’s terms as the following table
indicates:
3

This court also considers a plan administrator’s conflict of interest in assessing whether the plan administrator abused its discretion. Truitt, 729 F.3d at 508. Plaintiff made a conflict of interest argument below, but no longer presses the argument on appeal.

104a
CRITERIA FOR DETERMINING
MEDICAL NECESSITY
Plan Definition

Mihalik criteria

[H]ealth care services
that a health care
practitioner exercising
prudent clinical judgment would provide to
his or her patient for
the purposes of preventing, evaluating, diagnosing or treating an
illness or bodily injury,
or its symptoms.

Intended to identify or
treat a behavioral disorder or condition that
causes pain or suffering, threatens life, or
results in illness as
manifested by impairment in social, occupational, scholastic, or
role functioning.

In accordance with nationally
recognized
standards of medical
practice.

Consistent with nationally accepted standards of medical practice.

Clinically appropriate
in terms of type, frequency, extent, site
and duration, and considered effective for
the patient’s illness or
bodily injury.

Individualized,
specific and consistent
with the individual’s
signs, symptoms, history and diagnosis.
Reasonably expected
to help restore or maintain the individual’s
health or to improve or
prevent deterioration
in the individual’s behavioral disorder or
condition.

105a
Not primarily for the
convenience of the patient, physician or
other health care provider.

Not primarily for the
convenience of the individual, provider or
another party.

Not more costly than
an alternative service
or sequence of services
at least as likely to
produce
equivalent
therapeutic or diagnostic results as to the
diagnosis or treatment
of the patient’s sickness or bodily injury.

Provided in the least
restrictive setting that
balances safety, effectiveness
and
efficiency.

What the Mihalik criteria add to the Plan definition is
additional guidance for determining medical necessity
in specific situations. But even these additions map
onto the Plan definition of medical necessity:
MEDICAL NECESSITY OF
PARTIAL HOSPITALIZATION
Plan Definition

Mihalik criteria

[H]ealth care services
that a health care
practitioner exercising
prudent clinical judgment would provide to
his or her patient for
the purposes of preventing,
evaluating,

PM.A.g.3. The services
must be reasonably
expected to help restore or maintain the
individual’s
health,
improve or prevent deterioration of the individual’s
behavioral

106a
diagnosing or treating
an illness or bodily injury, or its symptoms.

disorder or condition,
or delay progression in
a clinically meaningful
way of a behavioral
health disorder or condition characterized by
a progressively deteriorating course when
that disorder or condition is the focus of
treatment for this episode of care.

In accordance with nationally
recognized
standards of medical
practice.

PM.A.g.1. The services
must be consistent
with nationally accepted standards of
medical practice.

Clinically appropriate
in terms of type, frequency, extent, site
and duration, and considered effective for
the patient’s illness or
bodily injury.

PM.A.g.2. The services
must be individualized, specific, and consistent with the individual’s signs, symptoms, history, and diagnosis.
PM.A.g.4. The individual complies with the
essential elements of
treatment.

Not primarily for the
convenience of the
patient, physician or
other health care provider.

PM.A.g.5. The services
are not primarily for
the convenience of the

107a
individual, provider, or
another party.
PM.A.g.6. Services are
not being sought as a
way to potentially
avoid legal proceedings, incarceration, or
other
legal
consequences.
PM.A.g.7. The services
are not predominantly
domiciliary or custodial.
Not more costly than
an alternative service
or sequence of services
at least as likely to
produce
equivalent
therapeutic or diagnostic results as to the
diagnosis or treatment
of the patient’s sickness or bodily injury.

PM.A.g.8. No exclusionary criteria of the
health plan or benefit
package are met.

The Mihalik criteria further list a number of specific
treatment initiation and treatment continuation criteria, all of which fit comfortably within the Plan’s definition of medically necessary. For example, the Mihalik criteria instruct a physician reviewing a request for
mental health treatment to consider, among other
things, “[w]ith treatment at this level, the individual
is capable of controlling behaviors and/or seeking professional help when not in a structured treatment setting[],” and “[i]f the services being proposed have been

108a
attempted previously without significant therapeutic
benefit, there is a clinically credible rationale for why
those same services could be effective now.” These
questions simply add context to the Plan’s definition of
medically necessary.
Importantly, “an insurer’s reliance on a pre-published
plan to determine what is ‘medically necessary’ can be
reasonable under ERISA.” Quality Infusion Care Inc.
v. Aetna Life Ins. Co., 257 F. App’x 735, 736 (5th Cir.
2007) (unpublished) (citing Dowden v. Blue Cross &
Blue Shield of Tex., Inc., 126 F.3d 641, 644 (5th Cir.
1997)). And this practice appears to be commonplace.
See, e.g., Love v. Dell, Inc., 551 F.3d 333, 337 (5th Cir.
2008) (“As was ValueOptions’ policy, its reviewers employed the American Society of Addiction Medicine,
Inc. Patient Placement Criteria for the Treatment of
Substance Related Disorders, Second Edition Revised,
in evaluating Love’s claims.”); Dowden, 126 F.3d at
644 (“Relying upon learned publications, Dr. Benjamin
V. Carnovale, along with other medical and legal staff
developed a written policy for the uniform processing
of the claims of silicone breast implant patients. Consistent with the insurance contract, the policy also
enumerates which procedures are medically necessary.”).
Put another way, we hold that an insurer is permitted to rely on medical review criteria to make coverage
decisions so long as those criteria are not inconsistent
with the plan’s terms.
Second, Plaintiff is incorrect that the Mihalik criteria do not represent nationally recognized standards
of medical practice. Instead, the record indicates that
the Mihalik criteria are intended to represent nationally recognized standards of medical practice, were
created in consultation with a group of doctors and

109a
health professionals from across the country, and were
based on extensive medical literature. Plaintiff does
not point to any record evidence indicating that the
Mihalik criteria do not represent a nationally recognized standard of medical practice. Plaintiff additionally argues that Defendant should have used the
guidelines created by the American Psychiatric Association. But Plaintiff does not contend that the Plan
documents or ERISA require the use of any particular
representation of the national standard of care. Accordingly, because the record supports finding that the
Mihalik criteria are in line with national standards,
the district court did not err in finding that Defendant’s consideration of the Mihalik criteria was proper.
B.
The parties next dispute whether Plaintiff’s continued partial hospitalization was medically necessary.
The question of whether a proposed treatment is medically necessary is a factual determination and therefore reviewed for abuse of discretion. Meditrust Fin.
Servs., 168 F.3d at 214 (“The Plan persuasively argues
that the decision to deny benefits based on lack of medical necessity involves a review of the facts in Revels’s
hospital records and a determination of whether there
is factual support for her claim. . . . [T]hese medical
assessments do not constitute an issue of contract interpretation. Deciding the medical progress of a patient
through analysis of medical reports and records is similar to the factual determinations we have reviewed for
abuse of discretion in other ERISA cases. Therefore,
we affirm the district court’s conclusion that it should
review the Plan’s decision for abuse of discretion because the Plan made a factual determination.” (footnote omitted)).

110a
Plaintiff contends that the district court erred in
finding that Defendant’s medical necessity determination was not an abuse of discretion because “[t]he
treatment records clearly demonstrated that Ariana’s
PHP treatment at Avalon Hills was medically necessary because she exhibited self-harm as well as urges
to engage in risky behavior severely detrimental to her
health.” We disagree.
Two medical reviewers considered Plaintiff’s claim
and concluded that continued partial hospitalization
was not medically necessary. The two reviewing doctors agreed that Plaintiff was not an imminent danger
to herself or others and that Plaintiff was medically
stable. Doctor Prabhu further stated that Plaintiff
could have received effective outpatient (as opposed to
partial hospitalization) care. These conclusions were
supported by substantial record evidence. Both doctors
spoke directly with Plaintiff’s treating physicians and
reviewed relevant medical literature before making
their coverage decisions.
Plaintiff disputes the reviewing doctor’s conclusions,
pointing to record evidence that she was “really not
progressing very well,” was “at [a] high risk of relapse,” and was likely to continue restricting (not eating enough food) and over-exercising. However, the reviewing doctors were aware of this information. Indeed, the continued medical risks Plaintiff faced were
extensively documented in Doctor Prabhu’s report.
Nonetheless, the reviewing doctors found that an outpatient course of treatment was the most cost-effective
way to mitigate Plaintiff’s medical risk. Specifically,
Doctor Prabhu found that Plaintiff could “be safely
treated in a less restrictive setting.”
By the time that Plaintiff was denied continued coverage, the reviewing doctors found that her condition

111a
had stabilized. Indeed, both reviewing doctors noted
that Plaintiff had improved enough during her course
of treatment to no longer be an imminent danger to
herself or others. Doctor Prabhu noted that Plaintiff
had “made progress about herself harm (still has the
thoughts and urges but doesn’t anymore).” Doctor
Hartman agreed, noting that “[t]he patient denies suicidal ideation/homicidal ideation (SI/HI) or psychosis.” During her time at Avalon, Plaintiff also reached
a healthy weight. Based on this improvement, Doctor
Prabhu concluded that Plaintiff “appear[ed] to be at
her baseline behaviors.” Additionally, both doctors
agreed that Plaintiff’s progress in partial hospitalization treatment had stalled because Plaintiff was not
invested in her course of treatment.
Moreover, that Plaintiff’s doctors disagreed with Defendant’s assessment of the proper level of care for
Plaintiff’s condition does not create a genuine issue of
material fact. See, e.g., Anderson, 619 F.3d at 517
(“[ERISA plan administrator] was not obliged to
accept the opinions of [plaintiff’s] treating physicians.”);
Meditrust Fin. Servs., 168 F.3d at 215 n.7 (upholding
denial of benefits despite disagreement between reviewing doctors and treating physicians). Indeed, our
law is clear that “an administrator does not abuse its
discretion by relying on the medical opinions of its consulting physicians instead of the medical opinions of a
claimant’s treating physicians.” Corry, 499 F.3d at 402
(5th Cir. 2007).
It was not unreasonable on this record to conclude
that Plaintiff could be treated with a less costly,
equally effective outpatient treatment. Because the
plan’s definition of medical necessity requires that the
treatment not be “more costly than an alternative service or sequence of services at least as likely to produce

112a
equivalent therapeutic or diagnostic results as to the
diagnosis or treatment of the patients sickness or bodily injury[,]” substantial evidence supports Defendant’s finding that further treatment at Avalon Hills
was not medically necessary.
IV.
We have considered Plaintiff’s remaining arguments
and find them without merit. The district court’s order
granting Defendant summary judgment is AFFIRMED.

113a
GREGG COSTA, Circuit Judge, joined by EDWARD
C. PRADO and STEPHEN A. HIGGINSON, Circuit
Judges, specially concurring:
As any sports fan dismayed that instant replay did
not overturn a blown call learns, it is difficult to overcome a deferential standard of review.
1

The deferential standard of review our court applies to ERISA decisions often determines the outcome
of disputes that are far more important than a sporting event: decisions made by retirement and health
plans during some of life’s most difficult times, as this
case involving a teenager with a serious eating disorder demonstrates. So it is striking that we are the only
circuit that would apply that deference to factual determinations made by an ERISA administrator when
the plan does not vest them with that discretion. Compare Pierre v. Conn. Gen. Life Ins. Co. of N. Am., 932
F.2d 1552, 1562 (5th Cir. 1991), with Kinstler v. First
Reliance Standard Life Ins. Co., 181 F.3d 243, 250–51
(2d Cir. 1999); Luby v. Teamsters Health, Welfare &
Pension Trust Funds, 944 F.2d 1176, 1183–84 (3d Cir.
1991); Reinking v. Phila. Am. Life Ins. Co., 910 F.2d
1210, 1213–14 (4th Cir. 1990) (overruled on other
grounds by Quesinberry v. Life Ins. Co. of N. Am., 987
F.2d 1017, 1030 (4th Cir. 1993)); Rowan v. Unum Life
Ins. Co. of Am., 119 F.3d 433, 435–36 (6th Cir. 1997);
Ramsey v. Hercules, Inc., 77 F.3d 199, 203–05 (7th Cir.
1996); Walker v. Am. Home Shield Long Term Disability Plan, 180 F.3d 1065, 1070 (9th Cir. 1999); Shaw v.
1

See NATIONAL FOOTBALL LEAGUE, OFFICIAL PLAYING RULES
OF THE NATIONAL FOOTBALL LEAGUE, R. 15, § 2, art. 3 (2016)
(“A decision will be reversed only when the Referee has clear and
obvious visual evidence available that warrants the change.”); see
also MAJOR LEAGUE BASEBALL, OFFICIAL BASEBALL RULES,
R. 8.02(c) (2016).

114a
Conn. Gen. Life Ins. Co., 353 F.3d 1276, 1285 (11th Cir.
2003) (all applying de novo review when the plan does
not grant discretion).
Pierre did not have the benefit of this robust case
law. It was writing largely on a blank slate as only one
other circuit (the Fourth) had at that time ruled on the
standard to apply to factual determinations in ERISA
cases when the plan did not delegate discretion to the
administrator. 932 F.2d at 1556– 57. The unanimous
view of the six other circuits that have weighed in on
the other side of the split Pierre created, as well as
other developments during the quarter century since
we decided the question, calls our view into doubt.
Pierre turned largely on an interpretation of a thenrecent Supreme Court case, Firestone Tire & Rubber
Co. v. Bruch, 489 U.S. 101 (1989). Pierre had to decide
whether the de novo standard of review discussed in
Firestone applies only to interpretations of plan terms
or also includes factual determinations of benefit eligibility. Pierre, 932 F.2d at 1556 (noting conflicting language in Firestone on this question). In addition to
every other circuit reading Firestone differently,2 a

2

Other circuits place considerable weight on the broad language Firestone used when describing review of an administrator’s factual decision: “we hold that a denial of benefits . . . is to
be reviewed under a de novo standard unless the benefit plan
gives the administrator or fiduciary discretionary authority to determine eligibility for benefits or to construe the terms of the
plan.” Firestone, 489 U.S. at 115 (emphasis added). A plan administrator generally makes factual determinations when determining the eligibility for benefits, so this language has been read
broadly to apply de novo review to factual findings. See, e.g., Ramsey, 77 F.3d at 202. Circuits also emphasize that deferring to the
administrator when the plan does not vest her with fact-finding
authority would “afford less protection to employees and their

115a
more recent Supreme Court decision—even if it does not
“unequivocally direct[ ]” us to overrule our precedent3—
counsels against Pierre’s reading. Metro. Life Ins. Co.
v. Glenn, 554 U.S. 105 (2008), lists the following as one
of the “principles of review” that Firestone set forth:
“Principles of trust law require courts to review a denial of plan benefits ‘under a de novo standard’ unless
the plan provides to the contrary.” Id. at 110–111
(quoting Firestone, 489 U.S. at 115). A “denial of plan
benefits” may and often does encompass a denial based
on factfinding. Glenn treats de novo review as the general standard without limiting it to denials “based on
plan term interpretations,” the phrase that appeared
in one Firestone passage on which Pierre placed much
importance. Pierre, 932 F.2d at 1556 (quoting Firestone, 489 U.S. at 108).
Apart from Glenn’s implication that Pierre’s deference is not warranted, one of the primary reasons we
cited for that deference—that trust law draws a distinction between judicial review of a trustee’s legal and
factual decisions—has not withstood scrutiny. Trust
law traditionally provided different standards of review based on whether a decision was mandatory or
discretionary according to the trust document, not
whether that decision was factual or legal. Ramsey, 77
F.3d at 203. In a thorough discussion citing treatises
on trust law as well as nineteenth century British and
American cases, the Seventh Circuit found no basis for
beneficiaries than they enjoyed before ERISA was enacted.” Rowan, 199 F.3d at 436 (quoting Firestone, 489 U.S. at 114).
3

In re Tex. Grand Prairie Hotel Realty, LLC, 710 F.3d 324, 331
(5th Cir. 2013) (quoting Reed v. Fla. Metro. Univ., Inc., 681 F.3d
630, 648 (5th Cir. 2012) (noting this as the high standard needed
for us to conclude that a Supreme Court opinion overrules our
precedent)).

116a
distinguishing legal questions from factual ones because “[e]ver since the English courts of equity developed the trust instrument, trustees have been answerable to the beneficiaries for a host of factually specific
decisions, including reviews of accounts and investment decisions.” Id. Another reason Pierre gave for
finding a fact/law distinction in trust law—that factual decisions are “necessary or appropriate” for plan
administration and thus are granted deference under
the Restatement (Second) of Trusts (see Pierre, 932
F.2d at 1558)—applies with equal force to plan interpretations. See Rowan, 119 F.3d at 436 (concluding
that the Restatement language Pierre relied on “does
not provide any basis for distinguishing between court
review of factual determinations and review of interpretations of claim language”). One prominent scholar
argues that Firestone got trust law wrong: “classic
trust law assumed that the trustee had discretion unless the trust instrument or some particular doctrine
of trust law provided otherwise,” whereas Firestone
says that the default standard is de novo and the plan
has to grant discretion. Ramsey, 77 F.3d at 203–04
(citing John H. Langbein, The Supreme Court Flunks
Trusts, 1990 SUP. CT. REV. 207, 219). So Pierre may
well be correct in reading trust law as providing deferential review for fact-based decisions when the plan
was silent. It failed to recognize, however, that Firestone “reversed the presumption.” Id. at 204. As “there
was and is no [trust law] distinction based on the kind
of decision the trustee is making,” id., trust law’s congruity for review of legal or factual questions would
seem to support applying Firestone’s de novo standard
to review of denials of any sort.
Pierre’s analogy to the limited factual review appellate courts give trial courts and administrative agencies has also been questioned. That deference is to a

117a
neutral factfinder, whereas ERISA plan administrators often have conflicts of interest as many both decide and pay claims. Perez v. Aetna Life Ins. Co., 96
F.3d 813, 823–24 (6th Cir. 1996), vacated for reh’g en
banc, 106 F.3d 146 (6th Cir. 1997); see also Rowan, 119
F.3d at 436. As the Seventh Circuit has explained, district courts and administrative agencies “enjoy [ ] a
well established set of procedural protections that
stem from the Constitution and individual statutes.
Plan administrators, in contrast, neither enjoy the
acknowledged expertise that justifies deferential review for agency cases, nor are they unbiased fact finders like the courts.” Ramsey, 77 F.3d at 205 (internal
citation omitted). Glenn reinforced this distinction,
holding that judicial review should take account of a
plan administrator’s conflict even under the abuse of
discretion review that governs when a plan grants discretion. 554 U.S. at 115. Granting those conflicted decisionmakers deference even when the plan does not
call for it would “afford less protection to employees
and their beneficiaries than they enjoyed before
ERISA was enacted.” Rowan, 119 F.3d at 436 (quoting
Firestone, 489 U.S. at 114).
Pierre also voiced concerns about courts’ ability to
conduct de novo review of factual determinations, believing that it would be a “difficult and uncertain exercise on a cold record.” 932 F.2d at 1559. In the place
of speculation, we now have the experience of seven
other circuits. No administrative difficulties are evident from these circuit’s de novo review of benefit denials that rest on factual determinations. Doctors’ reports provide district courts with guidance on determining factual issues, and courts can appoint independent experts to evaluate complicated medical evidence. See, e.g., Walker v. Am. Home Shield Long Term
Disability Plan, 180 F.3d 1065, 1070–71 (9th Cir.

118a
1999). When doctors’ reports reach differing conclusions, it is well within the capabilities of a district
court to determine which is more credible. See Grady
v. Paul Revere Life Ins. Co., 10 F. Supp. 2d 100, 113–
14 (D. R. I. 1998) (evaluating how much exposure a reviewing doctor had with the claimant to decide
whether the reviewing doctor’s diagnosis was credible). That evaluation of medical testimony is something federal courts are much more familiar with now
than when Pierre was decided given the advent of
Daubert hearings. See Daubert v. Merrell Dow Pharm.,
Inc., 509 U.S. 579 (1993).
The pillars supporting Pierre may have thus eroded.
This question concerning the standard of review for
ERISA cases is not headline-grabbing. But it is one
that potentially affects the millions of Fifth Circuit
residents who rely on ERISA plans for their medical
care and retirement security. When decisions by those
plans are challenged in court, Pierre matters now
much more than it did. Texas’s anti-delegation statue
(assuming it is not preempted) means that the abuse
of discretion standard is no longer dictated for most
cases by plan provisions vesting discretion, but by
Pierre’s default deference. And the circuit split on that
default standard undermines the uniform treatment
of ERISA plans—sometimes the same plan offered by
employers in different states—that the federal statute
seeks to achieve. Gobeille v. Liberty Mut. Ins. Co., 136
S. Ct. 936, 944 (2016).
The default standard for judicial review of factbased ERISA decisions was a significant enough question for two Justices to vote to review Pierre after it
created a split with the Fourth Circuit. Pierre, 502
U.S. 973, 973–74 (1991). The lopsided split that now
exists cries out for resolution.

